<html>
<title> - EVALUATE THE DEGREE TO WHICH THE PRELIMINARY FINDINGS ON THE FAILURE OF THE LEVEES ARE BEING INCORPORATED INTO THE RESTORATION OF HURRICANE PROTECTION</title>
<body><pre>[Senate Hearing 109-1013]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1013
 
EVALUATE THE DEGREE TO WHICH THE PRELIMINARY FINDINGS ON THE FAILURE OF 
  THE LEVEES ARE BEING INCORPORATED INTO THE RESTORATION OF HURRICANE 
                               PROTECTION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           November 17, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
39-525                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 17, 2005
                           OPENING STATEMENTS

Bond, Hon. Christopher, U.S. Senator from the State of Missouri..     6
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     5
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     2
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska, 
  prepared statement.............................................    38
Thune, Hon. John, U.S. Senator from the State of South Dakota....     7
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3

                               WITNESSES

Gagliano, Sherwood, Ph.D., president, Coastal Environments, Inc..    24
    Prepared statement...........................................    43
    Responses to additional questions from:
        Senator Jeffords.........................................    68
        Senator Vitter...........................................    68
Hitchings, P.E., Daniel E., Regional Business Director, 
  Mississippi Valley Division, U.S. Army Corps of Engineers......     8
    Prepared statement...........................................    39
Roth, Larry, P.E., deputy executive director, American Society of 
  Civil Engineers................................................    25
    Prepared statement...........................................    70
    Responses to additional questions from:
        Senator Jeffords.........................................    75
        Senator Vitter...........................................    75
Suhayda, Joseph N., Ph.D., emeritus engineering professor, 
  Louisiana State University.....................................    28
    Prepared statement...........................................    76
    Responses to additional questions from:
        Senator Jeffords.........................................    78
        Senator Vitter...........................................    78
Verchick, Robert R.M., Gauthier-St. Martin eminent scholar chair 
  in environmental law, Loyola University New Orleans............    30
    Prepared statement...........................................    80
    Responses to additional questions from:
        Senator Inhofe...........................................    87
        Senator Jeffords.........................................    88
        Senator Vitter...........................................    89
Zimmie, Thomas F., Ph.D., professor and acting chair of Civil and 
  Environmental Engineering Department, Rensselaer Polytechnic 
  Institute......................................................    23
    Prepared statement...........................................    41
    Responses to additional questions from Senator Vitter........    42


EVALUATE THE DEGREE TO WHICH THE PRELIMINARY FINDINGS ON THE FAILURE OF 
  THE LEVEES ARE BEING INCORPORATED INTO THE RESTORATION OF HURRICANE 
                               PROTECTION

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2005


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Bond, Thune, Isakson, Vitter, 
Jeffords, and Carper.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Good morning and welcome to our fourth full 
committee hearing on the response to Hurricanes Katrina and 
Rita. Our first two hearings focused on the Federal response to 
the hurricanes and our most recent hearing considered some 
steps required to bring into focus the degree to which the 
preliminary findings on the failure of the levees are being 
incorporated into the restoration of hurricane protection in 
Louisiana. Repairs to the levee system must begin now in order 
to prepare for the next hurricane season, which means that we 
can't wait for final reports to begin the rebuilding.
    Conversely, if preliminary findings suggest areas of 
weakness in levee design or construction, it is important to 
incorporate those preliminary findings in near-term restoration 
efforts. The challenge we have at hand is incorporated in the 
lessons learned from the ongoing assessment of levee 
performance, while simultaneously restoring the levee system to 
pre-hurricane design.
    So I thank all of you for coming today. Senator Jeffords, 
we had said as soon as we get 6 Members here, we will probably 
take up these amendments and then of course, we will have to 
have 10 for, I think we have 5 final passages on resolutions. 
So we may have to do that off the floor during a vote, perhaps.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Good morning and welcome to our fourth full committee hearing on 
the response to Hurricanes Katrina and Rita. Our first two hearings 
focused on the Federal response to the hurricanes and our most recent 
hearing considered some steps required to develop a comprehensive plan 
for Coastal Louisiana, including storm protection, navigation and 
wetlands restoration. Today, we will evaluate the degree to which the 
preliminary findings on the performance of the levees are being 
incorporated into the restoration of hurricane protection.
    I want to thank all of our witnesses for coming today and 
participating in this committee's ongoing and comprehensive review of 
hurricane response and recovery. I appreciate your willingness to 
travel here, and I look forward to hearing from you.
    Before we get too far down the road of deciding what we should do 
when rebuilding, we first must understand happened to the levees and 
why the city was flooded. If mistakes were made in the past, they must 
be rectified. There are a number of experts here today that have been 
taking a look at this very issue, and while it is too early for final 
conclusions, some preliminary assessments have already been made. I 
understand that the Army Corps of Engineers has been making some 
adjustments when restoring the current protection to take into account 
these initial findings.
    This hearing is especially important in that it will help bring 
into focus the degree to which the preliminary findings on the failure 
of the levees are being incorporated into the restoration of hurricane 
protection in Louisiana. Repairs to the levee system must begin now in 
order to prepare for the next hurricane season, which means that we 
can't wait for the final reports to begin the rebuilding. Conversely, 
if preliminary findings suggest areas of weakness in levee design or 
construction, it is important to incorporate those preliminary findings 
in near-term restoration efforts. The challenge we have at hand is 
incorporating the lessons learned from the ongoing assessment of levee 
performance while simultaneously restoring the levee system to pre-
hurricane design standards.
    Once again, thank you all for coming today. I look forward to 
working with all of you and my colleagues on the EPW Committee to 
ensure that we restore hurricane protection to Louisiana in an 
effective and responsible manner.

    Senator Inhofe. Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good morning, Mr. Chairman. I am pleased 
to once again be here to receive testimony regarding the 
reconstruction of the flood control system in the wake of 
Hurricane Katrina. Today we will hear from the Army Corps of 
Engineers and multiple experts regarding the rebuilding of the 
levees and whether or not the Corps is considering the 
preliminary information regarding levee failures as it rebuilds 
New Orleans.
    Last week, I said that without adequate flood control, 
redevelopment will be impossible. It is imperative that as we 
try to rebuild flood control quickly, in preparation for 
another hurricane season, we do not build a fatally flawed 
system that could further erode public confidence and slow 
redevelopment. It is part of this committee's responsibility, 
as the committee jurisdiction for the Army Corps, to ensure 
that water resources are a positive force in the redevelopment 
of New Orleans, not a hurdle to overcome.
    Today's hearing will, I hope, identify what needs to be 
done to ensure that an initial rebuild is effective. That will 
be the first step in what should be a comprehensive, integrated 
water resources plan to provide protection and restore 
ecosystems.
    Thank you.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Good morning. Mr. Chairman, I am pleased to once again be here to 
receive testimony regarding reconstruction of the flood control system 
in the wake of Hurricane Katrina.
    Today, we will hear from the Army Corps of Engineers and multiple 
experts regarding the rebuilding of the levees and whether or not the 
Corps is considering the preliminary information regarding levee 
failures as it rebuilds in New Orleans.
    Last week, I said that without adequate flood control, 
redevelopment will be impossible. It is imperative that as we try to 
rebuild flood control quickly, in preparation for another hurricane 
season, we do not build a fatally flawed system that could further 
erode public confidence and slow redevelopment.
    It is part of this committee's responsibility as the committee of 
jurisdiction for the Army Corps to ensure that water resources are a 
positive force in the redevelopment of New Orleans, not a hurdle to be 
overcome.
    Today's hearing will, I hope, identify what needs to be done to 
ensure that our initial rebuild is effective. That will be the first 
step in what should be a comprehensive, integrated water resources plan 
to provide flood protection and restore ecosystems.

    Senator Inhofe. Thank you, Senator Jeffords.
    We will have to have six Members, but we also have to have 
two Democrats, so we will wait until a Democrat comes in, and 
we may interrupt our opening statements at that point to handle 
one of the business items that will be necessary.
    Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman and Ranking Member 
Jeffords, for having this hearing. It is very important. I had 
requested this hearing because it is so important to understand 
exactly why the levee system failed in the greater New Orleans 
area during Hurricane Katrina. It is important to understand 
that so we move forward in the right way, not just rebuilding 
levees and floodwalls, but making sure we rebuild them right, 
so they provide a solid foundation of protection for the next 
hurricane season.
    Before Hurricane Katrina, an estimated two-thirds of the 
entire population of Louisiana lived in the areas now declared 
disaster areas. Those folks, many of them are still deciding 
whether or not to return home. Restoration of the hurricane 
protection system and assurance that we will use a better, 
smarter design and build more protection is absolutely crucial 
to allowing those people and businesses and investors to return 
home.
    Today, I look forward to hearing from the Army Corps of 
Engineers and other independent teams about the preliminary 
findings from their investigations and the levee system's 
performance during Hurricane Katrina. I want to thank all of 
those witnesses for being here today and for their important 
ongoing work.
    Preliminary findings seem to show that there is a problem 
when rebuilding the levees and floodwalls are done with 
different designs. For instance, the transition points in the 
protection system between different types of designs for levees 
and floodwalls actually weakened the structure. For this 
reason, we must not rebuild only in areas of the system that 
had a failure, because first, it won't address the fundamental 
design problems with the other parts of the system that 
happened not to fail, but were designed the same way. Second, 
it is actually multiplying the transition points between 
different types of systems. Again, those transition points are 
points of weaknesses.
    So there needs to be consistency in the design of the 
levees and floodwalls to make sure we do not have failures 
again. Of course, that is the whole point, we must make sure 
that this devastation, which has caused tremendous heartache 
and misery and loss on the ground and tremendous cost to the 
Federal Treasury never happens again.
    We need stronger, improved hurricane protection now. 
Rebuilding to just pre-Katrina conditions isn't an option. When 
we say to Louisianans, we have a Category 3 protection system 
in place, we need to be certain that we have a true Category 3 
protection system in place. I certainly hope that is the goal 
for the next hurricane season, and then to go beyond with an 
intelligent design of a higher standard of protection.
    So thank you very much, Mr. Chairman and Ranking Member, 
for this hearing.
    [The prepared statement of Senator Vitter follows:]

    Statement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana

    Thank you Chairman Inhofe and Ranking Member Jeffords for holding 
this hearing today. I requested that the Environment and Public Works 
Committee hold this hearing because it is very important to understand 
what caused the levee system to fail during Hurricane Katrina so that 
these factors can be incorporated in making the levees better and 
stronger so they will withstand future storms. This time we need to not 
just rebuild the levees and floodwalls, but rebuild them right so they 
provide a solid foundation of protection for the next hurricane season.
    Before Hurricane Katrina, an estimated two-thirds of the population 
of Louisiana lived in the areas now declared disaster areas. 
Louisianans are still deciding whether or not to return home. 
Restoration of hurricane protection that incorporates better, smarter 
designs is a key factor for people and businesses when deciding whether 
or not to return to Louisiana.
    The city of New Orleans and the surrounding parishes are below sea 
level. Once the storm surge overwhelmed the levee and floodwalls 
system, the Greater New Orleans area had extensive flooding. For 
several weeks, the areas remained flooded. Many Louisianans lost their 
homes and over 1,100 lives were lost. This is why stronger hurricane 
protection must be put in place by the next hurricane season to ensure 
it is safe for Louisianans to return home and as they rebuild their 
lives in Louisiana.
    Today, I look forward to hearing from the Army Corps of Engineers 
and other independent teams about the preliminary findings from their 
investigations of the levee system's performance during Hurricane 
Katrina. I would like to thank the witnesses for testifying before the 
committee today and providing critical information from their 
investigations that will be important toward the effort in restoring 
stronger hurricane protection in Louisiana.
    From hearing the witness's testimony today, we will have a better 
understanding of whether the failure in our protection system was due 
to geological considerations, overtopping, other design problems, or 
other causes. In order to provide a stronger level and smarter design 
for hurricane protection in Louisiana, it is important that we 
understand how faults occurred in the system and what designs need 
improvement. It is also important to recognize that these failures in 
the system could happen in other areas along the hurricane protection 
system too. We need to be certain that those areas of the system that 
did not fail during Hurricane Katrina are not at risk of failing during 
future storms.
    Preliminary findings show that there is a problem when rebuilding 
the levees and floodwalls with different designs. The transition points 
in the protection system between different types of designs for levees 
and floodwalls actually weaken the structure. For this reason, we 
should not rebuild only areas of the system that had a failure because 
it will not address the fundamental design problem within the entire 
hurricane protection system. There needs to be consistency in the 
design of the levees and floodwalls otherwise if only the levees that 
failed are rebuilt with better designs for stronger protection, the 
rest of the levee and floodwall system will just weaken the entire 
structure and protection system. Obviously, it is necessary that all of 
these areas of the system are upgraded with better designs that 
guarantee stronger hurricane protection.
    We must make sure this devastation never happens again. We need 
stronger, improved hurricane protection now. Rebuilding to just ``pre-
Katrina'' conditions is not an option. When we say to Louisianans that 
we have a Category 3 hurricane protection system in place, we need to 
be certain that we truly mean we have a true Category 3 protection 
system in place. We need a strong foundation on which to build upon in 
the future. Therefore, we need a true standard of hurricane protection 
now that provides a solid, consistent, strong level of protection 
throughout the entire system.
    Thank you.

    Senator Inhofe. Thank you, Senator Vitter.
    Senator Isakson is here for an opening remark. But you also 
might mention, we are going to be asking unanimous consent when 
we have the appropriate number here to include yours on the 
agenda, since we didn't have the time to do it in the normal 
way, as we discussed yesterday. So you might, while we are 
waiting for another person to come, go ahead with your opening 
statement, then we will recognize you to explain that, so that 
we will be ready when the appropriate time comes.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. As far as an opening statement is 
concerned, I want to really commend Senator Vitter for the hard 
work that he's undertaken in this committee since the tragedy 
of Katrina to really dig down and find out the facts, so we do 
not repeat mistakes of the past that were made, not 
intentionally, but we have learned from since Katrina. I 
sincerely hope we will continue as a Senate to learn from what 
we learn of the past, and build constructively in the future, 
so as to avoid those breaches or anything that might have 
contributed to those breaches.
    But not to get into a blame game of historically what 
happened in the past, but instead a learning experience so we 
can do it right in the future. I commend Senator Vitter for his 
efforts in that regard, and I look forward to working with him 
and the Members of the committee with regard to the levees in 
New Orleans and their reconstruction.
    Would you like for me to go into the----
    Senator Inhofe. Yes, why don't you just briefly, and then 
we will be ready for that.
    Senator Isakson. Mr. Chairman, I was asked by a dear friend 
of mine, Dr. Sullivan, the former Secretary of Health and Human 
Services in the Bush I administration, to shepherd a piece of 
legislation in the Senate dealing with the land transfer of 
currently Government-owned property on Independence to the 
National Health Museum, which is a private, not-for-profit, 
501(c)(3), that Dr. Sullivan and other leaders in medicine have 
founded. The purpose of transferring the land is for them to 
build the National Museum of Health, which will be built 
privately, operated privately and funded privately.
    In the course of discussions with Members of the House and 
the Senate on this proposal, questions arose with regard to 
certain issues that are controversial. Among them, the issue of 
abortion, assisted suicide and things of that nature. After 
meeting with a number of Members, Dr. Sullivan's board and 
those Members agreed to report language to acknowledge that 
concern and state the following. The museum will be sensitive 
in developing mission statements, museum activities and museum 
content in order to respect the strongly held opinions of a 
majority of Americans. To that end, the museum should strive to 
highlight and encourage medical thought history, techniques and 
technologies that are life-affirming and life-saving. The 
museum shall develop and report to Congress a viable business 
plan.
    I want to interrupt myself here. The reason for the viable 
business plan is, there were concerns raised about the 
Government transferring the land, them building the museum, the 
museum getting into financial trouble and there being some 
presumption that by transferring the land there was an implicit 
commitment to take over the operation and the funding of the 
museum. So they added the following language.
    Should the situation arise whereby the museum is unable to 
sustain financial solvency, the museum shall not receive funds 
from the Federal Treasury. So it makes it clear that in 
transferring the land, which the U.S. Government owns, and the 
taxpayers, the museum is assuming the financial responsibility, 
not only for the construction, but for the operation.
    So my request of the committee, when the time is 
appropriate, is that we adopt the land transfer language, which 
is in Senate Res. 2015, and accompany with it the report 
language that the Members and the museum board have discussed.
    Senator Inhofe. OK, I would say that Senator Jeffords and 
the minority have agreed to this, so it won't take a UC, and it 
is now on the agenda.
    Senator Isakson. Thank you, sir.
    Senator Inhofe. Senator Bond.
    Senator Bond. Thank you, Mr. Chairman.
    I never was one of the Singing Senators, so I would defer 
to Senator Jeffords, if he wishes to lead us in Happy Birthday 
to our Chairman. Do you want to try that, Senator?
    [Chorus of Happy Birthday to Senator Inhofe.]
    Senator Bond. Reclaiming my time before anybody gets hurt--
--
    Senator Inhofe. Up to now, this has been a happy birthday--
--
    [Laughter.]
    Senator Bond. You see why the Singing Senators have 
dissolved.
    [Laughter.]

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. In any event, I thank you, Mr. Chairman, for 
holding this hearing and wish you well for this and all 
succeeding coming years. I am delighted we are moving on the 
authorization for this study today on rebuilding levees. I 
think people who have fought against levee construction as they 
did in Missouri after the 100 years floods of 1993 and 1995 
will understand why adequate levees are critically important to 
protect our people as well as property.
    I trust, No. 1, that any authorization will come through 
this committee as the authorizing committee. I think we ought 
to demand that any projects be authorized, be laid out before 
us before it goes to funding. Not that I am against 
appropriators doing authorizing language, generally, but I 
think that in this instance we should hold hearings. I think 
the Corps should look at quite a few options, like filling in 
the channel which brought the hurricane up to New Orleans. I 
think they ought to take a look at determining whether there 
are some parts of New Orleans that cannot be, some of the very 
low areas, which cannot be effectively and efficiently 
protected while we protect the very important core of New 
Orleans. I think we owe that to New Orleans, but we cannot 
protect the unprotected.
    So I trust the Corps will examine those issues and I very 
much appreciate, as we all do, the great work that Senator 
Vitter has done, very responsibly bringing forth the need for 
massive assistance. So I look forward to approving the items on 
the agenda today and thank you very much for holding this 
markup and hearing.
    Senator Inhofe. Thank you, Senator Bond.
    Senator Thune.

  OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE 
                     STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    I also want to commend our colleague from Louisiana, 
Senator Vitter, for the extraordinary work that he has done as 
a very passionate advocate for his constituents in Louisiana, 
but also for the very thoughtful way that he has gone about 
this. I think it is important, and we all recognize that when 
we go about this rebuilding process that it be done in the 
correct way so that we can avert future disasters like this 
down the road.
    So I appreciate very much his efforts in shedding light on 
this subject and helping us understand the implications of the 
decisions that we make and the policies that we put in place. 
So I want to join and echo what has already been said this 
morning about the efforts of the Senator from Louisiana with 
respect to this very, very important issue for him and for our 
entire Nation.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Thune. I have been 
informed that we do not have any other Democrats coming at this 
time to attend this meeting, so we won't be able to do even the 
amendment portion of the business meeting.
    So what I would like to ask the Members to do is, let's 
plan to meet in the President's Room after the first vote and 
we will have a business meeting at that time, at which time we 
will take up the amendments that are the manager's amendments 
as well as the items that require 10 Members.
    So with that, I would ask Senator Vitter, if he would come 
over here and chair this meeting, and we will forego the 
business meeting until after the first vote.
    If you'd like, Senator Vitter, while you are getting 
prepared, I will tell my birthday story. Would you like to hear 
that?
    Senator Vitter. Mr. Chairman, we'd all love to hear that.
    [Laughter.]
    Senator Inhofe. November 17 is not only important to me 
because it is my birthday, not as important to me as it is my 
20 kids and grandkids, but it happens that on November 17, 11 
years ago today I also was sworn in as a Member of the Senate. 
Because it was a special election, I was replacing someone who 
had retired.
    I remember it so well, and this will come as a shocker to 
those on the left side of this meeting here, I used to be quite 
a loudmouth, Senator Vitter. I remember the first day I was 
sworn in, I saw Wendell Ford from Kentucky down on the floor 
saying something that I disagreed with. I went down and I just 
really lit into him and it was brutal. I thoroughly enjoyed it.
    As I was going back, I went down into the basement to take 
the train over to the Russell Building and there was Senator 
Bob Byrd. Now, keep in mind, this was my 60th birthday and the 
day I was sworn in.
    He said, ``Young man, I admire your spunk, but we in the 
Senate do not do it that way like you do,'' and he went on to 
tell me about the history of the Senate and it takes unanimous 
consent and you can't have all that. But I will always remember 
that as being, my first day here was my 60th birthday, so it is 
a very special day today. I have mellowed a lot during the 
years.
    [Laughter.]
    Senator Vitter [presiding]. Great. Thank you again, Mr. 
Chairman, for calling this hearing, very important hearing 
about exactly what caused the levee breaches in the greater New 
Orleans area immediately following Katrina and what we are 
doing to solve those problems.
    Our first panel is a panel of one, Dan Hitchings, who is 
the Director of Task Force Hope with the U.S. Army Corps of 
Engineers. Dan, if you will come up. Dan is going to give us an 
overview of the Corps work.
    If I could ask everyone limit opening statements to 5 
minutes, and also, Mr. Hitchings in particular, in addition to 
giving your testimony and answering questions, I would like to 
offer you the opportunity to respond, if you would like, after 
hearing the testimony of the second panel.

   STATEMENT OF DANIEL E. HITCHINGS, P.E., REGIONAL BUSINESS 
   DIRECTOR, MISSISSIPPI VALLEY DIVISION, U.S. ARMY CORPS OF 
                           ENGINEERS

    Mr. Hitchings. Thank you.
    Mr. Chairman and distinguished Members of the committee, I 
am Dan Hitchings, Regional Business Director for the 
Mississippi Valley Division of the U.S. Army Corps of 
Engineers. I am currently serving also as the director of Task 
Force Hope, which is our task force that has been put together 
to respond to the recovery from Hurricanes Katrina and Rita in 
the Gulf Coast area.
    I am honored to be testifying before your committee today 
on the efforts by the Corps of Engineers to incorporate 
forensic findings into our ongoing repair of the storm damage 
reduction projects in the New Orleans area.
    With our contractors, we are working around the clock on 
levees and floodwalls to reduce the risk of damage through the 
remainder of this hurricane season, which continues until the 
end of November, and the rainy season that area normally 
experiences in December and January. Our goal is to complete 
this phase of the effort before the start of the next hurricane 
season, which is June 2006. Our teams are actively gathering 
data and information from the recent storms, and we have also 
begun an after-action assessment of the existing storm damage 
reduction system.
    The Corps takes its responsibilities for the safety and 
well-being of the Nation's citizens very seriously. In the case 
of the New Orleans area, we are determined to learn what 
failed, how it failed, why it failed and to recommend ways to 
reduce risk of failure in the future. There is no single answer 
to the question as to why there were failures in the storm 
damage reduction system, as there were multiple breaches of 
levees and floodwalls at a number of locations, and the failure 
mechanism or mechanisms are likely to vary. The answer to this 
will follow from a thorough analysis of the data we are now 
collecting. The physical process that caused the breaches will 
be determined from the comprehensive analysis of the data that 
we are collecting.
    What we have to date is evidence of what happened. We can 
see the final result of the structural behavior, but we cannot 
yet determine why. That will require more understanding of the 
design intent of each structure, its condition prior to the 
storm or the forces to which it was subject, both the static 
and dynamic, and how we would expect it to respond to those 
forces. Understanding why this happened will also help us to 
develop recommendations on ways to reduce the risk of failure 
in the future.
    The Chief of Engineers, Lieutenant General Strock, has 
commissioned an Interagency Performance Evaluation Task Force 
to conduct an engineering evaluation. We call this IPET. The 
IPET includes engineers and scientists from the Engineer 
Research and Development Center in Vicksburg, the Institute for 
Water Resources in Alexandria, VA, numerous universities and 
the private sector, as well as from other Federal agencies, 
such as the Bureau of Reclamation, and the Oceanic and 
Atmospheric Administration.
    As the team deployed, the American Society of Civil 
Engineers and the University of California team sponsored by 
the National Science Foundation approached the Corps about 
similar studies of infrastructure performance they were 
undertaking in hopes of applying lessons learned to other levee 
systems. In the spirit of openness and transparency, we invited 
them to join our team and beginning on September 29, they 
joined us for the inspections of the projects involved. On 
September 30, we learned the State of Louisiana was also going 
to establish a team of its own, of researchers from LSU and 
their research center. We also invited them to join the team 
and they have been participating with us since that time. We 
are very grateful for their participation.
    Over the next 8 months, the IPET will examine and analyze 
the data and rationally test various hypotheses about the 
behavior of the infrastructure. Through a thorough analysis of 
the data we are collecting, we will explore whether human error 
played any part in the performance of the infrastructure. The 
IPET will use the collected data, laboratory testing and 
modeling of activities in its analysis.
    The work currently planned includes providing updated and 
accurate vertical geodetic datum, performance of storm surge 
and wave modeling, determining the hydrodynamic forces that 
created the storm, analyzing the floodwall and levee 
performance when subjected to these forces, conducting interior 
drainage and flooding modeling, to include pump station 
performance and conducting the consequence analysis and a risk 
and reliability assessment.
    We are making all the findings available to the public and 
invite the public and scientific and engineering community to 
share any information that they may have. On October 29, we 
began releasing available data by posting it on a publicly 
accessible Web site. Additional data will be added to the Web 
site as it becomes available.
    This includes all kinds of information, design and 
construction drawings, soil sample records, post-Katrina 
documentation, the hydrographic surveys and soil samples of the 
data that we have collected in that analysis. It also includes 
performance data resulting from eyewitness accounts and various 
photographs of the area.
    In addition to the IPET effort, the Secretary of Defense 
has directed the Secretary of the Army to convene an 
independent panel of national experts under the direction of 
the National Academies to evaluate the performance of storm 
damage reduction systems in New Orleans and the surrounding 
areas. The National Academies is assembling a multi-
disciplinary engineering and atmospheric science team that will 
be drawn from the public and private sectors and academia.
    Until we can collect and analyze all the physical evidence, 
we will not have a complete picture of what happened. The 
results of our study will provide a better indication of the 
extent to which the existing system can be expected to reduce 
the risk of future storm damage. We will be examining and 
providing analysis on the performance for the entire storm 
damage reduction system to understand the failures that 
occurred, to understand other components of the system that may 
have degraded in their capacity to protect against future 
storms and to understand where the system performed 
successfully.
    Nevertheless, I want to emphasize that we cannot wait until 
the study is complete to begin applying what we have learned. 
As we learn, we will immediately act to incorporate these 
findings into the work in which we are now engaged. In the 
interim, results are being shared on an ongoing basis with the 
team responsible for the repair of the existing levees and 
floodwalls. We have established a procedure to ensure efficient 
transfer of information from designers and the IPET and from 
the IPET to the designers.
    The specific elements include that more than 20 key people 
from the design team are assigned to work with the IPET. We 
have established a liaison between IPET team members and 
specific task force guardian project and technical managers. 
The Task Force Guardian project and technical managers 
coordinate all onsite meetings and visits with the IPET 
members, they conduct joint meetings with the IPET team members 
when they are onsite, and do trip reports documenting 
observations and recommendations.
    They have a regular weekly meeting to go over things they 
have accomplished. One of the items on the agenda of this 
meeting is, what have we learned that would benefit the 
reconstruction effort currently underway in New Orleans. They 
will absolutely be talking about this every week and will 
ensure that we have got that information transferred. The IPET 
will review all of the construction plans and specifications 
and IPET will be involved in the engineering during 
construction activities.
    We will also be producing weekly reports to the Task Force 
Hope Commander, Brigadier General Crear, on the design 
improvements and changes made due to this process.
    This concludes my statement. Again, I appreciate the 
opportunity to testify today. I would be pleased to answer any 
questions that you may have.
    Senator Vitter. Thank you, Dan, and we will get to that. I 
will start it off.
    This hearing is about preliminary findings and thoughts 
regarding why the levees failed. I have to tell you, I find 
your testimony, even your written testimony pretty frustrating 
and inadequate, because it does not say anything about that 
topic. It lays out a process and it doesn't say anything about 
your preliminary thoughts and findings about what failed and 
why.
    So let's get right down to that meat of the topic. I want 
to take us through the map of metro New Orleans and move west 
to east. It seems to me, based on what I read, the following is 
correct, but please correct me if the Corps disagrees. Let's 
start to the west, the east bank of Jefferson Parish. There, 
there were no levee failures and there doesn't seem to be 
overtopping of the levees. So there, the flooding seemed to be 
primarily, if not exclusively, the result of rainwater with the 
pumps not operating, is that correct?
    Mr. Hitchings. That is correct.
    Senator Vitter. OK. Then again, moving west to east, the 
next area is in Orleans from the 17th Street Canal until you 
get to the Industrial Canal, not including the Industrial 
Canal. There you have three interior canals, drainage canals 
and of course, significant breaches to those. There, there does 
not seem to have been overtopping of the lake levees and there 
does not seem to have been overtopping of the canal wall 
levees. There was some failure from underneath the canal wall 
levees where they breached. Is that a fair conclusion?
    Mr. Hitchings. The conclusion of the overtopping is 
correct. The exact failure mechanism for those floodwall 
breaches, we still do not know exactly what happened to all 
those areas, whether if it was a result of scour or some piping 
underneath, or exactly what the problem was. As you know, we 
have collected significant data about the existing conditions 
in those areas. We have done extensive soil borings and 
subsurface testing that will allow us to conduct that analysis 
and really determine exactly what failed.
    Senator Vitter. So you agree there was no overtopping?
    Mr. Hitchings. That is correct.
    Senator Vitter. So they failed from underneath in some way?
    Mr. Hitchings. That is correct.
    Senator Vitter. Now, some of the outside groups have 
pointed to porous soil areas, areas of peat underneath which 
caused the seepage and subsequent failure. What's the Corps' 
current opinion about that theory?
    Mr. Hitchings. We concur that those conditions exist. The 
data shows that. We also concur that that is a possible 
contributor to the failure. However, we do not know if that is 
the only contributor or if it was the sole cause in those 
particular cases.
    Senator Vitter. What would other possibilities be? You 
mentioned some piping areas.
    Mr. Hitchings. There is some evidence of trees that had 
grown up onto the edge of the embankment of the levees. There 
is a theory, that of course is being examined, about whether or 
not the growth of those trees and perhaps subsequent failure of 
those trees during the wind storm that was generated as part of 
the storm may have contributed to those areas.
    So it may not just be the subsurface conditions in those 
particular areas. It may also be other conditions. There is 
data that Louisiana State University has that suggests that the 
sheet piling is at a depth of minus 10 feet. That suggests that 
that also may have contributed to the failure.
    Senator Vitter. Have you confirmed that?
    Mr. Hitchings. We have not yet confirmed that. We have done 
testing to actually examine those areas, using a subsurface 
probe that uses an echo type mechanism to do that. We do have 
some data from that, but we have to validate that data to 
determine exactly where those holes were, so we can try to 
confirm with LSU if we are talking about the same location.
    Senator Vitter. Does the data point to the 10 feet being 
correct or incorrect so far?
    Mr. Hitchings. The locations that were tested indicate that 
the sheet piling depth was around 10 feet. What isn't confirmed 
is whether or not this is in locations where the depth of the 
sheet piling should be more than 10 feet.
    Senator Vitter. My understanding was the whole design was 
sheet piling depth to 17 feet. There was no area where the 
design was only 10 feet, was there?
    Mr. Hitchings. I do not know that to be true, that it was 
all required to be at 17 feet. That is what we are trying to 
confirm today, sir.
    Senator Vitter. OK. Obviously that is very serious, because 
the allegation is even the design, which was probably 
inadequate, even the design was to 17 feet, and yet you go back 
and look at it, and it went down to 10 feet, just to clarify 
for everyone.
    Mr. Hitchings. We agree that those conditions are serious.
    Senator Vitter. Again, moving from west to east, the 
Industrial Canal, seems there you had storm surge built up in 
part by Mississippi River Gulf Outlet leading into the 
Industrial Canal, channeling that storm surge, building it up 
even higher, significant overtopping of the levees there, and 
then failure at some points there. Is that an accurate summary?
    Mr. Hitchings. Yes. The floodwalls and levees in that 
Industrial Canal area were overtopped. The evidence shows 
significant areas of scour on the back sides of those 
floodwalls in particular, and it shows evidence that the water 
was flowing over the top of them before they failed.
    Senator Vitter. So you would say the best theory now is 
that significant overtopping, scouring out of earth on the land 
side of the wall and then the wall gave way?
    Mr. Hitchings. That appears to be a likely scenario.
    Senator Vitter. Then again, continuing to move to the east, 
in eastern New Orleans and St. Bernard Parish, which is closer 
to the storm and the Gulf, seemed to have had major overtopping 
in many, many places, which led to many breaches. Is that fair 
to say?
    Mr. Hitchings. That is correct. This map shows the Orleans 
East area. You can see that the majority of the breaches 
perhaps point out on the southeastern corner where the red 
spots are is where the breaches would mostly occur. The area 
that borders on the lake, Lake Pontchartrain, however, did 
suffer one area that was damaged. But most of that was not 
breached. It was overtopped but was not breached.
    Senator Vitter. OK, my time is well past due, so I will 
turn it over to Senator Isakson.
    Senator Isakson. I do not know New Orleans as well as 
Senator Vitter, so I can't follow directions as well. But it 
appears to me that the overtopping occurred mostly on the east 
and south and that the north breaches were somewhere down in 
the levee, is that correct?
    Mr. Hitchings. The breaches, to go back to that first 
particular chart, the overall area, most of the breaches 
occurred in the area that, if you would point to this area 
above St. Bernard along the levee that was adjacent to the 
Mississippi River Gulf Outlet and then also on the portion of 
New Orleans East. It is important to note also that the levees 
along the Mississippi River that protected the portions of 
Plaquemines Parish were all significantly overtopped in that 
area.
    Senator Isakson. That is kind of what I observed. It leads 
me to this question. Before Katrina, upon our election, I was 
with some people from New Orleans who talked about the 
tremendous erosion and loss of land in the barrier islands and 
the wetlands south of New Orleans. I know we are talking about 
the reconstruction of the levees and the reasons why there were 
failures.
    But I am becoming, and I am not an engineer by any stretch, 
did some land development. But should we not, in tandem with 
looking at the reasons for failure of the levee per se, also 
look at what we need to do on these wetlands and barrier island 
areas and other areas? Because the lessening of their ability 
to take some power out of these storms is going to put 
increased pressure on the levees. So it seems like it is a 
tandem deal. Am I wrong?
    Mr. Hitchings. No, I would agree with you. In fact, the 
analysis that is being conducted on the storm surge is going to 
be looking at the conditions that existed when the projects 
were designed, and also the conditions that exist now. The 
storms produced a significant loss to the wetlands and barrier 
islands that do in fact provide some storm surge reduction. So 
we are going to be looking to see what the impact is.
    Obviously that has an impact into the future, and as we 
look at risk and reliability of the existing system, after we 
get it reconstructed to its pre-storm design level, we need to 
know what level of protection that is under the existing 
conditions.
    Senator Isakson. Two other quick questions. One, can you 
really go ahead and do the restoration without having the game 
plan for the wetlands? Or should you? You could, but should 
you, I guess.
    Mr. Hitchings. I think the important thing that we are 
working on right now is an extremely urgent matter, to get the 
portions of the project that were damaged restored before the 
next hurricane season. That is absolutely the top priority to 
ensure that protection, at least to that level, is available.
    Senator Isakson. At least to Category 3?
    Mr. Hitchings. Well, it is to the design level. I know some 
testimony earlier before this committee explained to some 
degree, when the project was designed, the hurricane scale did 
not exist. So it was designed to a standard project hurricane, 
elements of which fall within Category 3.
    Senator Isakson. I appreciate your making that observation.
    Mr. Hitchings. People would suggest, a Category 3 storm, I 
believe, goes up to winds up to 145 miles an hour. These 
protection facilities were only designed for winds of around 
100 miles an hour.
    Senator Isakson. The levees have been temporarily repaired, 
or have those huge sand bags holding back part of the water, is 
that correct?
    Mr. Hitchings. Right now, that is correct.
    Senator Isakson. Out of curiosity, and I have thought about 
this a few times, how you repair a levee and hold the water 
back at the same time, is it going to mean that the existing 
repaired levee walls and berms stay in place and you actually 
move the levees slightly, the new construction is off that?
    Mr. Hitchings. Each particular breach has its own answer to 
that, and they are being looked at. I can show you an example 
of one that we are working on, the floodwalls at the 17th 
Street and the London Avenue Canals. If you would just show 
that one section with the setback. There is another drawing in 
there.
    [Slide shown.]
    Mr. Hitchings. What that shows basically is the canal 
running across the page there. That black shaded area is 
basically the area where the temporary berm has been 
constructed. The heavy black line outlined with yellow shows 
that we are going to be constructing a sheet pile wall to 
protect that. So the first thing we did is plug the hole, 
basically, we put sand bags and gravel and stone in that area 
to stop the water from going back and forth. Then we reinforced 
that so it would be a little bit stronger.
    The next thing we are currently doing is putting the sheet 
pile along that area. That will now allow us to remove that old 
plug, and then rebuild that section to the correct design in 
there. Each particular breach, depending on its physical 
characteristics, has something like that. Some of them will in 
fact have a setback levee, other ones will be done like this, 
and in some of the areas, we actually can construct them in the 
clear, because there is another line of protection available.
    Senator Isakson. I know my time is up, but sheet pile, is 
that the temporary metal?
    Mr. Hitchings. Yes. It is long sheets that interlock on 
their edges and go down side by side.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Vitter. Thank you, Senator.
    I want to go back to the map and again move west to east 
and talk about the work going on between now and next June and 
exactly what that is. We will start with the 17th Street Canal. 
As I understand it, you are driving sheet piling down to a 
significantly deeper depth than the original design, and that 
is to what, 40-plus feet?
    Mr. Hitchings. I believe that the sheet pile length is 
somewhere between minus 60.
    Senator Vitter. Sixty, OK. For what span of the canal are 
you doing that?
    Mr. Hitchings. Currently, we are doing it for the areas 
where the breaches are. That is part of the temporary closure. 
There is a couple reasons for that. One of the most significant 
is, as you know, when that levee area and floodwall breached, 
there was a significant amount of scouring, not only in the 
area of the breach, but also scouring from the bottom of the 
canal itself, with the volume of the water that was flowing 
through there. So the subsurface conditions have changed, so we 
need to make sure the tips of those sheet piles are deeper.
    Senator Vitter. In that area where it breached, what was 
the depth of the sheet pile?
    Mr. Hitchings. It is my understanding that the intent, the 
design depth was minus 17.
    Senator Vitter. What was it?
    Mr. Hitchings. I do not know that. We have not got that 
data. As you can imagine, that sheet piling is now buried under 
that temporary closure. So as we build that new sheet pile 
closure wall, we will be taking the earth and sand bags all 
back out of there and actually have those sheet piles that were 
in that area available as physical evidence.
    Senator Vitter. Will you do this reconstruction with a far 
deeper sheet pile in all other parts of the canal?
    Mr. Hitchings. I do not have the exact answer for that. 
What we are doing, we are examining the entire lengths of those 
canals. As you can imagine, that is what would be prudent.
    There are a number of other areas that didn't breach, but 
that did receive some damage. So we are collecting all of that 
data about the condition of those sheet piles and looking at 
the design parameters. We have done an extensive amount of 
subsurface examination, collecting additional data on what the 
conditions are, and what the soils actually are in that area.
    So we will have a design in that area that is appropriate 
to provide the protection. It is possible that that design may 
indicate that the entire lengths of those sheetpiles are not 
adequate. I do not know the answer to that. But that is within 
the range of possibilities.
    Senator Vitter. Let me ask it another way. If this section 
failed, what would cause you to believe that all sections would 
not have to be redesigned and improved?
    Mr. Hitchings. Well, trying to determine exactly what the 
cause of failure was. If it was a tree, for example, that was 
on the back side of that levee, and the tree fell over, which 
created a hole in the back side, and that allowed the water to 
percolate through, that would be a condition that probably 
wasn't relevant to the design. It was a change to a condition 
afterward.
    Senator Vitter. Right, but Dan, as far as I know, nobody 
thinks that is the leading theory for the cause. Everyone 
thinks, as far as I know, that the leading theory for the cause 
is the sheet piling not even going to the depth of the canal, 
No. 1, and there being weak soil layers, No. 2, that 
contributed to the seepage underneath.
    Mr. Hitchings. If that is what we conclude, then we will 
ensure that the design that is used for the future is adequate 
to meet the design levels of that.
    Senator Vitter. What's the timeframe for reaching that 
conclusion? Because obviously, we are trying to reassure folks 
that by next hurricane season this will be fixed. But if it is 
fixed just for the area where there was a breach, that is not 
terribly reassuring.
    Mr. Hitchings. That's exactly correct. If the conclusion is 
that that entire system needs to be reconstructed, it will not 
be possible to do that by June 1. We are working on a 
concurrent plan to put a more permanent temporary closure at 
the mouth of the canals, at the lakefront. What that would do 
is provide us the ability, when a surge occurs, to close the 
lake off so those sections of floodwalls would not be subjected 
to the surge.
    We would also have to put in a temporary pumping system 
that would allow the interior drainage pumps to pump so that we 
didn't worsen that condition. So because we do not know the 
exact answer, and believe me, the engineers are working as 
quickly as they possibly can to get the answer on the design 
adequacy of that floodwall system. We know that there isn't 
sufficient time, so we are working on that plan for temporary 
closure concurrently.
    Senator Vitter. So again, going back to the primary 
question, when do you think you are going to know whether the 
areas that didn't happen to fail in this storm event are 
designed and built adequately or not?
    Mr. Hitchings. It will be within the next 30 days.
    Senator Vitter. The next 30 days?
    Mr. Hitchings. Yes, sir.
    Senator Vitter. So presumably that will include some 
analysis of where these weak peat layers are.
    Mr. Hitchings. Yes. Based on the data that we have 
collected, we will know and be able to make some assumptions. 
As you can imagine, in this particular area where much of it 
was previously a swampy area, the subsurface conditions vary 
significantly. So we can't poke a hole everywhere, but we have 
poked a significant number of holes that will give us a better 
picture of what those conditions are.
    Senator Vitter. Is it the Corps' preliminary conclusion 
that the peat layer, if that exists, that is pretty general or 
localized?
    Mr. Hitchings. I do not know the answer to that.
    Senator Vitter. Do you know how frequently you are boring 
soil samples to test things like that?
    Mr. Hitchings. I do not have the actual interval.
    Senator Vitter. I mean in terms of distance.
    Mr. Hitchings. I know how many of them that we have put in.
    Senator Vitter. I have been told you have done about 60 so 
far, and your standard is 300 meters.
    Mr. Hitchings. Yes, sir, that is correct. We have done a 
total of 60 Cohen penetrometer tests, with an additional 20 
borings.
    Senator Vitter. Three hundred meters strikes me as a pretty 
significant distance not to test between. What's your reaction 
to that?
    Mr. Hitchings. Well, no, that is the normal design that you 
would do. I mean, engineers are allowed to put it at closer 
intervals if there is a reason to believe that they needed that 
additional data.
    Senator Vitter. OK. Senator Carper.
    Senator Carper. Good morning, Senator Vitter.
    Senator Vitter. Good morning.
    Senator Carper. How are you?
    Senator Vitter. Good.
    Senator Carper. You looked kind of lonely in here, I 
thought I would come in and join you.
    [Laughter.]
    Senator Carper. I want to welcome our witness, Mr. 
Hitchings.
    Mr. Hitchings. Thank you.
    Senator Carper. Thank you for joining us today. I missed 
your testimony.
    Let me just ask you first of all, just take a minute and 
what should be my takeaways from what you have had to say. If 
you can just crystallize it in a minute or two, then I have a 
couple of questions I am going to ask you.
    Mr. Hitchings. OK. We have been immediately responding to 
the storm. That required us to do some temporary measures, and 
then also to do some things as rapidly as we could so we can 
restore protection by June of next year before the hurricane 
season.
    Concurrently with that, we started a data collection effort 
that is leading to an analysis of what happened, why it 
happened, and what that means to the integrity of that storm 
protection system. Those two things are on parallel paths.
    However, the design and repair of the structures can't wait 
until we get all the answers. That is the problem that we face. 
It is a situation where if we wait until we have the answers, 
we will never get it done in time.
    So we have put a mechanism in place to transfer information 
between the team that is doing the investigation and collecting 
the data and doing the analysis and the teams that are doing 
the redesign and construction of this, so that that information 
can pass back and forth, basically on a zero time basis, that 
they are moving, as soon as somebody knows something here, we 
are passing it to the design team. As soon as the design team 
encounters something, we are passing it to the investigative 
team to know that.
    I mean, that's essentially what the essence of my statement 
is.
    Senator Carper. Thank you. At a recent hearing of another 
committee I serve on, Homeland Security and Government Affairs, 
there was a fellow named Seed, Dr. Seed, do you know him? S-E-
E-D.
    Mr. Hitchings. I do know him, yes.
    Senator Carper. He was a witness who was representing, I 
think, the National Science Foundation, their investigation 
team. But anyway, he testified that there are some fairly 
simple, fairly inexpensive floodwall improvements that could 
have, in their view, prevented if not all then some of the 
breaches that occurred. I do not know if you have any knowledge 
of what he might be alluding to, and let me just ask, is it 
possible for the Corps to incorporate some of those less 
expensive modifications into the repairs to the floodwalls that 
are currently underway?
    Mr. Hitchings. Absolutely, and we have done that.
    I have a chart here that lists some of the things that are 
there. This is, probably for an engineer, this is easy to look 
at. But for the designers, this is what it is, in the dashed 
line on the front side of this----
    Senator Carper. Let me just ask the gentleman who is 
helping you, if he would maybe serve as a pointer and just 
point out what you are referring to, that would be helpful.
    Mr. Hitchings. Point to the eyewall construction on that if 
you would, Zoltan.
    [Slide shown.]
    Mr. Hitchings. Start with that, the eyewall and the dash 
line to the left. That is what the existing design was. The 
suggestions, one of the suggestions that was made from the 
investigative team suggested we have a different type of wall 
there, a T wall. That T is what is shown in the darker lines. 
You can see that that is a significantly stronger design. That 
is what's being used in the area of the Industrial Canal.
    Also on the landward side of that, they are putting scour 
protection in. Because these floodwalls in fact didn't fail 
from the water pushing against them, they failed because they 
were scoured on the back side and then collapsed. So we are 
putting scour protection on the back side of that.
    [Slide shown.]
    Mr. Hitchings. The next chart that is just a word chart 
there lists a number of other things that we have incorporated 
in the design already, results of the input that we have 
received from not only Dr. Seed, Dr. Bee, Peter Nicholson, who 
is part of the ASCE team and other Corps of Engineers and other 
LSU team members who have been part of this. As they identify 
things, we are incorporating them into the design.
    I would suggest that it really doesn't matter how late it 
is that they identify that. If it is a critical item that will 
require strengthening or a different design of part of the 
structure, even if it is in June of next year, we will go back 
and make that correction.
    Senator Carper. Good. Thanks. Our thanks to your assistant 
here as well.
    A second question, if I could, I understand they have these 
levee boards, and I am not sure how they are structured. But in 
your opinion, how does this levee board structure exist, with 
separate board, I guess for each parish, how does that impact 
the ability of the region to develop a comprehensive flood 
control system for the metropolitan area, greater metropolitan 
area? Does it improve or does it worsen the oversight of 
spending?
    Mr. Hitchings. I am not sure that it worsens it. It 
obviously makes coordination a little bit more extensive when 
you have to work with different groups. It also makes some of 
the decisionmaking a little bit difficult, if they have 
different opinions. We work also with the State of Louisiana. 
Their State Department of Transportation and Development has 
responsibility for the flood control measures. Normally, when a 
particular project spans multiple jurisdictions, they have the 
opportunity to come in and be the local sponsors. They then 
sign, and they work the coordination with the individual levee 
boards as part of it.
    But we have worked with these levee boards for decades. 
None of them are new. We have had relationships that go back a 
very long way. So yes, it does complicate it, but it doesn't 
create a situation that is untenable.
    Senator Carper. My time is expired. Mr. Chairman, could I 
ask one more, kind of a follow-up to this levee board structure 
question?
    One of the weaknesses identified in the current levee 
system involves transitions in floodwalls from one type of 
material to another, from concrete to sheet pile between the 
different heights of floodwalls and levees. How can the 
coordination between the various levee boards be improved to 
address those perceived weaknesses?
    Mr. Hitchings. One of the things obviously is to make sure 
that as we go through the design process that we are more 
cognizant of the impact of those transitions. I am not positive 
that it is always a levee board issue as much as it is two 
other things. One is, different parts of the structure require 
different solutions, particularly where there is a crossing. If 
you would have a crossing for either road or railroad or 
pipeline, you normally may not put that through a levee 
section, you would put a floodwall there, something that you 
can put stop logs in to prevent the water from going through. 
But you normally would leave it open.
    That requires a concrete structure for those stop logs to 
connect to. In the transition is where that concrete then goes 
back to a levee section. So the awareness that we now have is 
that we need to make that transition smoother. We need to, in 
fact, embed that concrete deeper into that levee, rather than 
have a shorter overlap of those. Also make sure that we 
construct them to the same level.
    Another complicating factor, of course, in this area, is 
the settlement that occurs in these areas floodwalls and levee 
sections will settle at different rates, just because of the 
weight that is associated with them. So that settlement will 
result in a section of levee that perhaps ends up being lower 
than the top of the floodwall, which then creates a situation 
where the erosion may be higher and result in a breach in those 
areas.
    So all of those require us to be more sensitive to those 
issues as we go through this redesign process.
    Senator Carper. Mr. Hitchings, we appreciate your being 
here today. Thank you for your testimony and for responding to 
my questions.
    I have two other hearings that are going on simultaneously 
in two other of my committees, so I am going to slip out. I 
regret I can't stay longer. If I can get back here, Mr. 
Chairman, before you are done, I will be back.
    Senator Vitter. All right, thank you for being here.
    Dan, to go back to our conversation first about the 17th 
Street, I believe what you said is within a month, the Corps 
will determine if conditions elsewhere along that canal where 
it did not breach or substantially similar to conditions where 
it did breach. If the answer is yes, they would reconstruct 
those other lengths of the canal wall as well.
    Mr. Hitchings. That is one option. There are several 
options that we are looking at as opposed to just 
reconstructing what was there in a stronger way. One of them 
might be to eliminate the floodwalls portion of it and just 
reconstruct levees.
    The consequence of that is it requires a much larger 
footprint that affects the real estate that is there, property 
owners that are there. There is a plus because the levees 
appear to be a more desirable solution than the floodwalls, but 
the consequence is taking property.
    Another option that could be considered would be that 
permanent closure at the end of the lakefront area there, where 
we have gates in place. Instead of just doing it with temporary 
structures, do it with a permanent gate operation.
    Another option to be considered is whether or not we just 
want to put pumps, pumping stations at the lakefront to 
supplement those, totally close that system off so that it does 
not drain naturally into the lake, but install pumps into it. 
Of course, all of those have cost consequences. We would have 
to coordinate that with the local sponsor to get their input 
into that process, and then also work to get the additional 
funding for those.
    Senator Vitter. The Corps will come to that conclusion 
about whether one of those options is necessary within the next 
month?
    Mr. Hitchings. Yes, sir.
    Senator Vitter. If the answer is yes, why wouldn't the 
Corps, the Corps has authority, because it is acting on it 
right now, rebuilding that section to a better design now at 
100 percent Federal cost, why wouldn't that be true for the 
whole length of the canal that needs to be designed and 
constructed better?
    Mr. Hitchings. Well, as soon as we determine what the 
design needs to be, we will do that, absolutely.
    Senator Vitter. And you will follow this precedent, which 
is that you have the authority to do it now, no more 
authorization, and it is 100 percent Federal cost?
    Mr. Hitchings. Yes. The only question though that our 
lawyers are looking at at this point in time is whether or not 
putting those pump stations out at the lakefront would be 
considered within the scope of the authority that we have.
    Senator Vitter. But everything else, you would think, is 
within the scope of your authority?
    Mr. Hitchings. Certainly rebuilding the parallel protection 
system as it was described and authorized is within the scope 
of our authority, yes.
    Senator Vitter. Now, going to the Industrial Canal, same 
sort of question. You have a fundamentally different design, an 
inverted T.
    Mr. Hitchings. Right.
    Senator Vitter. Are you doing that beyond the area of the 
breach?
    Mr. Hitchings. No, not at the this time.
    Senator Vitter. OK. What if anything are you doing beyond 
the area that breached?
    Mr. Hitchings. Well, beyond the area of the breach we will 
be putting the scour protection in, on the back side of those. 
Again, the hypothesis being that those walls didn't fail until 
after they were overtopped and scouring caused those failures. 
Providing scour protection behind the existing eyewalls would 
be an improvement that would prevent them from failing. So 
because they were all scoured, we have to go in there and make 
those repairs anyway, we are going to be doing it with 
materials such that the scouring won't occur if it was 
overtopped again.
    Senator Vitter. Obvious question, if you think this new 
design with an inverted T is necessary where the breached 
happened to occur this time, how do we explain to residents 
that we are not doing it everywhere else?
    Mr. Hitchings. Well, there is no indication at this point 
that the eyewall was in fact inadequate design. It failed, the 
failures occurred because of the scouring. If we can prevent 
the scouring, then the eyewall would be adequate.
    Senator Vitter. Well, let me ask another obvious question. 
If that is true, why are you using the inverted T where it 
breached? Why do not you just go back to the original design, 
if it is so great?
    Mr. Hitchings. I understand your line of questioning, and 
it is appropriate. The T wall is a stronger wall section. So 
that is why it is being used in this particular place. As long 
as we have an opportunity to reconstruct it.
    Senator Vitter. Let me just, I guess it is clear, but let 
me just express the concern that we are using a better design, 
but only for the area that happened to breach this time. There 
is no evidence that the circumstances that led to that breach 
do not exist all up and down the canal on both sides. So that 
is an obvious concern all of us have in the community.
    Again, continuing to move east, what is the Corps doing in 
the short term now, to June, et cetera, with regard to the New 
Orleans East and St. Bernard levee systems that had pretty 
massive overtopping and failures?
    Mr. Hitchings. In each of those areas, the breaches are 
being repaired. Some additional scour protection is being put 
in in some of those areas where there is evidence that there 
was damage and erosion at the toes of those sections. So we are 
putting in some of the scour protection. But the sections that 
were damaged themselves will all be repaired back to their 
original design level.
    Senator Vitter. In those areas, as well as other areas, 
will the rebuild take account of subsidence that is occurred 
since the design and construction?
    Mr. Hitchings. Yes. We are rebuilding, it gets extremely 
confusing to everyone when we talk about levels, because we 
talk about design level, we talk about authorized level, we 
talk about 17 feet. It tends to be different in each area.
    To try to keep the confusion to a minimum, what we are 
referring to is to the original design level for those 
indications, which was what it was constructed to or authorized 
to be constructed to when it was originally built. So that 
would take into account previous subsidence.
    We also tend to build those with a few feet extra on top of 
them, because you know subsidence is going to continue. You do 
not want to have something that 1 year after you finish it is 
no longer at the design grade.
    Senator Vitter. Will that be done throughout the metro area 
in terms of the levee systems?
    Mr. Hitchings. Right now, the emphasis for the June 1 
effort is to do that for the areas that have been damaged, not 
for the entire system.
    Senator Vitter. What about beyond June 1?
    Mr. Hitchings. For the Chief, we are now putting together a 
total requirement. We are making an assessment of the entire 
system from one end to the other and identifying what the scope 
and cost of all those improvements would be. As you know, we 
focused our attention on those areas that were damaged, so we 
could get those breaches fixed as quickly as possible. So now 
the next step is that assessment and identifying what the 
requirements are to get the whole system up to its authorized 
level.
    I will point out as well that that authorized level also 
includes a re-analysis of the storm surge.
    Senator Vitter. OK. Well, again, to state a general 
concern, of course we need to fix the breaches first. But to 
improve the design only at the breached areas and stop there 
makes no sense, because the same factors seem to obtain 
everywhere else along the system. Now, I understand you can't 
do everything at once and you can't do everything between now 
and June. But it is important to do that all eventually. So 
will the Corps do that same work all along the system, even 
though it may take beyond June in other areas beyond where the 
breach occurred?
    Mr. Hitchings. We will in fact look at whether or not that 
kind of work is required. It is really the concluding segment 
of the IPET's work, is the risk and reliability analysis. What 
we expect as a product from that is a recommendation that 
communicates to us which we can work with the locals and with 
Congress on what needs to be done for that entire system.
    The expectation obviously is if it is a lot of money, then 
as you know, the project was not finished being constructed. 
There were still sections of it that needed its initial work, 
as well as funding required to go back and raise those sections 
that had had their first lift on them. So there is going to be 
a substantial funding requirement associated with that.
    So we will identify that requirement and communicate it, if 
it is within our authority, then I am sure that we will request 
the funding to get that moving.
    Senator Vitter. Final question. You know many of the 
outside groups have made the conclusion that there is a 
particular weakness and vulnerability at transition points 
where designs change.
    Mr. Hitchings. Yes, sir.
    Senator Vitter. Part of my concern is in that in fact with 
this immediate work, you are increasing the number of 
transition points. How do you address that?
    Mr. Hitchings. The intent there is to be aware of the 
vulnerability that exists at those transition points and to 
mitigate that vulnerability to the maximum extent possible. One 
way is to make sure there is a more smooth transition between 
heights of existing sections. So if there is an existing 
floodwall that didn't damage but there is a levee right 
adjacent to it, let's make sure that we bring that levee up to 
the same height.
    Let's also ensure that the floodwall is embedded deeper so 
that if there is some type of erosion around that soil at the 
transition, that there will be floodwall underneath to 
strengthen that area.
    Senator Vitter. OK, thank you very much, Dan. I want to 
repeat, we very much want you to stick around and listen to the 
further testimony and then we will give you a chance to come 
back and make any points in response to that.
    Mr. Hitchings. Thank you.
    Senator Vitter. Thank you.
    Dan, if we could ask, if you could submit the Corps' list 
of design revisions for the record, that is an important point 
of information.
    Mr. Hitchings. Yes, sir.
    Senator Vitter. Thank you.
    Now we will invite up our second panel. As they come up, I 
will introduce them. A very distinguished panel, Mr. Thomas F. 
Zimmie, Ph.D., professor and acting chairperson of the 
Department of Civil and Environmental Engineering at Rensselaer 
Polytechnic Institute, and a key member of the National Science 
Foundation Investigative Team; Mr. Sherwood Gagliano, Ph.D., 
president of Coastal Environments, Inc.; Mr. Larry Roth, deputy 
executive director of the American Society of Civil Engineers; 
Mr. Joseph Suhayda, Ph.D., emeritus engineering professor with 
LSU; and Mr. Robert Verchick, professor at Loyola University 
Law School in New Orleans.
    Thank you all very much for being here, and I would invite 
you all to give opening statements of 5 minutes duration. Of 
course, you can submit anything in addition for the record if 
you so wish.
    Dr. Zimmie.

  STATEMENT OF THOMAS F. ZIMMIE, Ph.D., PROFESSOR AND ACTING 
   CHAIR OF CIVIL AND ENVIRONMENTAL ENGINEERING DEPARTMENT, 
                RENSSELAER POLYTECHNIC INSTITUTE

    Mr. Zimmie. Thank you. It is certainly an honor and a 
pleasure to be here. I thank Senator Vitter and the rest of the 
Members from the committee, the rest of the Senators, although 
you seem to be it at the moment.
    My comments will be kind of informal and they more or less 
echo the statement I put in. You have already introduced me so 
you know I am a professor of civil engineering at RPI up in 
Troy, NY. I was a member of the National Science Foundation 
sponsored investigative team. Of course, our boss was Ray Seed, 
the professor at Berkeley whose name came up. So my comments 
echo a lot of the team members' comments.
    We produced the report, which I am sure you have, you saw 
that preliminary report on the performance of the New Orleans 
levee system. Of course, there was not just the National 
Science Foundation sponsored team, but it was also an ASCE 
sponsored team and other team members. So there was a wide 
range of experience.
    I should say that any opinions I express here today are 
mine alone and do not necessarily reflect the views of the 
National Science Foundation or any other group or other agency. 
I do not have any financial interest in a consulting firm that 
is going to get contracts to repair the levees, etc. Our 
efforts were volunteer efforts, considered to be a professional 
contribution.
    I spent about a week down there in about the middle of 
October, although our teams were there from the end of 
September, a good part of October. We were there in about four 
different teams. Of course, we looked at all the major breaches 
and probably saw several dozen breaches down there.
    There is not one simple answer as to why the levees failed. 
I think that is been covered pretty well by the previous 
witness. We have various causes: overtopping, erosion, failure 
in foundation soils, seepage, underlying, and that is not even 
a complete list. The idea of our investigation, of course, was 
to try to come up with some preliminary observations, and they 
were preliminary, the report says preliminary, that is the 
first word. We hope it will lead to better designs in the 
future, that is the idea. Of course, we hope that the lessons 
learned from this event will lead to improved protection in the 
future, not just in New Orleans, but throughout the Nation and 
around the world.
    The emphasis today is New Orleans, but we really have 
thousands of miles of levees in the United States, and I mean 
thousands, not hundreds, thousands. We have hundreds right in 
New Orleans, over 300 miles. Every State has some levees.
    That is about all I have to say. I am basically here to 
answer questions and hope I can be of assistance.
    Senator Vitter. Thank you very much.
    Dr. Gagliano.

   STATEMENT OF SHERWOOD GAGLIANO, Ph.D., PRESIDENT, COASTAL 
                       ENVIRONMENTS, INC.

    Mr. Gagliano. Thank you, Senator Vitter. It is indeed a 
pleasure and an honor to give testimony to this distinguished 
committee. I want to particularly thank you for allowing me to 
discuss a rather controversial and difficult topic. It is 
controversial because it involves and challenges some of our 
long-term concepts and theories about geology and engineering 
design and other aspects of levee building and coastal 
restoration. It is relevant to how we rebuild coastal 
Louisiana.
    I have been a geologist and have spent my professional 
career working in the Mississippi River deltaic plan of 
Louisiana on erosion and restoration problems. Particularly in 
the last 5 years, I have focused on the effects of geological 
fault movement on land subsidence and erosion. Underlying south 
Louisiana is amaze of deep-seated, geological faults that are 
experiencing accelerated movement during recent decades. This 
movement is affecting surface land forms and features.
    I have given you two handouts. In these handouts, I have 
tried to demonstrate two things. No. 1, the nature of the fault 
movements, and No. 2, the effects that the fault movement had 
on levee breaches that occurred during Hurricane Katrina in 
south Louisiana. The handout entitled ``Effects of Earthquakes, 
Fault Movement and Subsidence on the South Louisiana 
Landscape'' was published in February 2005, and deals with the 
topic that is before us now.
    I have evaluated a number of the Hurricane Katrina levee 
and floodwall breach sites, not all of them and not all of them 
in great detail. I have found evidence that confirms the 
concept that these faults that extend deep into the subsurface 
of the earth have been active in modern decades and may have 
contributed to some of the breaches. Some of the failures were 
clearly overtopping, because the levees were simply not high 
enough to stop the surge. But there is evidence that the 
breaches on the 17th Street Canal, the London Avenue Canal, and 
the Inner Harbor Navigation Canal occurred at locales where the 
levees were constructed across geological faults and that poor 
foundation conditions associated with the fault planes 
contributed to the levee and floodwall failures.
    I have great concern that proposed and existing levee 
alignments throughout south Louisiana cross many geological 
faults that are known to be active. This has not been taken 
into consideration in levee alignment and design simply because 
the fault hazard was not previously recognized. This is 
relatively new theory, new information, and new science.
    I have greater concern that there has been resistance to 
evaluation of the fault hazards. The resistance is a denial 
process. We have uncovered the root cause of the disease that 
is eating away coastal Louisiana lowlands. The effects of 50 
years of accelerated fault movement that has caused massive 
land subsidence and weakening of hurricane levees was made 
apparent by Hurricanes Katrina and Rita. The fault cracks that 
extend thousands of feet below the earth's surface are actually 
affecting the works of man on the surface. Fault movement is a 
natural hazard that has been seriously underrated and not 
addressed. I hope that this committee will help bring it to the 
attention of engineering and planning community as we repair 
the levees and prepare Louisiana for the future.
    The fault hazard notwithstanding, I strongly believe that 
we can provide adequate storm protection around the perimeter 
of the greater New Orleans area and for much of south 
Louisiana. We possess the science and technology to design and 
construct a sustainable flood protection system area that will 
protect the area where the people who manage and harvest many 
important resources for this Nation work and live. I also 
believe that we can wrap a sustainable natural systems 
management program around the protected areas of the Louisiana 
coast.
    We are all here to try and do that in the best possible 
way. My testimony is not intended to be criticism of past 
decisions. It is intended to be constructive input into the 
rebuilding process. Thank you.
    Senator Vitter. Thank you very much, Doctor.
    Now Mr. Roth.

   STATEMENT OF LARRY ROTH, P.E., DEPUTY EXECUTIVE DIRECTOR, 
              AMERICAN SOCIETY OF CIVIL ENGINEERS

    Mr. Roth. Thank you, Senator Vitter.
    Good morning. My name is Larry Roth. I am the deputy 
executive director of the American Society of Civil Engineers. 
I am very pleased to appear before you today to testify on 
behalf of ASCE to discuss preliminary findings on the failure 
of Gulf Coast levees during Hurricane Katrina, and also to the 
degree to which levee repairs are incorporating these findings.
    I am accompanied today by John Headland, P.E., principal 
engineer with Moffatt and Nichol Engineers, and a member of the 
ASCE Levee Assessment Team in New Orleans.
    I am a licensed professional engineer and a licensed 
geotechnical engineer in the State of California. Before 
joining ASCE staff, I had 30 years experience in water 
resources and geotechnical engineering working on issues such 
as dams, levees and canals. Following Katrina, ASCE assembled 
several teams of experts to examine failures of the New Orleans 
levees as well as to examine shoreline damage along the Alabama 
and Mississippi coastline.
    Our New Orleans team was joined by another team from the 
University of California at Berkeley. These teams were in turn 
joined by employees of the U.S. Army Corps of Engineers' 
Engineers Research and Development Center, which provided 
considerable insight and logistical support. The purpose of 
this joint site visit was to gather information about the 
failure of the levees, including data that would be lost during 
the process of levee repair and the passage of time.
    In the meantime, Defense Secretary Donald Rumsfeld 
announced in October the creation of an independent panel of 
national experts under the direction of the National Academies 
of Science to evaluate the performance of the hurricane 
protection systems in New Orleans and surrounding areas. This 
panel will perform a high level review and issue a final set of 
findings based primarily on the data gathered by the 
Interagency Performance Evaluation Task Force, or IPET. The 
IPET will include a broad interagency participation, the 
private sector, and academic expertise. The IPET is to obtain 
facts by collecting, analyzing, testing and modeling data and 
information on the performance of the New Orleans hurricane 
protection system during Hurricane Katrina.
    Secretary Rumsfeld also authorized ASCE to convene an 
external review panel to conduct continuing expert peer review 
on the work of the IPET. The ASCE external review panel, of 
which I am chief of staff, will also report findings to the 
National Research Council. On November 7 and 8 of last week, 
the external review panel met in New Orleans with the IPET and 
was able to conduct its first onsite investigations of the 
levee system from the air and on the ground.
    Earlier in November, the ASCE and University of California 
Berkeley teams released a joint report entitled, ``Preliminary 
Report on the Performance of the New Orleans Levee Systems in 
Hurricane Katrina'' on August 29, 2005. As the title clearly 
indicates, this is a preliminary report. Final conclusions on 
the failure of the New Orleans levee systems must await the 
study being conducted by the Corps' IPET, which is scheduled 
for release June 1, 2006.
    Hurricane Katrina was a catastrophic storm that made 
landfall in the Gulf Coast near the Louisiana-Mississippi 
border with wind speeds near 150 miles per hour. But the damage 
in New Orleans due to high winds and rain paled in comparison 
to the devastation resulting from the flooding. Where the storm 
surge was most severe, this cause massive overtopping and the 
levees experienced a wide range of damage from complete 
obliteration to those being intact with no signs of distress. 
At some locations, the earth embankments were simply gone. Some 
walls with embedded sheet piles fared only marginally better 
and were often breached as well, even though they were not 
always overtopped.
    Another commonly observed problem was the frequent presence 
of transitions between different sections of the levees, which 
include inconsistent crest heights, changes in levee type, 
changes in materials of construction and rights of way 
penetration through the flood control system. As you know, the 
Corps of Engineers began making emergency repairs to the levee 
system in the immediate aftermath of the hurricane. These 
repairs were necessary to complete the evacuation of the city, 
to aid in the removal of the floodwater and to restore order. 
The Corps has now begun making longer term repairs. 
Construction crews are installing temporary coffer dams around 
the breached areas to keep water out while permanent repairs 
are made. The initial temporary repairs are being removed.
    The Corps will then install new sheet piles, presumably to 
greater depths, and T walls to provide greater lateral support 
and better protection against seepage. In addition, the Corps 
will need to inspect distressed floodwalls to determine whether 
to repair or to replace them. The Corps will also need to 
inspect apparently undamaged floodwalls and levees to determine 
if they have hidden structural damage or weaknesses.
    Based on our observations, a number of initial comments are 
warranted concerning the rebuilding and rehabilitation of the 
levee systems. While levee failures may be expected when 
overtopping occurs, the performance of many of the levees and 
floodwalls may be significantly improved and the likelihood of 
future failures prevented with relatively simple modifications 
of the levee and floodwall system.
    For example, the levees need additional overtopping 
protection on their inboard sides to minimize erosion. The 
crest heights of the levees need to be planned in a systematic 
and deliberate way so that if and when overtopping does occur, 
it occurs preferentially at desired locations where the walls 
are more robust or designed to better resist overtopping.
    Transitions should also be improved so they do not 
represent locations of potential weakness. The storm surge that 
was funneled through the Mississippi River Gulf Outlet was a 
significant factor in the overtopping of the levee system. The 
Port of New Orleans and the Corps must carefully consider 
whether the danger posed to human life and property by future 
storm surges down the outlet warrants keeping the channel open.
    We believe Congress should enact a national levee 
inspection and safety inspection program modeled on the very 
successful Dam Safety Program. The levee program should include 
a national inventory of levees, particularly those that protect 
large, heavily populated urban areas.
    We also must discourage new development in the flood 
plains, unless there is a pressing need for that development 
and adequate protection can be provided. Population centers on 
the Gulf Coast must be given a higher level of protection than 
now most have.
    ASCE believes Congress should establish an independent 
advisory panel to envision the future of the Gulf Coast and to 
recommend ways to begin rebuilding of the areas that were 
devastated by Katrina on August 29th.
    Mr. Chairman, this concludes my testimony. I will be 
pleased to answer any questions that you may have.
    Senator Vitter. Thank you very much, Mr. Roth.
    Now, Dr. Suhayda.

  STATEMENT OF JOSEPH N. SUHAYDA, Ph.D., EMERITUS ENGINEERING 
             PROFESSOR, LOUISIANA STATE UNIVERSITY

    Mr. Suhayda. Mr. Chairman, thank you very much for having 
me here. I have written testimony that I would like to depart 
from slightly, because many of the topics have been covered.
    Two issues I would like to raise that I haven't heard 
mentioned is the current authorization being Category 3 
protection I think is inadequate. We have all recognized that. 
I wanted to address that as an issue that I think Congress 
directly has responsibility for.
    The second issue is interim flood protection. Much of what 
we heard is talking about the long-term, and these are 
certainly strategic issues that need to be addressed. But what 
are we going to do in the 10 to 15 years, or even this winter, 
and what can we do?
    My background is, I taught at LSU in the civil engineering 
department for 20 years. I was at LSU for 30 years. I was a 
senior consultant to the New Orleans district office of the 
Corps of Engineers in hydrology and hydraulics. I have worked 
extensively with FEMA, the Office of Emergency Preparedness and 
the State of Louisiana and several of the levee districts. So 
my experience has been really at the grass roots. I am not a 
policy person. I have talked and given presentations to levee 
boards and levee districts and levee meetings, trying to inform 
people of the nature of the threat.
    One of the things that I think has come out is that the 
levee system is quite complex. The hurricane, which include 
waves and storm surge itself was highly variable over the area. 
Then third, the damage that was realized was quite complicated, 
geographically and in terms of the types of damage that 
occurred. So I think initially we have to go into this with the 
idea that it is not a system, it is a bunch of individual 
things that have in and of themselves their own threats and 
their own capabilities to resist that threat.
    So I think looking at the district level, looking at the 
flood district level and integrating and making sure that there 
is a consistency at that level, I think is a lot more 
reflective of the actual nature of the problem. East Jefferson 
Levee District, which protected Jefferson Parish, the east side 
of Jefferson Parish, that area was not extensively flooded. I 
think we need to look at that as a lesson learned. I will tell 
you something about how we approach that.
    But as far as the current situation, we do not know if we 
have Category 3 protection or are going to get it by next 
summer, and Category 5 protection is 10, 15, 20 or greater 
years in the future. The first thing I would like to address is 
just simply the authorization that the Corps operates under. It 
has been repeatedly cited as the reason why the Corps can't do 
more for the State. We heard years ago we would like to provide 
Category 5 protection, but you can't afford it, and Congress 
hasn't authorized it. Well, Congress needs to authorize, and 
not necessarily fund, but authorize the Corps to look at 
Category 5 protection.
    Just as an example in terms of consistency, the river 
levees running through the city are preventive of a one in 800-
year flood. The hurricane protection levees are one in 200-year 
flood protection, a four times greater risk. Why? Why is one 
side of the city protected to a four times higher level of 
safety over the other?
    Also the current authorization is really a 1965 document. 
The city is different. It is obvious that things are different. 
The wetlands are different. We need to update our whole 
thinking about how to address these issues. As far as interim 
flood protection, what I think can be done is to not focus on 
the levees as exclusive flood protection mechanisms, but 
consider redundancy in that, we don't have to have Category 5 
levees to have Category 5 protection for certain parts of our 
communities.
    We actually could have prevented flooding of the Superdome 
with a structure that encircled the Superdome. We can take that 
principal of using interior drainage control features such as 
the 17th Street Canal. That is a wall, now, that bisects 
essentially the metropolitan area on the northern side of the 
Metarie Ridge. If that were used in conjunction with the 
Metarie Ridge, we could compartmentalize and localize the 
flooding, which inevitably seems to be a possibility.
    In terms of St. Bernard Parish, for example, I would like 
to direct your attention there to where it says St. Bernard and 
it is pointing to the wetland area. The red line there is the 
Forty Arpent levee, and that is what is I think being 
considered as a relocation point for the hurricane protection 
levee, which would then put that levee behind about a mile to 2 
miles of wetlands. There we are, we have wetland protection 
right in front of us.
    Other parts of St. Bernard Parish, you can see the little 
red line running from the Forty Arpent levee to the River 
levee, would also compartmentalize the flooding that might 
occur in St. Bernard Parish. Maybe we could look into 
protecting critical infrastructure within St. Bernard Parish, 
such as police stations, hospitals, governmental buildings, to 
allow it come back to Category 5 protection, but not 
necessarily have to wait to protect the whole parish.
    So those are the two issues I wanted to concentrate on, the 
technology for doing the inner protection, as has been already 
described, is there. We actually put 1.8 miles of flood 
protection on top of the East Jefferson levee district levee in 
July 2004, because the levees are about three feet below the 
design grade. The parish knew that, the Corps knew that, the 
emergency managers knew that we didn't have Category 3 
protection. That project was accomplished in about 2 weeks, 1.8 
miles.
    So I think we have a number of options that should be 
considered. Of course, I would like to have, any questions that 
you have, an opportunity to answer them. Thank you very much.
    Senator Vitter. Thank you, Doctor. We appreciate your 
comments and would note that this committee today will pass out 
authorization for a design for a higher standard, including 
Category 5. So we are certainly taking your advice in that 
sense.
    Professor Verchick.

STATEMENT OF ROBERT R.M. VERCHICK, GAUTHIER-ST. MARTIN EMINENT 
   SCHOLAR CHAIR IN ENVIRONMENTAL LAW, LOYOLA UNIVERSITY NEW 
                            ORLEANS

    Mr. Verchick. Thank you.
    Mr. Chairman and Members of the committee, thanks for the 
opportunity to appear before you today and testify. I am an 
expert in environmental law and policy and a resident of New 
Orleans. I hold the Gauthier-St. Martin Chair in Environmental 
Law at Loyola University, and I am also a board member of the 
Center for Progressive Reform. That Center actually has drafted 
two different reports on Hurricane Katrina, one called, ``An 
Unnatural Disaster,'' another called, ``Broken Levees: Why They 
Failed.'' They are available on our Web site.
    My written testimony I am going to deviate from, but I ask 
of course that the written testimony be incorporated into the 
record.
    Today, I would like to focus on some of the things that we 
have heard already about what we know, and then move on to some 
policy lessons I think that we can learn from this. What we 
know so far, and what we have heard, essentially the things to 
point out are that we have the MRGO, the MRGO that funneled 
that surge into the heart of the city. That is one thing that 
we have to figure out how to take care of.
    We also know that we had some levees, particularly the 17th 
Street and the London Avenue ones, that just broke apart. LSU 
is estimating that there are 20 separate breaches in those 
levees in part where those transition areas are. We know that 
historically there has been a lack of adequate maintenance and 
funding for the levees and of the Corps in general. We know 
that there is a lack of process to regularly assess levee 
integrity, even though we know the levees sink on their own 
because of subsidence.
    We now have allegations from independent expert bodies of 
poor levee design and bad construction, and now there are even 
suggestions of corruption or malfeasance on the part of the 
Corps itself and its contractors.
    The other side of this is that we know we have coastal 
wetlands in Louisiana, a quarter of all coastal wetlands in the 
United States. They are like a patient dying on the operating 
table and they have been for decades. We are losing 6,600 acres 
a year. We lost 100 square miles just because of Hurricane 
Katrina, and these are the buffers that are meant to protect us 
in times of hurricane.
    Well, what can we learn? Here are some of the things I 
suggest, with a recommendation attached to each one. No. 1, 
focusing only on levees is a fool's gamble. Any new hurricane 
protection must be integrated and must consider simultaneously 
levee and gate construction, wetland restoration, habitat 
preservation, canal navigation, and patterns of residential and 
commercial development.
    Levees don't protect people. Flood protection systems 
protect people. Those systems are made of multiple layers of 
defenses all working together. Some of them are natural, some 
are enhanced by human beings, some of them are completely 
artificial. You have sand bars, barrier islands, marshes, 
cypress swamps, levees and perhaps some day sea gates, and all 
of those things have to be looked at at once. There is no way 
you can protect the city from a Category 5 storm without the 
coastal wetlands.
    The Dutch, who revolutionized flood control, recognized 
years ago that a levee strategy by itself will sink a city. 
That is why their flood control programs incorporate the 
natural features as well as the human-made features.
    Also, it is cost effective. Because there are some types of 
protection you get by preserving and maintaining barrier 
islands that you wouldn't with dams or dikes.
    The second point is that strong plans are adaptive plans. A 
new hurricane protection vision should incorporate formal 
mechanisms by which an independent, scientific board regularly 
assesses the design, condition and performance of hurricane 
protection features. This would effectuate the rebuilding or 
the raising of levees as they sink.
    The third, what's good for the environment is good for 
hurricane protection. New hurricane protection visions must 
adhere to current environmental and procedural standards, 
including the National Environmental Policy Act. I can answer 
questions about that as we go.
    In my last 30 seconds, the Army Corps can't do it alone. 
Effective hurricane protection in the Gulf may require the 
establishment of an independent commission made up of Federal, 
State and local officials, maybe something like the South 
Florida Ecosystem Restoration Task Force. The No. 1 reason is, 
we need integrated solutions that involve land use as well as 
other things that the Corps doesn't have primary skill with.
    No. 2, we need a body that has its full attention on this 
ball. No. 3, the Corps is likely to be seriously distracted by 
ongoing civil and criminal investigations that will prohibit it 
from being as frank and forthcoming as it should about issues 
involving flood protection.
    With that, I thank you and I am open for questions.
    Senator Vitter. Thank you very much, Professor. We 
appreciate your being here.
    Now we will get to questions. Dr. Zimmie, going back to the 
17th Street Canal area in particular, what is the conclusion of 
your preliminary study on whether the conditions, including the 
peat layer, et cetera, that led to that failure, aren't more 
widespread up and down that canal, such that we need to take 
action beyond simply where the breach occurred, even in the 
short term?
    Mr. Zimmie. That is an excellent question. I think you have 
hinted at it several times. They will repair that breach, and 
they will make that breach very strong. Then the question is, 
if we move away from there, do we have similar conditions. In 
other words, repair the 17th Avenue breach, and then another 
Katrina hits next year, and will a wall, say a quarter mile 
away, fail. That is your question. How widespread is it?
    We can't really answer that question at this point. That is 
a big concern. The other parts of the levee system have not 
been tested. So you may fix, it is like a chain. You have one 
weak link in the chain and the whole chain has failed.
    So now you have another link further down. You fix one link 
and then the next link fails.
    Senator Vitter. Specifically, do you all have any 
conclusions about how widespread this porous peat layer is, 
assuming that is a significant factor?
    Mr. Zimmie. I suspect, peat is very common in the New 
Orleans area. I don't think there is any question about that. 
We have seen many cross-sections that the Corps provided us, 
and peat is found throughout the New Orleans area. Is that any 
surprise? It is a swampy area. So of course there is peat. The 
question is, how widespread is it? I think that is what the 
Corps is trying to answer now. They are going along taking 
samples.
    We talked about the normal being 300 meters apart. It is an 
economic decision. You can't poke a hole in the ground every 10 
feet. It is just not feasible. So the question is, how much 
soil sampling do you do. So I don't think we know the answer at 
this point in the game.
    Am I worried about it? Yes, I certainly am. I think if they 
just fix the breaches and just repair what is happening and 
then Katrina comes along, I think you will probably have 
another part that will fail. I think that is your concern. I 
think with the investigation, securing soil samples, getting 
more information to do a proper design should be able to answer 
that.
    Senator Vitter. Dr. Gagliano, in areas where levees cross 
these faults, what can be done to counteract the negative 
effects of that?
    Mr. Gagliano. It is going to vary somewhat. The character 
of the fault zone varies. In some places the actual plane of 
the fault movement is pencil-line thin. In others it may be a 
zone of several hundred feet or more wide that would consist of 
broken clay particles and sand lenses and things of that sort. 
In each instance, however, we have documented vertical movement 
of fluids, primarily saltwater and gases, from these decaying 
organic materials that underlie the area.
    The bases of the faults are very deep, like 25,000 feet. So 
clearly, we can't drive sheet piling down 25,000 feet. But the 
risk of those fault plains allowing water to move and seep 
under the levees is only as great as the water body that we are 
trying to contain. So we are on the right track by driving 
deeper sheet pilings.
    The other factor is, in the greater New Orleans area, the 
real foundation-bearing horizon is the top of the Pleistocene 
formation, which is about 75 feet deep. So our first 
consideration would be to make sure that where we use sheet 
pilings, we anchor those into more solid material.
    If I could comment on the question you asked Dr. Zimmie, we 
really have great detailed knowledge of the distribution of 
peats and buried sand bodies in the New Orleans area from 
literally thousands of shallow borings that have been conducted 
and geological studies that have been conducted over the years.
    Geotechnical studies tend to be along lines and done 
primarily to provide samples for laboratory analysis. We need 
to crank more geology into that interpretation.
    Senator Vitter. Thank you.
    Senator Jeffords.
    Senator Jeffords. Thank you, Mr. Chairman.
    For those of you on this panel impacted personally by the 
storm, I want to express my sympathy. I have been focused 
throughout our committee's work on Katrina on the question of 
why do we need flood control in southern Louisiana. We have 
heard a lot about people of this region of the country and the 
unique culture of the region. I will never get tired of hearing 
more about the treasures of southern Louisiana, and I invite 
each of the members of this panel from Louisiana to answer this 
question.
    Why do we need to preserve the culture and the people of 
southern Louisiana with good flood control? Mr. Gagliano?
    Mr. Gagliano. Thank you for that question, Senator. I am a 
native of Louisiana, born in New Orleans, and I love the place. 
I love our culture, I love our landscape. People live in 
coastal lowlands and deltas all over the world. The Dutch have 
mastered the business of living in a deltaic area, and have the 
most densely populated area in Western Europe. No one would 
question whether or not the Dutch people and their culture 
should be protected by adequate levees and drainage systems.
    In Louisiana, our population density is less than that of 
the Netherlands. But when European colonists settled our area 
they recognized that this was a deltaic lowland. They selected 
the highest ridges for the location of cities and communities 
and the highest ridges for agricultural pursuits. We have 
extended these land uses into areas that require flood 
protection and drainage.
    The area was settled becasue of its strategic location and 
abundance of resources. We are now in the business of using the 
land and its resources for the benefit of the State and the 
Nation. Without a doubt, Louisiana is a net producer of 
resources. It is an environmentally rich area, it is an area 
that produces oil and gas, agricultural products and fisheries. 
It has the largest port in the Nation, a rich cultural 
heritage, and on and on. I would hope that the Nation will 
recognize the need to allow us to continue providing these 
values and services.
    Thank you, sir.
    Senator Jeffords. Thank you. Mr. Suhayda.
    Mr. Suhayda. Yes, I have a list here, I will go over them 
real quickly. These have been identified as part of the case 
that the State has tried to make for preserving our wetlands.
    But in particular, the ecosystem that we are dealing with 
is unique. It is the largest wetland system, very productive, 
provides a lot of recreational opportunities. So losing the 
wetlands, which is part of our overall strategy to prevent, I 
think would definitely be a loss to the country.
    Energy, for example, the State supports and is one of the 
most aggressive States in working with the Federal Government 
to exploit energy resources. There are consequences to that. 
They may not have dominated our wetland loss problems, but they 
are certainly a factor such that we have paid a price and we 
are in a sense suffering some of the consequences of allowing 
navigation development and energy development to take place.
    We are a gateway to South and Central America. 
International trade and global economy is growing, and in spite 
of the recent little speed bumps that we hit with South 
America, I think we can expect to see that to be a focus of the 
Federal Government for years to come.
    We have the largest port activity by volume in the United 
States in the Mississippi River corridor that is supported by 
the culture and the economic activities in southern Louisiana. 
Culturally, I think historically New Orleans was an entry port 
for immigrants for years and years. We have a mixture of 
historical architecture and cultural issues and food and all 
the other things that are not to be found any place.
    So I think real quickly, those are the types of things that 
come off the top of my head that make the southern part of 
Louisiana valuable to the country and worth saving in the 
broadest context of what you described, flood protection and 
environmental restoration.
    Senator Jeffords. Professor Verchick.
    Mr. Verchick. I can't improve on that. I think that is all 
absolutely right. New Orleans is a city that I love and which 
thousands of visitors do every year. It is a cultural gem in 
the world, just like Venice, which again is having to master 
its own sort of environmental issues and economics. The port 
activity, the offshore oil, a fifth of all the fish that we eat 
in the United States comes from the Gulf, which is supported by 
those wetlands. It produces billions in nature's services, 
ecosystem services down in that area. It can be preserved with 
the engineering, and it should be.
    Senator Jeffords. Thank you.
    Senator Vitter. Thank you, Senator.
    Mr. Roth, you had mentioned at one point some relatively 
modest and simple and inexpensive add-ons that can greatly 
reinforce the existing levee system. I think one of the main 
things you were thinking of is scour protection on the land 
side of levees, and the Corps has mentioned that for the 
Industrial Canal in particular. Do you have an opinion about 
how adequate that will be on the land side of the Industrial 
Canal to the existing eyewall to provide greater strength in 
the case of overtopping?
    Mr. Roth. I was glad that Mr. Hitchings brought diagrams to 
effectively show in pictures what we are trying to describe. I 
think that as a scour protection, if properly constructed on 
the inside, will provide a great deal of protection for 
overtopping in the event of a future storm.
    Senator Vitter. With that in mind, with that scour 
protection, are you concerned that the new inverted T design is 
only being applied, at least as of now, in a limited area of 
the breach?
    Mr. Roth. I think we have to consider your question to Dr. 
Zimmie. We need to be assessing the geologic conditions using 
the data and information that Dr. Gagliano has referred to. In 
addition, we need to be taking additional soil borings and 
Cohen penetrometer testings throughout the levee system to see 
if we can identify other perhaps isolated areas where the soil 
conditions are such that it causes that particular section of 
wall to be in jeopardy.
    But first of all, we really need to understand exactly how 
or if the peat truly contributed to the failure. That is the 
whole purpose of the IPET investigation. We think we have a 
fairly good understanding of how things failed. I can 
appreciate your frustration, Senator Vitter. We don't yet know 
exactly why things failed. I think that is a good illustration. 
If we made a poor assumption about why a particular levee 
failed and then went and spent a great deal of money to 
reinforce other levee sections and then later found out that 
that was not really a contributing factor to the failure, we 
would have perhaps wasted some resources that could be better 
used to increase flood and hurricane protection in other 
matters.
    So I think we really need to understand the mechanisms of 
the failure, and we need to look to see if those conditions and 
those mechanisms occur elsewhere. If that is the case, then 
more robust systems such as the T walls are definitely merited.
    Senator Vitter. With that in mind, at the Industrial Canal, 
not 17th Street, but the Industrial Canal, isn't it a fair 
consensus at this point that the cause was overtopping and 
scouring on the land side?
    Mr. Roth. I believe so, yes.
    Senator Vitter. Assuming that cause, how adequate is the 
scour protection to avoid that in the future versus a whole new 
wall design like the inverted T everywhere?
    Mr. Roth. I think there are a number of factors that need 
to be considered. We certainly need to look at the scour 
issues. We need to look at the conditions and the IPET will be 
examining the hydraulic modeling to determine the wave heights 
and the potential surge heights. So we will have a much better 
understanding of where these things possibly can occur.
    There is another factor that we can take into consideration 
as well, and that is, if there is going to be a storm surge 
that does cause overtopping, perhaps we could direct some of 
that overtopping to preferential areas where we know that the 
wall is going to behave much better. It is like a fuse plug is 
often built into small dams. That is a preferred failure mode 
that in the event you get a high flood, the fuse erodes 
quickly, but it prevent greater damage to the main structure.
    So I think some preferential overtopping needs to be 
considered in the design. I know there are a number of other 
factors that the Corps is going to be looking at.
    Senator Vitter. Dr. Suhayda, do you have any comments in 
particular about the immediate term and what the Corps is doing 
now until June? What should we consider doing differently, 
particularly in the short term?
    Mr. Suhayda. Well, the reason I brought that up is I think 
it has been neglected. I haven't heard anyone talk about 
localized flood protection that will allow the communities to 
start to recover. The whole issue here is not engineering. It 
is community development, economic development and protecting 
people and property.
    If the Corps and the Federal Government can advance that 
along the lines of the levee issues, that is fine. I think that 
is incomplete. I think we need to be looking at protecting 
infrastructure that would be critical to recovery. It may be 
years before the levee systems are able to do that. Yet we need 
to have those online.
    The idea of a fuse, for example, my reaction to that was 
when a fuse blows, the lights go out. We have to have some way 
of dealing with interior flood management. Levees are 
susceptible to failure. So our thinking now, I think, should be 
to look at how we can manage floodwaters that should get 
through the Federal levee. Maybe that is not a Federal 
responsibility at this point.
    But once the water got through the 17th Street Canal, it 
flooded all the way to the Superdome, miles away. But it did 
not get to East Jefferson Parish because of the Metarie Ridge. 
So we can take advantage of some of these things that are 
clearly outside of the box of current thinking with regard to 
focusing on the Corps of Engineers' responsibility and their 
authorizations for perimeter levee protection. I am just 
saying, we are neglecting other opportunities.
    Senator Vitter. Senator?
    Senator Jeffords. Professor Verchick, periodically on this 
committee we hear discussion of the role of environmental 
litigation on the selection of floodwall and levee designs 
along the lake. Can you comment on this?
    Mr. Verchick. I would like to, actually. There was an op-ed 
early on from the Wall Street Journal and there has also been 
testimony before the House Committee on Resources suggesting in 
particular that one environmental lawsuit drowned New Orleans. 
That is simply false, and I will tell you a little bit about 
that.
    If anything drowned New Orleans, it is likely to have been 
the design and construction of the levees. In 1965, Congress 
authorized what was called the Lake Pontchartrain Vicinity 
Hurricane Protection Project, which was a project by which the 
Corps had two options: one to build high grade levees, and the 
other was to build a kind of a sea gate that would contain Lake 
Pontchartrain, so the water wouldn't surge in there. That was 
called the Barrier Option.
    Well, the Corps at that time chose a barrier option, but it 
didn't have a very big environmental impact statement, which 
was required in the 1970's after the National Environmental 
Policy Act. They had flow models that were 10 years out of 
date, they had biological analyses based on a single phone call 
from a marine biologist. It was very skimpy. There was nothing 
to the EIS.
    So a group of fishermen and an environmental group sued, 
simply saying, we want a proper environmental impact statement. 
Well, it went to the Federal courts. In 1977, a Federal court 
said, ``You know, if you want to build something, Corps, come 
back with an environmental impact statement that is proper.'' 
It happened all the time in those days. The Corps routinely 
came back with a proper EIS.
    But in this case, they didn't. In this case they looked it 
over again and they decided on their own that the Barrier 
Project was too expensive, mainly because it required 
condemning a lot of land that was privately owned for the gates 
to work. So they chose the high levee option, which was 
probably the right option, although I am not an engineer. 
Because it was an option that could have protected us, to some 
degree, against Katrina, if the levees had not given way.
    So they said, themselves, that they did it because it was 
less expensive and because it was a better option for 
protecting all of the lake. So the buck stops with the Army 
Corps of Engineers. It was not a group of rag-tag 
environmentalists that defeated the will of the U.S. Army in 
this case. The thing to understand is that since these 
hurricanes, the U.S. GAO and the Chief of Engineers has 
testified before Congress, saying that those sea gates would 
not have helped, and probably would have caused more damage.
    The reason is those sea gates did close off, would have 
closed off part of Lake Pontchartrain. But the water came 
through MRGO, through the Mississippi River Gulf Outlet. That 
shot the water right into the heart of the city, an end run 
around any barriers that would have been built.
    So that is my version, and the true version of how 
environmental litigation is related to these barriers. If 
anything, those sorts of lawsuits help government make better 
decisions. Because in this case, it did force the Corps to go 
back and think about all of the options it had when choosing a 
system.
    Senator Jeffords. Mr. Roth, can you describe why you think 
a national levee safety program is important, and why the 
current inspection system is not adequate?
    Mr. Roth. I think Dr. Zimmie alluded to it in one of his 
responses, that there are literally thousands and thousands of 
miles of levees in the United States. Almost all of them fall 
under a variety of different jurisdictions. Many of them were 
built many, many years ago, before modern design standards had 
been in place. Really quite, just like occurred in New Orleans, 
until a natural disaster does occur, many times features like 
levees or dams are out of sight, out of mind. We don't think 
about them until there is a problem associated with them.
    In fact, they are a very important part of our 
infrastructure. In fact, they need to be maintained and 
periodically evaluated. We need to periodically check them to 
make sure that they are adequate as our knowledge of hydrology 
and natural disasters improves, and as we recognize that these 
are a very critical part of defense against hurricanes and 
floods in particular parts of the country.
    We believe that we need a national policy regarding these. 
We point to the National Dam Safety Act. The National Dam 
Safety Act was enacted about 30 years ago, I believe, following 
a series of dam disasters in the 1970's. Since that time, we 
have gotten a much better handle on dams that are unsafe. We 
have improved the general public health, safety and welfare by 
having a knowledge of those unsafe dams and then taking steps 
to make them, either take them out of commission or improve 
their safety and their performance.
    We believe the same thing needs to be done for levees. It 
is a national issue, it is a national problem. The levees ought 
to be designed to national standards. We need many things that 
such a levee program would provide, not the least of which is 
just an inventory, so that we know how many there are and in 
what condition they exist in.
    Senator Jeffords. Thank you. Thank you, Mr. Chairman.
    Senator Vitter. Thank you very much. Thanks to all of you 
for your very valuable testimony and your ongoing work. We 
appreciate it.
    Now to wrap up the hearing, I would like to invite, as I 
promised, Mr. Hitchings back, if he has any reactions or 
comments regarding this other testimony.
    Mr. Hitchings. Thank you, Senator Vitter. Just a couple of 
points.
    I do want to reiterate the Corps' concern as you have 
expressed for the vulnerability of the system after we make 
those emergency repairs that we are doing under the Flood 
Control and Coastal Emergency's authority. Our risk and 
reliability study that we are conducting as part of the IPET is 
really focused to identify those potential problems that are 
still remaining that need to be addressed. We have started that 
effort now and we will get the results of that just absolutely 
as quickly as we can.
    It is critically important and also important that you 
can't make some conclusions without adequate data and analysis 
in that particular area.
    I would also like to correct one statement that was made 
earlier, I believe it related to the previously proposed 
Barrier Plan, in that it would not have made any difference. 
That statement I believe was accurate, but it is accurate not 
because it was an inadequate plan, and not because the storms 
would have gone up the MRGO anyway. It would not have made any 
difference because its authorized level was still the standard 
project hurricane. All indications are that Hurricane Katrina 
exceeded that level.
    So if a Barrier Plan or any other alternate plan would have 
been put forward and that would have been constructed, it still 
would have been overwhelmed by the forces of Hurricane Katrina.
    So subject to any additional questions, that is all I have 
to add, sir.
    Senator Vitter. Well, certainly to underscore some of my 
earlier comments, we are very eager to hear the Corps' 
conclusions within the next month about things like soil 
samples, the condition and types of soil in different places 
like the 17th Street Canal, what does that mean in terms of 
addressing the canal walls on either side of the breach, in 
fact, on the other side of the canal, how adequate the anti-
scouring fix will be on the Industrial Canal, since you are not 
putting an inverted T everywhere.
    So this has to be an ongoing discussion and conversation. 
We need to reach some of those conclusions pretty quickly in 
order to do some things that are adequate for next hurricane 
season. So I will look forward to that.
    Mr. Hitchings. Absolutely.
    Senator Vitter. Thank you very much. With that, the hearing 
is adjourned.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow.]
Statement of Hon. Lisa Murkowski, U.S. Senator from the State of Alaska
    Thank you, Mr. Chairman. All Americans can appreciate the 
committee's work on this important subject. I will be very brief.
    I want to go on record in support of the purpose behind this 
hearing, because it is critical that we learn from the mistakes of the 
past. It is clear that the levees in and around New Orleans were not up 
to their task. The political and economic causes for that failure will 
be debated for a long time. But the mechanical causes are already 
becoming clear, and the immediate concern is the need to ensure that we 
prevent the same failures from being repeated in the future.
    If we are to rebuild the city, we must also rebuild its 
protections. If we are to do so with Federal money, we must do so in a 
way that will make the use of Americans' tax dollars meaningful. 
Anything else would be criminal.
    It has been suggested that we need to empanel additional advisors 
for the Corps of Engineers. Frankly, Mr. Chairman, while I agree that 
an integrated, interdisciplinary approach is probably needed, I also 
believe firmly that it is also important to have ``a place where the 
buck stops.''
    We are all familiar with the motto President Truman kept on his 
desk. We all know what happens when we exercise ``design by 
committee.'' I respect the views of those who feel an independent 
oversight group is needed. Personally, I may even be in agreement.
    But I also want to remind my colleagues that when disasters strike, 
there is often a call to bring in the military and it's not because we 
want a committee. It's because we know there's a need for a clear, 
unquestioned chain of command with the ability to see what's needed, 
give an order, and have it obeyed.
    Mr. Chairman, I think there's a corollary in construction, 
especially where we are dealing with critical facilities that mean life 
and death to entire communities. Committees are not accountable, but 
individuals can be and our job is to ensure that they are. We need 
strong leadership with the determination to do the job right, without 
cutting corners, and with the courage to speak out if the resources 
available are insufficient for the task.
    In the long run, Americans will support rebuilding but only if 
their money is not wasted.
                               __________
   Statement of Daniel Hitchings, P.E., Regional Business Director, 
 Mississippi Valley Division, U.S. Army Corps of Engineers, Department 
                              of the Army

                              INTRODUCTION

    Mr. Chairman and distinguished Members of the Committee, I am Mr. 
Daniel Hitchings, Regional Business Director for the Mississippi Valley 
Division, U. S. Army Corps of Engineers. I am honored to be testifying 
before your Committee today, on the efforts by the Corps of Engineers 
to incorporate forensic findings into our ongoing repair of the storm 
damage reduction projects in the New Orleans area.

                     REPAIRS TO THE EXISTING SYSTEM

    With our contractors, we are working around the clock on the levees 
and floodwalls to reduce the risk of damage through the remainder of 
this hurricane season, which continues until the end of November, and 
the rainy season that the area normally experiences in December and 
January. Our goal is to complete this phase of the effort before the 
start of the next hurricane season, which begins in June 2006. Our 
teams are actively gathering data and information from the recent 
storms, and we have also begun an after action assessment of the 
existing storm damage reduction system.

          INVESTIGATING THE PERFORMANCE OF THE EXISTING SYSTEM

    The Corps takes its responsibility for the safety and well-being of 
the Nation's citizens very seriously. In the case of the New Orleans 
area, we are determined to learn what failed, how it failed, why it 
failed, and to recommend ways to reduce the risk of failure in the 
future. There is no single answer to the question as to why there were 
failures in the storm damage reduction system, as there were multiple 
breaches of levees and floodwalls at a number of locations and the 
failure mechanism or mechanisms are likely to vary. The answer to this 
will follow from a thorough analysis of the data we are now collecting. 
In some cases, e.g., the Inner Harbor Navigation Canal, we have 
observed evidence of overtopping. In other cases, e.g., the 17th Street 
Canal, we have observed evidence of massive soil movement. The physical 
processes that caused the breaches will be determined from the 
comprehensive analysis of the data that we are collecting. What we have 
to date is evidence of what happened; we can see the final result of 
the structural behavior, but we cannot yet determine why. That will 
require more understanding of the design intent of each structure, its 
condition prior to the storm, the forces to which it was subjected 
(static and dynamic) and how we would expect it to respond to those 
forces. This is the objective of our current interagency analysis 
efforts. Understanding why this happened will also help us to develop 
recommendations on ways to reduce the risk of failure in the future.
    The Chief of Engineers, Lieutenant General Carl A. Strock has 
commissioned an Interagency Performance Evaluation Task Force (IPET) to 
conduct an engineering evaluation. The IPET includes engineers and 
scientists from the Engineer Research and Development Center from 
Vicksburg, Mississippi, the Institute for Water Resources in 
Alexandria, VA, numerous universities, and the private sector, as well 
as from other Federal agencies, such as the Bureau of Reclamation and 
the National Oceanic and Atmospheric Administration. As the team 
deployed, the American Society of Civil Engineers and a University of 
California team sponsored by the National Science Foundation approached 
the Corps about similar studies of infrastructure performance they were 
undertaking in hopes of applying lessons learned to the levee systems 
in California. In the spirit openness and full transparency, we invited 
them to join our team beginning on September 29, 2005, for inspections 
of the projects involved. On September 30, 2005, we learned that the 
State of Louisiana would soon establish its own study team and the 
researchers from the Louisiana State University Hurricane Research 
Center were invited to join our team in advance of this official 
establishment. The Corps gratefully acknowledges the assistance 
provided by these teams in the collection of the data.
    The data collection teams have been performing field work in the 
New Orleans area to obtain as much data as possible related to the 
performance of the levees and floodwalls and to ensure that data is 
collected before it is covered over or lost by cleanup or as a result 
of repair efforts. They have been diligently recording the damages and 
measuring the post-Katrina conditions. They have examined physical 
evidence to establish the maximum water elevations at various 
locations. To establish the timeline of events, they have conducted 
detailed interviews with about 70 people who sat out the storm. To 
establish the soil properties, they have pushed a state of the art 
instrumented cone to a depth of 80 feet at 56 locations. They further 
collected samples of the soil at depth in 10 locations. They have also 
electronically scanned boxes of documents dealing with the design, 
construction, and maintenance of the projects involved.
    Over the next 8 months, the IPET will examine and analyze the data 
and rationally test various hypotheses about the behavior of the 
infrastructure. Through a thorough analysis of the data that we are 
collecting, we will explore whether human error played any role in the 
performance of the infrastructure. The IPET will use collected data, 
laboratory testing, and modeling activities in its analysis. The work 
currently planned includes providing an updated and accurate vertical 
geodetic datum, performing storm surge and wave modeling; determining 
the hydrodynamic forces created by the storm, analyzing the floodwall 
and levee performance when subjected to these forces; conducting 
interior drainage/flooding modeling to include pumping station 
performance; and conducting a consequence analysis and a risk and 
reliability assessment.
    The American Society of Civil Engineers (ASCE) is supporting our 
efforts with an External Review Panel, which will provide an 
independent oversight of the IPET evaluation. The final IPET report 
will be released in June 2006. However, any important findings will be 
shared on an ongoing basis before then with those who are involved in 
the repair of the existing New Orleans levees and floodwalls.
    We are making all findings available to the public and invite the 
public and the scientific and engineering community to share any 
information they may have. On October 29, the Corps began releasing 
available data by posting it on a publicly accessible Web site, https:/
/ipet.wes.army.mil. Additional data will be added to the Web site as it 
becomes available. The IPET is collecting pre-Katrina documentation 
(design and construction drawings, soil sample records, etc.), post-
Katrina documentation (hydrographic surveys, soil samples, concrete 
cores, etc.) and other performance data (eyewitness accounts, 
photographs, etc.). The data being released includes design memorandums 
dating back to the 1960s, and the associated reports for the Lake 
Pontchartrain, Louisiana and Vicinity High Level Plan, which includes 
the 17th Street Outfall Canal and the London Avenue Outfall Canal. This 
information includes the project plan, hydrology and hydraulics, 
geology, foundation investigation and design (including the field 
exploration, soil borings, and laboratory testing) and the structural 
design.
    In addition to the IPET effort, the Secretary of Defense has 
directed the Secretary of the Army to convene an independent panel of 
national experts under the direction of the National Academies to 
evaluate the performance of the storm damage reduction system in New 
Orleans and the surrounding areas. The National Academies is assembling 
a multidisciplinary (e.g., engineering, atmospheric sciences, etc.) 
panel drawn from the public and private sectors and academia.
    The National Academies Panel will perform a high-level review and 
issue findings and recommendations based primarily but not solely on 
the data gathered by the IPET and the ASCE Independent Review Panel. 
The findings of the National Academies Panel will be subject to a peer 
review process before being released under the imprimatur of the 
National Academies.
    The National Academies Panel will produce a forensic study that 
focuses on the existing levees and/or floodwalls that were overtopped, 
breached, or failed during Hurricane Katrina, and whether such 
situations were the result of design, construction, or operation and 
maintenance issues, soil and geo-technical conditions, changed 
assumptions upon which the design or construction were based, the 
severity of Hurricane Katrina, or other factors. The National Academies 
Panel is expected to produce its final report by July 2006. All reports 
generated by these panels will be made available to the public.
    coordination of post-storm analyses with ongoing repair efforts
    Until we can collect and analyze all the physical evidence, we will 
not have a complete picture of what happened. The results of our study 
will provide a better indication of the extent to which the existing 
system can be expected to reduce the risk of future storm damage. We 
will be examining and providing analysis on the performance of the 
entire storm damage reduction system, to understand the failures that 
occurred, to understand other components of the system that may have 
been degraded in their capacity to protect against future storms and to 
understand where the system performed successfully. We will be 
developing information on risk and reliability of the system as it will 
be following the current repairs. Nevertheless, I want to emphasize 
that we do not need to wait until the study is complete to begin 
applying what we learn. As we learn we will immediately act to 
incorporate those findings into the work in which we are engaged. In 
the interim, results are being shared on an ongoing basis with the team 
responsible for the repair of the existing levees and floodwalls.
    As the data collection teams have been completing their work, they 
have been convening exit briefings with representatives of the New 
Orleans District. This week, the team charged with the repair of the 
existing system, identified as Task Force Guardian, will be provided 
with a formal summary report with recommendations to improve the 
system's performance based on the information collected and analyzed to 
date. The team is already at work increasing the depth of sheet piling 
and providing armor stone protection in some areas. The summary report 
will be made available on the publicly accessible Web site.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you may have.
                               __________

Statement of Thomas F. Zimmie, Professor and Acting Chair of Civil and 
 Environmental Engineering Department, Rensselaer Polytechnic Institute

    My name is Thomas Zimmie, and I am a Professor of Civil and 
Environmental Engineering and the Acting Chair of the Civil and 
Environmental Engineering Department at Rensselaer Polytechnic 
Institute (RPI) in Troy, NY. I have a PhD in Civil Engineering, am a 
licensed professional engineer, and my specialty area of practice is 
geotechnical engineering. I have about 40 years of professional 
experience.
    I was a member of a National Science Foundation sponsored 
investigative team that was formed to investigate the levee failures in 
the New Orleans area, caused by Hurricane Katrina on August 29, 2005. 
As a result of the investigation a report was produced containing the 
observations and findings of a joint investigation between independent 
teams of professional engineers with a wide array of expertise.
    Any opinions I express here today are mine alone and do not 
necessarily reflect the views of the National Science Foundation or any 
other group or agency.
    The report ``Preliminary Report on the Performance of the New 
Orleans Levee Systems in Hurricane Katrina on August 29, 2005'' was 
dated November 2, 2005 and was presented to the Senate Homeland 
Security Committee. A second version of the report is being finalized. 
However there are only minor changes from the original report.
    The investigative teams spent much of October 2005 in the New 
Orleans area visiting the levee system. I was in the New Orleans area 
for about a week in the middle of October, visiting miles of levees, 
including the highly publicized levee breaches such as the 17th Street 
Canal, London Avenue Canal and the Industrial Canal.
    There is not one simple answer as to why the levees failed. Field 
observations indicated various causes: overtopping of the levees, 
erosion, failure in foundation soils underlying the levees, seepage 
through the soils under the levees causing piping failures, and this is 
not a complete list.
    It was a pleasure and an honor to be a member of the investigative 
team, although at the same time it was a sobering and sad experience to 
see the damage to life and property caused by Katrina.
    Hopefully the results of our study will lead to a clear 
appreciation of what happened in Katrina, and that the lessons learned 
from this event will lead to improved protection in the future, not 
just in the New Orleans area, but throughout the Nation and around the 
world.
    I consider it an honor and a privilege to appear before this 
committee, and hope I can be of assistance.
                                 ______
                                 
  Responses by Thomas F. Zimmie to Additional Questions from Senator 
                                 Vitter

    Question 1. On the Industrial Canal, the Corps has determined to 
use a different design to replace the floodwall that failed. At this 
time, I understand that they do not intend to replace the remaining 
floodwall. Based upon the preliminary reports, it seems that this may 
be a mistake. What standard should the Corps use to determine when to 
improve versus replace a design that failed?
    Response. The repaired sections of the Industrial Canal should be 
even stronger than the original floodwall, since they will consist of 
embankment levees at about the same top elevation as the original 
walls, with additional sheet piles driven on the canal side of the 
embankments. The determination of when to improve versus replace a 
design that failed utilizes sound engineering practice and judgment. 
When a failure occurs, the cause of the failure must be determined. We 
learn through failures how to improve our designs and prevent future 
failures. The Corps is carrying out investigations to determine the 
causes of the levee failures; including subsurface investigations, soil 
sampling and testing, and computer and physical modeling of the levees. 
I am confident that as a result of these investigations the causes of 
the levee failures will be determined, which in turn will lead to 
improved levee designs and construction. That is, safer and stronger 
levees.

    Question 2. Do you believe that there are problems with using 
different designs on the same floodwall? Specifically, do these 
additional transitions establish additional ``weak links'' in the 
system?
    Response. Transitions between different types of floodwalls can be 
a problem, and indeed did cause problems during Hurricane Katrina. This 
was pointed out in the NSF/ASCE sponsored report dated November 17, 
2005, dealing with the performance of the levees. The Corps is well 
aware of these types of problems.
    There are several main types of designs utilized for the New 
Orleans flood protection system: for example, earth levees, concrete 
walls, and sheet piles. Thus there are numerous transitions in the 
several hundred miles of levees in the system. The real problem was not 
the transitions between different designs (with a few exceptions), but 
transitions such as road cuts, railway cuts, floodwalls and similar. We 
saw several places where sandbags were to be placed in these openings 
but the sandbags were never placed. Some floodwalls were never closed, 
and in at least one case we observed, the floodwall was damaged and 
could not be closed. This is a serious problem, and a problem of levee 
management and logistics. It must be addressed. After all, what good is 
the best levee system if floodwalls are not closed and gaps remain open 
during floods.

    Question 3. With our unique geography and geology, is it possible 
to provide protection from a Category 5 storm surge in south Louisiana?
    Response. There is absolutely no question in my mind that the New 
Orleans flood protection system can be improved to provide protection 
from a Category 5 storm surge, from a technical standpoint. The flood 
protection system for the Netherlands is an excellent example of a very 
complex and expensive system, and is probably the best in the world.
    However such improvements in the New Orleans system will not be 
simple, nor inexpensive. It would take many years to construct such a 
system, and likely hundreds of billions of dollars. Will the resources 
be provided to construct such a system? An excellent question. Should 
the resources be provided? In my opinion, yes.

    Question 4. You used to work for the Corps. Do you believe that the 
current project process should be modified for efficiency? How?
    Response. Although I have never worked as a civilian for the Corps 
I was a U.S. Army Corps of Engineer Officer (combat engineer), and as 
an engineering professor have often worked with Corps research 
laboratories, mostly Vicksburg and the Cold Regions Lab in Hanover, NH. 
I have a great deal of respect and confidence in the Corps. It appears 
they have been given a considerable amount of resources to carry out 
the levee investigations and reconstruction. Thus I feel confident they 
have the capability to do a good job. A potential problem is the tight 
schedule. Can the flood protection system be repaired in time for the 
next hurricane season? I am in no position to answer that question. 
However from the anecdotal evidence I have gathered by talking to 
designers, contractors and the Corps, everyone is working hard to 
achieve the goal, and the general attitude seems very positive. I am 
optimistic the deadline will be met.
      
    Statement of Sherwood M. Gagliano, Ph.D.,\1\ President, Coastal 
                           Environments, Inc.
---------------------------------------------------------------------------
    \1\ President of Coastal Environments, Inc., 1260 Main Street, 
Baton Rouge, LA 70802. Dr. Gagliano is a coastal geologist and 
environmental scientist. He received formal training at Louisiana State 
University and has over 40 years of coastal research experience in 
Louisiana and other parts of the world.
---------------------------------------------------------------------------
                           EXECUTIVE SUMMARY

    During Hurricane Katrina, a number of breaches occurred in 
hurricane levees and floodwalls in southeastern Louisiana in locations 
where the structures were built across deep-seated geological faults. 
Fault related breaches along the 17th Street Canal, the London Avenue 
Canal, and the Inner Harbor Navigation Canal in the Greater New Orleans 
area caused flooding in densely populated urban areas resulting in 
catastrophic loss of life and property. Along the Mississippi River 
below the City of New Orleans in Plaquemines Parish, flood levees were 
breached as storm surge moved up the river channel. In addition, levees 
in the vicinity of Montegut, south of Houma, Louisiana were also 
breached. At many, if not most, of these locales major regional 
geological faults are known to underlie the levees.
    Recent studies indicate that ancient deep-seated regional faults, 
long-believed to be dormant, have exhibited surface movement during the 
past 50 years. Some of these faults extend down 25,000 feet and have 
been active for 100 million years or more. Fault planes and fault plane 
zones are deep cracks that result in poor foundation conditions where 
they reach the surface. The fault planes and zones are conduits of 
fluid and gas movement which contribute to poor foundation conditions. 
The active faults are part of a linked tectonic system that underlies 
the region. Most fault movement within this system is driven by natural 
geological processes. The fault system is an expression of, a massive 
``continental margin gravity slump'' extending from the latitude of New 
Orleans to the deep waters of the Gulf of Mexico. The faults underlying 
the levees are elements of the linked tectonic system within this 
slump.
    Fault hazards were not recognized at the time of the levee design 
and construction, but are now known to pose a significant natural 
hazard. The fault hazards are not insurmountable obstacles to the 
restoration and maintenance of a sustainable coastal zone in Louisiana, 
but must be a primary consideration in planning, and design of all 
aspects and elements of the restoration effort. All existing and 
proposed levee alignments in south Louisiana should be evaluated for 
potential fault hazards.

[GRAPHIC] [TIFF OMITTED] T9525.001


                              INTRODUCTION

    Hurricane Katrina slammed into the northern Gulf of Mexico coast on 
August 29, 2005, exposing numerous low and weak spots in the levee 
system surrounding New Orleans and other southeastern Louisiana 
communities. In some areas the levees were overtopped by elevated water 
and/or wind-driven surge, but in other places in the Greater New 
Orleans (GNO) area breaches occurred along navigation and drainage 
canals causing flood devastation to densely populated inner-city 
neighborhoods. Some, if not most, of the breaches that occurred are in 
places where the levees were built across geological faults. This 
statement focuses on failures where there is an apparent relationship 
to faulting, a largely overlooked natural hazard. Figure 1 shows the 
spatial relationship between existing and proposed levee alignments and 
major geological faults in southeastern Louisiana. Figure 2 shows the 
locations of the Hurricane Katrina levee and floodwall breaches in the 
GNO area.
[GRAPHIC] [TIFF OMITTED] T9525.002

[GRAPHIC] [TIFF OMITTED] T9525.003


    I have conducted field inspections at the breach sites in the GNO 
area, but have not had an opportunity to conduct detailed site-specific 
study. However, the findings and interpretations presented in this 
statement are based on a 5-year research effort regarding fault 
movement and resulting landform change in south Louisiana and southeast 
Texas. Results of the work have been published in geological journals, 
engineering journals and technical reports and have been presented at 
numerous meetings of professional associations and public bodies. For 
additional information on fault hazards see Publications at 
www.coastalenv.com.

                   FAULTS AND THE TECTONIC FRAMEWORK

    South Louisiana is underlain by a maze of faults, which are known 
primarily from information gathered during a century of exploration for 
oil and gas. Most of these east-west trending features are classified 
as growth faults because the sedimentary beds cut by the faults are 
usually thicker on the down-dropped block, indicating that the faults 
moved during deposition. The faults are components of a regional linked 
tectonic framework that has been in motion for more than 100 million 
years and is still moving. Many subsurface faults within this system 
have been correlated with surface faults (Figure 3). Characteristics of 
growth faults are shown in Figure 4, and surface effects of their 
movement on landforms and near-surface deposits are shown 
diagrammatically in Figure 5.

[GRAPHIC] [TIFF OMITTED] T9525.004

[GRAPHIC] [TIFF OMITTED] T9525.005

    Fault-driven submergence is responsible for more than half of the 
total land loss that has occurred in south Louisiana since the 1930's 
(Figure 6). Fault movement affects surface landforms and infrastructure 
including ridges, barrier islands, wetlands, flood protection levees, 
highways, and coastal communities. Depressions along faults and 
fractures, and tilting of fault-bound blocks also strongly influence 
the alignment and channel-meander configuration of the Mississippi 
River and its distributaries in the deltaic plain. Barrier island 
breakup, as well as river bank failure have been linked to fault 
movement. A cause and effect relationship has been established between 
modern fault movement and the catastrophic land submergence and loss 
that has occurred in coastal Louisiana during the last 50 years 
(Gagliano et al. 2003a, 2003b.)

[GRAPHIC] [TIFF OMITTED] T9525.006

    The GNO area lies along the upper margin of the Eastern Tectonic 
Province of the Gulf Coast Salt Dome Basin (Figure 7). Movement is 
occurring on deep-seated faults that are part of the tectonic framework 
of this province. The Eastern Province is in effect a giant gravity 
slump block, the toe of which lies in the deep waters of the Gulf of 
Mexico and the crown fault underlies the GNO area (Figures 7 and 8). 
The faults within the tectonic framework are moving in response to this 
massive continental margin slumping, which is driven primarily by basin 
sinking, sediment loading, gravity, and movement of underlying salt 
deposits. Onshore components of the linked framework are expanding or 
pulling apart and thus creating surface depressions and block tilting, 
while offshore components are contracting into folds and thrust faults 
that are piling up at the base of the continental slope.

[GRAPHIC] [TIFF OMITTED] T9525.007

[GRAPHIC] [TIFF OMITTED] T9525.008

    The crown faults at the head of the Eastern Province slump underlie 
the GNO area and have controlled the trends of ancient Mississippi 
River distributaries. For example, the position of the Metairie-
Gentilly ridge, which is made up of a pair of natural levee ridges that 
mark a 3,000 year old course of a now extinct Mississippi River 
distributary is controlled by the crown faults. In addition, the trends 
of shallow buried barrier island sands, which underlie parts of the 
Lakeview, Little Woods and the New Orleans East areas are also 
controlled by the crown faults. The breaches that occurred on levees 
along the 17th Street and London Avenue Canals are at places where the 
levees were built across the crown faults and may be the cause of the 
floodwall breaches. Secondary processes, yhat may result in localized 
subsidence include sediment compaction, soil de-watering and fluid 
withdrawal (ground water, hydrocarbons and produced water).
    Figure 9 shows the depth to the weathered surface that marks the 
top of the Pleistocene formation. The weathered surface is important 
from the geotechnical standpoint as this is a load-bearing horizon and 
above it lies poorly consolidated Holocene deposits. Depth to the top 
of the Pleistocene is less than 100 feet throughout the GNO region. 
Figure 9 also shows geofractures, subsurface faults, and salt domes. 
The top of the Pleistocene is displaced by many of these deep-seated 
structures. In most geotechnical studies, the top of the Pleistocene is 
considered to be a stable foundation bearing horizon.
    The Baton Rouge Fault Zone is a major regional feature that marks 
the northern boundary of the Gulf Coast Salt Dome Basin. This is a 
hinge line fault. That is, the land surface north of the fault is 
rising, and south of the fault the land surface is sinking. This fault 
zone is marked by a pronounced topographic escarpment that separates 
Lakes Pontchartrain and Maurepas and their surrounding wetlands from 
the pine-covered terrace lands of the ``North Shore.'' Segments of this 
fault zone are known to be active. Highway pavement cracks must be 
frequently repaired and railroad tracks must be frequently adjusted 
where they cross this fault zone.
    The Lake Sand-Thibodaux Fault, one of a series of Oligocene growth 
faults that underlie Lake Pontchartrain and the GNO area, is the crown 
fault of the Eastern Province. Displacement of the top of the 
Pleistocene Formation has been identified from correlations of boring 
logs and on sub-bottom acoustical profiles across several of the 
Oligocene faults under Lake Pontchartrain. Highway and railroad bridges 
across the lake are also cracked, offset and displaced where they cross 
these faults. These offsets have been documented in the geological 
literature (Lopez et el. 1997). It should be noted that salt domes, 
which are associated with many of the faults of the region, are absent 
or rare in the GNO area geofractures constitute another important 
category of structural features that have surface expression and may 
affect foundation conditions. An extension of the northwest-
southeastern trending Terre aux Boeufs Geofracture cuts through the GNO 
area (see Figure 9). This feature segments the blocks between some of 
the regional growth faults.

[GRAPHIC] [TIFF OMITTED] T9525.009

    Many of the east-west trending growth faults terminate at their 
intersection with this geofracture. The Lake Borgne Geofracture (Fault) 
Zone strikes northeast-southwest and has played an important role in 
determining geometry of river courses in the area as well as the 
formation of lakes and bays. Fault segments in this zone may have 
contributed to the floodwall breach along the Inner Harbor Navigation 
Canal (IHNC, also known as the Industrial Canal).
    Although some regional faults have been active for millions of 
years, contrary to common belief, not all movement has occurred during 
the dim geological past. Some faults have moved during, prehistoric 
Native American times (the last 12,000 years), historic times (the last 
300 years) and modern decades (the last 50 years). Surface effects of 
fault movement have been reported from numerous locales across south 
Louisiana (Lopez et al. 1997, Gagliano 1999, Keucher et al. 2001, 
Morton et al. 2002, Gagliano et al. 2003a Gagliano 2005, and others). 
Figure 10 shows dates of surface movement of faults in southeastern 
Louisiana, as determined from comparative studies of aerial images and 
maps. For example, comparison of aerial photographs taken in 1976 and 
1982 show surface displacement along a fault segment at Bayou Long 
(Gagliano et al. 2003a). Lake Lery is a fault depression that is 
depicted on the earliest historic maps of the region and is shown in 
Figure 10 as pre-1803 surface fault movement. Modern fault events occur 
along fault segments from 1 to 5 miles in length with vertical 
displacement of a few inches to 5 feet or more. Fault events result in 
the formation of lakes and bays, submergence and breakup of marsh, 
submergence of natural levee ridges, and submergence and breakup of 
barrier islands.

[GRAPHIC] [TIFF OMITTED] T9525.010

                     FAULT MOVEMENT AND EARTHQUAKES

    Earthquake occurrences indicate locations of active faults. Two 
categories of earthquakes have been reported in south Louisiana. The 
first is caused by random slippage on subsurface faults. Figure 11 
shows locations where this type of earthquake has occurred. Those 
within and near the GNO region are aligned along the Lake Sand-
Thibodaux Fault Zone. On November 6, 1958 an Intensity IV earthquake 
occurred within a 5- to 7-mile radius of downtown New Orleans. The area 
where effects of the earthuake were felt extended from Lake 
Pontchartrain on the north to Gretna on the south and from Harahan on 
the west to Arabi on the east. The earthquake was recorded on the 
Loyola University seismograph located in New Orleans as a 15 second 
vibration. The earthquake caused windows to shake and doors to rattle 
(Brasseaux and Lock 1992:319, Stevenson and McCulloh 2001:6)

[GRAPHIC] [TIFF OMITTED] T9525.011

    The second type of earthquake occurs when shock waves from distant 
earthquakes trigger slippage along local faults, which in turn may 
cause a secondary earthquake (Gagliano 2005) (Figure 12). An event 
particularly relevant to the Hurricane Katrina IHNC floodwall breach 
occurred on March 27, 1964 at 10:00 PM when ``. . .swells were reported 
in the Industrial Canal [IHNC] NEAR new Orleans. . .'' UPI, New 
Orleans, 1964. `` `It caused our docks and vessels moored in the yards 
to go crazy-like, bobbing up and down, moving sideways, back and 
forth.' Said Leon Poche 47, superintendent of Avondale Shipyards.'' AP, 
New Orleans 1964a. `` `The water rose about 6 feet above normal all at 
once,' said O.C. Boxton, night watchman at New Orleans Industrial 
Canal. `It was one of the wildest scenes that I've seen in a long 
time,' he said. The water was rolling, barges began to move in and out 
and the lines (holding the barges) began to turn and break.'' AP, New 
Orleans, 1964b. ``One marine company at New Orleans said the waves in 
the Intracoastal Canal were `at least 4 or 5 feet.' Several boats were 
torn loose, including a line holding an 83-foot Coast Guard vessel.'' 
AP, New Orleans, 1964.

[GRAPHIC] [TIFF OMITTED] T9525.012

    This Industrial Canal event was apparently triggered by arrival of 
shallow shock waves from the Alaskan Earthquake of Prince William Sound 
of the same date and 12 minutes earlier. It took the shallow seismic 
waves approximately 12 minutes to travel 3200 miles from the epicenter 
of the Alaskan earthquake to south Louisiana. The intensive water 
disturbances indicate the presence of an active fault. During Hurricane 
Katrina in 2005, the two breaches that occurred in the floodwall along 
the east bank of the Industrial Canal were in the same location as the 
1965 earthquake induced water disturbances. It was these breaches that 
caused extensive flooding in the Lower 9th Ward of New Orleans and 
adjacent areas of Arabi and Chalmette in St. Bernard Parish.

                           MEASURING MOVEMENT

    Rates, magnitude and frequency of movement have been determined for 
some faults. Several data sets have been used to measure vertical 
movement of land surfaces in south Louisiana, including tide gauge 
records, differential elevations of re-surveyed topographic bench 
marks, movement of historic and archaeological features and structures, 
land loss, habitat change and radiometric dating of buried deposits. 
These measurements have been related to known faults. Tide gauge 
records indicate that the Little Woods area along the Lake 
Pontchartrain shore in New Orleans, in the general vicinity of the 
London Avenue Canal Breach, has one of the highest rates of subsidence 
in the state. Records from a tide gauge at Little Woods show a total 
relative sea level rise (subsidence plus eustatic rise) of 1.84 feet 
for the period between 1940 and 1976, for a rate of 0.51 feet per year. 
Further, the record is distinctly ``stepped,'' suggesting episodic 
fault movement.
    Resurveyed bench marks at the NASA-Michoud facility, located near 
the IHNC breach, likewise show exceptionally high subsidence rates. The 
NASA-Michoud measurements also indicate accelerated movement during 
recent decades.
    Recently, the National Geodetic Survey (NGS) in conjunction with 
the Spatial Data Center at Louisiana State University (LSU) has re-
evaluated vertical change data from benchmarks. Dr. Roy Dokka, director 
of the LSU team, reports that ``. . .loss of elevation ranges from 0.3 
to 0.13 feet per year across south Louisiana. . .'' (NOAA Magazine 
2003). The NGS-LSU findings are generally consistent with those 
presented herein.

                         TYPES OF FAULT IMPACTS

    There are three categories of fault impacts. The first is 
subsidence and tilting of the surface near and between faults. This 
effect is most pronounced on the downthrown block in the immediate 
vicinity of the fault. On a larger scale, entire fault-bound blocks 
tilt and subside. Large areas become inundated creating lakes and bays 
within short time intervals. As stated previously, fault induced land 
submergence is the primary cause of land loss in southeastern Louisiana 
(Figure 6).
    The second category of impact relates to foundation instability 
along and within the immediate vicinity of the fault plane or zone. 
Movement may be instantaneous or slow and imperceptible. Even when slow 
and imperceptible, fluids and gas may migrate toward the surface along 
the fault plane (Keucher et al. 2001, Gagliano et al. 2003a). Some 
fault planes are pencil line thin with surfaces that exhibit 
slickensides (smoothed and striated surfaces that result from friction 
along fault planes) and/or clay and mineral films. Other faults exhibit 
multiple, parallel planes. Another type is characterized by brecciated 
zones, where clay particles are broken into pellets as a result of 
movement along the fault zone. Sand and silt dikes that may be several 
feet wide may also mark fault planes. In all cases, the fault plane or 
fault plane zone is a deep crack in the earth's surface. Foundation 
conditions across the crack are poor and if a levee or floodwall is 
built across the fault, the fault plane may become a conduit for piping 
or seepage under the levee base or under the bottom of interlocking 
steel sheet piles. Since the faults are deep-seated, the depth of the 
cracks may be greater than the bottom of the longest sheet piles.
    The third category of instability relates to minor earthquakes and 
related phenomena such as liquefaction. As previously discussed, 
earthquakes may result from sudden release of pent-up stress or may be 
triggered by shock waves from remote earthquakes. When accompanied by 
earthquakes, fault movement effects may include liquefaction, breakup 
of floating marsh mats and other damage to landforms and human-made 
structures (Figure 5). Liquefaction occurs when earthquake vibrations 
cause buried sand deposits to become more compact and in the process 
expel pore water. The expelled water may form ``sand fountains'' in 
which sand-charged water shoots up above the surface through fault 
crevices.
    Hurricane waves are known to cause slumping along the unstable 
delta front area offshore from the active outlets of the Mississippi 
River. It is conceivable, though it has not been proven, that the 
weight of the elevated water column in the canals combined with the 
pounding of wind-generated waves during Hurricane Katrina could have 
caused release of pent-up stress on active faults.

   RELATIONSHIP BETWEEN FAULT AND FLOODWALL BREACHES IN THE GNO AREA

    Available data suggests that the breaches along the 17th Street 
Canal, the London Avenue Canal (2 breaches) and the IHNC (2 breaches) 
were at least partially caused by underlying faults. The 17th Street 
Canal and London Avenue breaches appear to be on the same fault zone. 
This fault controlled the location of a series of southwest-northeast 
trending barrier islands that formed through what is presently the 
Metairie-Lakeview area about 5,000 years ago. It was sand from one of 
these barrier islands that was expelled to the surface at the breach on 
the London Avenue Canal during Hurricane Katrina.
    Surface inspection of the larger IHNC breach site revealed evidence 
of a possible fault (Figure 13). The site was inspected after a long 
drought. Aligned desiccation cracks and water seeps called attention to 
what appears to be a silt dike. As shown in the photographs in Figure 
13, the feature runs under the emergency levee that was constructed to 
close the breach and apparently under the base of the failed floodwall.
    Could this silt dike have formed as a result of liquefaction during 
the 1964 earthquake event? While the evidence is not conclusive, it 
demands further investigation.

[GRAPHIC] [TIFF OMITTED] T9525.013

    Figure 14 is a schematic representation of a canal with floodwalls 
constructed across a fault. As shown, the stability of the levees and 
floodwalls could be affected by the poor foundation conditions within 
the fault plane zone, by piping of water under the levees and sheet 
pilings along the fault plane or within the fault plane zone, and by 
sagging of the levee crown.

[GRAPHIC] [TIFF OMITTED] T9525.014

    Breaches along the MRGO hurricane protection levee southwest of 
Lake Borgne (Figure 2) at the Bayou Bienvenu and Bayou Dupre floodgates 
are most likely the result of levee overtopping and return surge flow.

       FAULT HAZARDS ALONG EXISTING AND PROPOSED LEVEE ALIGNMENTS

    As shown in Figure 1, proposed levee alignments in southeastern 
Louisiana cross major known faults at a number of locations. Breaches 
in the flood levees along the Mississippi River in Plaquemines Parish 
below New Orleans may have been caused by underlying faults. The levees 
are constructed across several major fault zones including the large 
and active Lake Hatch and Golden Meadow fault zones. At some of these 
fault crossings, steel sheet pilings had been installed to reinforce 
the earth levees prior to Hurricane Katrina because of chronic 
foundation problems.
    Breaches in levees have also occurred during two hurricanes where 
levees were constructed across known faults in the vicinity of 
Montegut, south of Houma, Louisiana.
    As shown in the photograph in Figure 15, a flood levee was 
constructed across the Montegut Fault. Surface expression of this fault 
is distinguished by a marsh-water break.
    The surface expression of this fault appeared between 1972 and 
1976. Field studies at this location showed 3.3 feet of change in 
elevation from the marsh surface to the pond bottom and a comparable 
amount of displacement of near-surface beds as determined from borings.

[GRAPHIC] [TIFF OMITTED] T9525.015


                        SUMMARY AND CONCLUSIONS

    Evidence from a number of different data sets indicates that faults 
in the GNO area and throughout southeastern Louisiana have been active 
during recent decades. Levees and floodwalls have been built across 
these active faults. Strikes of known subsurface faults are parallel to 
lines projected between levee breaches along the London Avenue and 17th 
Street Canals. Converging lines of evidence suggest that floodwall 
breaches along the IHNC are fault-related. There are numerous other 
problem areas where existing and proposed levee alignments cross known, 
active faults.
    Hurricane protection and wetland restoration have been regarded as 
a battle against the erosive forces of the sea, a horizontal 
engagement. Findings of the tectonic studies indicate that the dominant 
processes are geological and the changes are vertical, thus requiring a 
fundamental shift in battle strategy.
    While faults represent serious geological hazards in southeastern 
Louisiana, they do not present an insurmountable obstacle in our quest 
for adequate storm and flood protection. However, fault hazards must be 
taken into consideration in planning and design of protection levees 
and all other infrastructure (including floodgates), as well as in the 
coastal restoration program.
    The issue that fault driven subsidence is the major cause of land 
loss and coastal deterioration in south Louisiana has been on the table 
for more than 5 years and has largely been circumvented by the coastal 
restoration community and most public officials. This is partially due 
to the fact that fault processes and effects have only recently been 
understood. This is new science and it takes time to be absorbed. 
However the main reason is the difficulty of informing citizens and 
businesses that their property is on the wrong side of a fault, and 
therefore, may be impossible to protect and maintain. Fault movement 
and related land subsidence are natural processes and there is no 
institutional or corporate villain. We are in denial. (Figure 16).

[GRAPHIC] [TIFF OMITTED] T9525.016


    If our efforts to protect the Louisiana coast are to succeed, we 
must test each hypothesis and not arbitrarily reject those that predict 
outcomes that are difficult to resolve or hard for the public to 
accept. We can't cure the disease if we don't know the cause. This 
testimony deals with a controversial and sensitive topic and is 
advanced in the hope of stimulating solutions and not to stifle a 
program of protection and restoration of coastal Louisiana.

                               REFERENCES

    AP, New Orleans. 1964a. State's Twitch of Earth Said `Weird.' Lake 
Charles American Press, March 29, 1964. Lake Charles, LA.
    AP, New Orleans. 1964b. Tremors Churn 6-Foot Waves in Louisiana. 
March 27, 1964. Beaumont Enterprise, March 28, 1964. Beaumont, TX.
    AP, Houston 1964. Resident Warned. Beaumont Enterprise, March 28, 
1964. Beaumont, TX.
    Brasseaux, C. A. and B. E. Lock. 1992. The Opelousas Earthquakes of 
1823 and 1870. Louisiana History, Louisiana Historical Association. V. 
134, No. 3, pp. 317324.
    Britsch, L. D. 2001. Geologist, U.S. Corps of Engineers New Orleans 
District. Personal communication with Sherwood Gagliano in 2001.
    Gagliano, S. M. 1999. Faulting, Subsidence and Land Loss in Coastal 
Louisiana. Pp. 21-72 In Louisiana Coastal Wetlands Conservation and 
Restoration Task Force and Wetlands Conservation and Restoration 
Authority, Coast 2050: Toward a Sustainable Coastal Louisiana, the 
Appendices, Appendix B-Technical Methods. Louisiana Department of 
Natural Resources, Baton Rouge, LA.
    Gagliano, S. M. 2005. Effects of Earthquakes, Fault Movements, and 
Subsidence on the South Louisiana Landscape. In the Louisiana Civil 
Engineer Journal of the Louisiana Section of The American Society of 
Civil Engineers. V. 13, No. 2, pp. 5-7, 19-22.
    Gagliano, S. M., E. B. Kemp, K. M. Wicker, and K. S. Wiltenmuth. 
2003a. Active Geological Faults and Land Change in Southeastern 
Louisiana. Prepared for U.S. Army Corps of Engineers, New Orleans 
District, Contract No. DACW 29-00-C-0034.
    Gagliano, S. M., E. B. Kemp, K. M. Wicker, and K. S. Wiltenmuth. 
2003b. NeoTectonic Framework of Southeastern Louisiana and Applications 
to Coastal Restoration. Transactions of the Gulf Coast Association of 
Geological Societies; v 53: 262-276.
    Kuecher, G. J., H. H. Roberts, M. D. Thompson, and I. Matthews. 
2001. Evidence of Active Growth Faulting in the Terrebonne Delta Plain, 
South Louisiana: Implications for Wetland Loss and the Vertical 
Migration of Petroleum. Environmental Geosciences; 8:2:77-94.
    Lopez, J. A., S. Penland and J. Williams. 1997. Confirmation of 
Active Geologic Faults in Lake Pontchartrain in Southeast Louisiana. 
Transactions of the Gulf Coast Association of Geological Societies, 
47th Annual Convention; 47:299-303.
    Morton, R. A., N. A. Purcell, and R. Peterson. 2001. Field Evidence 
of Subsidence and Faulting Induced by Hydrocarbon Production in 
Southeast Texas. Transactions of the Gulf Coast Association of 
Geological Societies 51: 239248.
    NOAA Magazine. 2003. NOAA-LSU Study: Portions of Gulf Coast Sinking 
at Significant Rate. April 16, 2003. http://www.noaanews.noaa.gov/
stories/s1128.htm.
    Peel, F.J., Travis, C. J. H. and Hossack, J.R. 1995. Genetic 
Structural Provinces and Salt Tectonics of the Cenozoic Offshore U.S. 
Gulf of Mexico: A Preliminary Analysis. Pp. 153-175 In Jackson, M.P. A, 
D.G. Roberts, and S. Snelson, (Eds.) Salt Tectonics, A Global 
Perspective, American Association of Petroleum Geologists Memoir 65.
    UPI, New Orleans. 1964. South Louisiana Shakes Like Bowl of Jelly. 
Opelousas Daily World, March 29, 1964. Opelousas, LA.
                                 ______
                                 
    Responses by Sherwood M. Gagliano to Additional Questions from 
                            Senator Jeffords

    Question 1. I have read some of your statements in the press 
regarding the need to consider relocating people out of some low-lying 
areas of the city. A theme we have heard throughout our hearings on 
Katrina is that local redevelopment plans must drive federal 
investment.
    Response. It is becoming clear that a significant part of the total 
population of the Greater New Orleans area seriously affected by 
Hurricanes Katrina and Rita have already been displaced and the total 
population will not be as large as it was before the storms. Further, 
it is likely that the population density will be most significantly 
reduced in the areas of lowest elevation that were hardest hit. Some of 
the lowest, hardest hit areas should not be rebuilt. The property 
owners there should be compensated for their losses and provided with 
re-location assistance. The plan proposed by Representative Richard 
Baker addresses the compensation part of the problem.
    From the flood protection standpoint, these very low places should 
become water retention areas in a revised pumping and drainage plan. 
They would absorb part of the runoff during intense rainfall events and 
thus provide lead-time for the pumps to remove water from the urban 
drainage districts.
    An alternative approach would be to fill and build up these low 
areas with silt and sand pumped in from the Mississippi River with 
hydrologic dredges. After allowing for settlement, the raised areas 
could be re-developed. This would provide a long-term solution to the 
subsidence problem.

    Question 2. The Mayor and the Governor both have processes underway 
can you give me your opinion on how those processes are going and what 
we need to know about their progress so far?
    Response. Too many commissitons and too many outside experts are 
only adding confusion to the process of planning and re-building.
                                 ______
                                 
    Responses by Sherwood M. Gagliano to Additional Questions from 
                             Senator Vitter

    Question 1. Most people do not associate faults with Louisiana or, 
at least geological faults. Otherwise, we are well known as being 
perfect. According to the information you provided to the committee, 
faults crisscross the southern part of the state. Are you suggesting 
that we avoid faults in the construction of our protection systems? Is 
this possible?
    Response. Faults are fixed, permanent features of the setting of 
South Louisiana and we know where most of them are. They present two 
types of hazards: (1) failure of structures built above or across the 
fault plane or zone, and (2) subsidence and tilting of the large land 
blocks between major faults. We can mitigate the first type of hazard 
by avoidance to the greatest extent possible, and by good engineering 
design where avoidance is not feasible. Subsidence and tilting of large 
blocks presents a greater challenge. Unfortunately, there are large 
blocks of land in the extreme southern parts of Louisiana that lie on 
the down-dropped sides of regional faults, and we know where these 
areas are, that will become increasingly submerged. If we refuse to 
recognize this process, we will waste huge numbers of tax dollars and 
huge amount of human effort in a battle against nature that cannot be 
won.
    We have discovered the cause of the ``disease'' that is changing 
coastal Louisiana as we have known it during most of the historic 
period. We must now apply this knowledge in re-shaping the coast so 
that we can provide a sustainable infrastructure for essential coastal 
communities and services and, at the same time, develop a program for 
managing natural delta lobes and estuaries wrapped around the protected 
areas of human activity. Such a plan for true multiple use and 
sustainability is achievable, but it does not presently exist. 
Louisiana will always have a coastal zone, but we must accept the fact 
that it dynamic and subject to change.

    Question 2. What design features should be incorporated into our 
levees and floodwalls to address the movement of the faults?
    Response. First, we must identify those places where existing and 
proposed levee alignments are along, or across faults. A risk analysis, 
based on sound geological and geotechnical data should be conduced on 
levee alignments and specific locations where fault hazards are found. 
In some instances, existing and proposed levee alignments and floodgate 
locations should be changed. Clearly, it is easier to do this on 
proposed projects than existing ones, yet there is resistance to making 
these changes when some planning and engineering work has already been 
done. Floodgates and other water control structures should never be 
built above fault or on the immediate down-dropped side of faults. 
There are a number of locations in south Louisiana where existing and 
proposed water control structures are located above fault plane zones 
or on the down-dropped block of faults in close proximity to fault 
plane zones.
    Second, where levees or floodwalls cross faults, sheet piling is an 
effective tool provided that it is significantly deeper than the water-
body on the outside of the structure. If foundation conditions are 
particularly poor along the fault plane zone, a second row of sheet 
piles should be considered.
    Expansion joints should be provided where rigid floodwalls cross 
fault plane zones.
    Levee and floodwall locations across faults should be continuously 
monitored. While movement on most faults in south Louisiana is slow and 
imperceptible, stresses build up and may be released spontaneously or 
as a result of shock waves. When such releases occur, there may be a 
rapid vertical movement of several feet and possible minor tremors.
    Conventional geotechnical engineering borings and laboratory 
testing do not identify faults. Conventional geotechnical data must be 
analyzed and interpreted by a trained geologist. Our understanding of 
liquefaction processes is poor. This process needs further research.

    Question 3. Is it possible to retrofit our existing levees and 
floodwalls to address this issue?
    Response. In most cases existing levees and floodwalls can be 
retrofitted to prevent failures related to slow and imperceptible fault 
movement. There may be one or more floodgates that need to be re-
located.

    Question 4. What role did geologic faults play in the floodwall 
failures in New Orleans?
    Response. SMG Response A lengthy answer to this is provided in my 
written testimony. There is evidence that the floodwalls that failed on 
the 17th Street Canal, the London Avenue Canal and the Inner Harbor 
Navigation Canal were built across active, deep-seated geological 
faults. Poor foundation conditions within the fault plane zone and 
piping of water along the fault plane zone under the levees and sheet 
pilings could have caused the failure. Also, slow and imperceptible 
movement may have caused the crests to sag, and separations to occur in 
the sheet pilings

    Question 5. Could you explain the relationship between faults and 
subsidence in Louisiana?
    Response. The primary cause of subsidence in south Louisiana are 
geological processes of basin down-warping, salt movement, and 
continental margin gravity slumping, which occur on a massive regional 
scale and have been continuous for several hundred million years. 
Additional processes contributing to local subsidence include sediment 
compaction and fluid withdrawal. Faults are the breaks in the 
underlying rocks and near surface sediments along which adjustments to 
subsidence occur. For all practical purposes they are permanent 
features of our land.
    The subsidence that causes land submergence and loss is mainly the 
result of downward movement and tilting of blocks of land lying between 
faults (fault bound blocks). Usually, the subsidence is most pronounced 
on the down-dropped block in a zone along the fault plane.
                               __________
  Statement of Larry Roth, P.E., Deputy Executive Director, American 
                       Society of Civil Engineers

    Good morning. My name is Larry Roth. I am the deputy executive 
director of the American Society of Civil Engineers (ASCE).\1\ I am 
pleased to appear before you today to testify on behalf of ASCE to 
discuss the preliminary findings on the failure of the Gulf Coast 
levees during Hurricane Katrina in August 2005 and the degree to which 
levee repairs are incorporating those findings. I am accompanied today 
by John Headland, P.E., M.ASCE, Design Manager, Moffatt & Nichol 
Engineers, and a member of the ASCE Levee Assessment Team in New 
Orleans.
---------------------------------------------------------------------------
    \1\ ASCE, founded in 1852, is the country's oldest national civil 
engineering organization. It represents more than 139,000 civil 
engineers in private practice, government, industry, and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE carried out Building Performance Assessments of the 
World Trade Center, the Pentagon and the Murrah Federal Building, and 
technical assessments following earthquakes, hurricanes, and other 
natural disasters. The New Orleans levee technical group includes 
representatives appointed by the ASCE Geo-Institute and ASCE Coasts, 
Oceans, Ports, and Rivers Institute. ASCE is a 501(c)(3) non-profit 
educational and professional society.
---------------------------------------------------------------------------
    I am a licensed Professional Engineer and a licensed Geotechnical 
Engineer in the state of California. Before joining the ASCE staff, I 
had 30 years' experience in water resources issues such as dams, 
levees, and canals.

               I. ASCE NEW ORLEANS LEVEE ASSESSMENT TEAM

    After the storm, ASCE assembled several teams of experts to examine 
the failures of the New Orleans levee as well as to examine the 
shoreline damage along the Alabama and Mississippi coastline. Our New 
Orleans team of coastal engineers was joined by another ASCE team of 
geotechnical engineers and one from the University of California, 
Berkeley. These teams were joined there by a team from the U.S. Army 
Corps of Engineers' Engineer Research and Development Center, which 
provided considerable insight and logistical support.
    The purpose of this joint site visit was to gather information 
about the failure of the levees, including data that would be lost 
during the process of levee repair and the passage of time, such as 
evidence of high water lines and wave overtopping, and evidence of any 
foundation movement or failure.
    One of the goals of the assessment team was to gather data in an 
attempt to determine why certain sections of the levee system failed 
and why others did not. These determinations will help to answer the 
question of whether the failures were caused by localized conditions or 
whether surviving sections of the system may be only marginally better 
prepared to withstand the type of loads that were generated by this 
event.
    The team assembled consisted of professional engineers from ASCE 
with a range of geotechnical engineering expertise in the study, 
safety, and inspection of dams and levees. While in New Orleans and the 
surrounding areas between September 29 and October 15, ASCE examined 
levee failures as well as distressed and intact portions of the levee 
system.
    Defense Secretary Donald H. Rumsfeld announced in October the 
creation of an independent panel of national experts under the 
direction of the National Academies of Science to evaluate the 
performance of hurricane protection systems in New Orleans and the 
surrounding areas. Under the National Academies, the National Research 
Council will assemble a multi-disciplinary, independent panel of 
acknowledged national and international experts from the public and 
private sectors and academia. This panel will perform a high-level 
review and issue a final set of findings based primarily on the data 
gathered by another organization, the Interagency Performance 
Evaluation Task Force (IPET).
    The IPET will include a broad interagency participation, private 
sector and academic expertise. The IPET is to obtain the facts by 
collecting, analyzing, testing, and modeling data and information on 
the performance of the New Orleans hurricane protection system during 
Hurricane Katrina.
    Rumsfeld also authorized ASCE to convene an external review panel 
to conduct continuing expert peer review of the work performed by the 
IPET. The ASCE external review panel, of which I am the chief of staff, 
will also report findings directly to the National Research Council.
    On November 7-8, the external review panel met in New Orleans with 
the IPET and was able to conduct its first on-site observations of the 
levee system from the air and on the ground.

                            II. OBSERVATIONS

    On November 2, 2005, the ASCE and University of California/Berkeley 
teams released a joint report, ``Preliminary Report on the Performance 
of the New Orleans Levee Systems in Hurricane Katrina on August 29, 
2005.'' As the title clearly indicates, this is a preliminary report. 
Any final conclusions on the failure of the New Orleans levees must 
await the study being conducted by the Corps' IPET scheduled for 
release on July 1, 2006.
    The complete preliminary report by the ASCE levee team and the NSF 
can be found at http://www.asce.org/static/hurricane/orleans--
report.cfm.
    The following observations are based largely on the joint 
preliminary report, as well as my own recent observations. What ASCE 
found in the field was very different than what we had expected, given 
the media reports. Rather than a few breaches through the floodwalls in 
the city caused largely by overtopping, we found literally dozens of 
breaches throughout the many miles of levee system. A number of 
different failure mechanisms were observed, including scour erosion 
caused by overtopping, seepage, soil failure, and piping.\2\
---------------------------------------------------------------------------
    \2\ Piping, sometimes referred to as internal erosion, is a channel 
caused by the flow of water through a dam or embankment. It may 
increase rapidly and cause catastrophic failure of the embankment.
---------------------------------------------------------------------------
    As geotechnical engineers, team members were particularly 
interested to find that many of the levee problems involved significant 
soil-related issues.
A. 17th Street Canal
    At the 17th Street Canal breach, we observed intact soil blocks 
that had experienced large translation and heave. This movement would 
be consistent with a failure either of the soil embankment or the 
foundation soils beneath. There was no evidence of overtopping at this 
site. While we cannot yet determine conclusively the cause of the 
breach itself, this type of soil failure may well have been a 
significant contributing factor. Further investigation, together with 
analyses and review of the design and construction documents, should be 
of tremendous assistance in ultimately making these kinds of 
determinations.
B. London Avenue Canal--North
    At the north breach on the London Avenue Canal, we observed a large 
displaced soil mass, which had been heaved nearly vertically over six 
feet, apparently indicating the toe of a rotational-type soil failure. 
Again, there was no evidence of overtopping at this site. Field 
inspection also showed a large amount of sandy soil deposited in the 
neighborhood landward of the breach, which is believed to be material 
from the foundation beneath the embankment together with material 
scoured from the canal bottom. This is consistent with the soil 
profiles provided to us which showed sand in the subsurface near this 
location. Under high water pressure, the flow through this type of 
material can be significant, which is known to cause internal stability 
problems.
C. London Avenue Canal--North, Across from Breach
    Of particular interest was the levee section almost directly across 
from the north breach on the London Avenue Canal, where we observed a 
floodwall and underlying embankment that was in severe distress.
    This site provided an excellent case study demonstrating multiple, 
concurrent failure mechanisms. It was observed that this section of 
floodwall was distressed to the point that it appeared that it might 
have been approaching failure when the water loading was relieved as 
the other breaches occurred. The wall was badly out of alignment and 
tilting landward; as a result of the tilt, there were gaps between the 
wall and the supporting soil on the canal or waterside. Also observed 
were evidence of soil movement, seepage and piping, as indicated by a 
series of sinkholes near the crest, together with ``boils''\3\ and 
heave at or near the inboard toe\4\ of the embankment.
---------------------------------------------------------------------------
    \3\ A boil (or ``blow'') is a flow of soil, usually in the form of 
fine sand or silt, into the bottom of an excavation. The flow is forced 
in by water or water and air under pressure. It may increase rapidly 
and cause catastrophic failure.
    \4\ In the case of a dam or levee, the toe is the base of the slope 
on the side away from the water.
---------------------------------------------------------------------------
D. London Avenue Canal--South
    To the south was another breach on the London Avenue Canal. That 
breach had apparently cut so deeply that huge volumes of sandy material 
had been scoured from the canal bottom and then deposited up to five 
feet deep extending hundreds of feet into the neighborhood. Very little 
evidence remained to be gathered at this site and the causes and 
mechanisms of the breach may never be known. It was, however, again 
demonstrated by high water marks that the floodwall most likely was not 
overtopped at this location.
E. Outside New Orleans
    It is important that the impact of the levee breaches outside of 
the city of New Orleans not be overlooked. Many sections of the system 
were severely tested by overtopping from a direct onslaught of the 
storm surge. Many portions of these levees were breached or severely 
distressed, causing severe flooding and, in many cases, complete 
destruction of thousands of neighborhood homes. Some of the levee 
sections were nearly obliterated and were observed to have been 
constructed of highly erodable materials.

            III. HURRICANE KATRINA: WHY DID THE LEVEES FAIL?

A. The Levee Failures
    Hurricane Katrina was a catastrophic storm that made landfall in 
the Gulf Coast near the Louisiana and Mississippi border with wind 
speeds near 150 mph. But the damage in New Orleans due to the high 
winds and rain paled in comparison to the devastation resulting from 
the flooding.
    The hurricane produced a storm surge that varied considerably 
depending on location, including the combined effects of orientation, 
geography, and topography with respect to the forces of the passing 
storm. Hydraulic modeling of the surge, verified for the most part by 
our own field observations of high water marks, show that essentially 
two significantly different levels of storm surge impacted the levee 
system.
    As the storm passed to the east of New Orleans, the 
counterclockwise ``swirl'' of the storm generated a large surge from 
the Gulf of Mexico and Lake Borgne that impacted the eastern facing 
coastal areas of the New Orleans area and lower Mississippi delta. The 
surge was then concentrated into the channels of the Mississippi River 
Gulf Outlet (MRGO) that fed into the Inner Harbor Navigational Channel 
(IHNC). The funneling of the surge in these channels resulted in 
widespread overtopping of the levees.
    In contrast, a somewhat separate surge that originated in Lake 
Pontchartrain was generated in part by the flow in from the Gulf of 
Mexico but also from the north winds across the lake. As shown by the 
models and field evidence, this surge, which impacted the lakefront and 
three canals within the central part of the city, was notably less 
severe. Field data indicated that the surge levels from the lake did 
not reach the elevation of the lakefront levees and was well below the 
top height of the floodwalls bordering the interior canals where three 
notable breaches occurred.
    Where the storm surge was most severe, causing massive overtopping, 
the levees experienced a range of damage from complete obliteration to 
intact with no signs of distress. Much of the difference in the degree 
of damage can be attributed to the types of levees and the materials 
used in their construction. The majority of the most heavily damaged or 
destroyed earthen levees that we inspected were constructed of sand or 
``shell fill'' which was easily eroded.
    At some of these locations the earthen embankments were simply 
gone. Those with embedded sheetpiles faired only marginally better and 
were often breached as well. Further inland, in the western portion of 
the MRGO and along the Inner Harbor Navigation Canal, the degree of 
overtopping was less severe but again resulted in a number of breaches. 
Many of these breaches occurred through I-wall structures that were 
severely scoured on the landside as a result of overtopping. These 
scour trenches undermined the support of the levee floodwalls and 
reduced the ability of the walls to withstand the forces of the water 
on their outer surfaces. Localized concentrations of overtopping water 
flow or possible localized weaker soils may have been responsible for 
why certain portions of the system were breached while others remained 
intact.
    Another commonly observed problem was the frequent presence of 
``transitions'' between different sections of the levees. There were a 
number of different types of these transitions that appeared to have 
caused problems, including inconsistent crest heights, change in levee 
type (I-wall vs. T-wall), change in material (concrete, steel 
sheetpile, earth), and transitions where certain rights-of-way resulted 
in penetrations of the flood control system.
    Where levees were overtopped, the weaker material at the point of 
transition (i.e., earth to concrete, sheetpile to concrete, earth to 
sheetpile) would be more susceptible to failure. Many of the problems 
we observed appear to have been related to transition details and were 
often exacerbated by inconsistent crest heights, particularly where the 
weaker material had the lower height. Many of these transitions were 
found at sections where infrastructure elements designed and maintained 
by multiple authorities, and their multiple protection elements, came 
together, and the weakest (or lowest) segment or element controlled the 
overall performance.
    Finally, three major breaches, and at least one significantly 
distressed levee-floodwall section, were investigated at sites along 
the 17th Street and London Avenue canals which, as explained before, 
were clearly not overtopped.
    Obvious soil failures within the embankment or foundation soils at 
or below the bases of the earthen levees had occurred at two of the 
breaches. At the distressed section, seepage and piping were evident. 
These types of soil instabilities appear likely to have been 
responsible for failure of these wall systems.
    Evidence of piping erosion at one these sites serves to illustrate 
the severity of the underseepage at high water stages. Another 
possibility that also needs to be investigated, however, is the 
potential presence of a weak soil unit (either within the lower 
embankment, or in the underlying foundation soils) with sufficiently 
low shear strength that it may have failed.
    Additional studies will need to be performed at these breached and 
distressed locations to better determine embankment and foundation soil 
conditions, and appropriate seepage flow and shear strength 
characteristics, so that the mechanisms that led to the observed 
failures at these sites can be conclusively determined.
B. Levee Repairs
    As you know, the Corps of Engineers began making emergency repairs 
to the New Orleans levee system in the immediate aftermath of the 
hurricane. These repairs were necessary to complete the evacuation of 
the city, aid in the removal of the flood water, and restore order.
    The Corps now has begun making longer term repairs to the levee 
system.
    Construction crews are installing temporary cofferdams around the 
breached levees to keep water out while permanent repairs are made. The 
initial, emergency repairs are being removed.
    The Corps then will install new sheet walls, presumably to greater 
depths than the original walls. The sheet walls will be T-walls, not I-
walls; these will provide greater lateral support and better protection 
against seepage.
    Not all repair issues appear to have been dealt with, however.
    <bullet> The Corps will need to inspect the distressed floodwalls 
to determine whether to repair or replace them. It is our understanding 
that no decision has been made on how to manage the distressed and 
damaged flood protection systems at present.
    <bullet> The Corps also will need to inspect apparently undamaged 
floodwalls and levees to determine if they have hidden structural 
damage or weaknesses.
C. Recommendations
    Preparing the levees for the next hurricane season should include a 
review of how the system performed during Hurricane Katrina, so that 
key lessons can be learned to improve the performance of the system. 
Based on our observations, a number of initial comments are warranted 
concerning the rebuilding and rehabilitation of the levee system.
    While levee failures may be expected when overtopping occurs, the 
performance of many of the levees and floodwalls may be significantly 
improved, and the likelihood of future failures prevented, with 
relatively inexpensive modifications of the levee and floodwall system.
    The following specific points need to be dealt with immediately in 
New Orleans:
    <bullet> The levees need additional overtopping protection at the 
inboard sides of the floodwalls to minimize erosion.
    <bullet> Crest heights of the levees need to be planned in a 
systematic and deliberate way, so that if and when overtopping does 
occur, it occurs preferentially at the desired locations along any 
given section of levee's floodwall frontage where the walls are more 
robust or designed to better resist overtopping.
    <bullet> Transitions should be improved so that they do not 
represent locations of potential weakness in otherwise contiguous 
perimeter flood protection systems.
    <bullet> The storm surge that was funneled through the Mississippi 
River Gulf Outlet was a significant factor in the overtopping of the 
levee system. The Port of New Orleans and the Corps must carefully 
consider whether the danger posed to human life and property by future 
storm surges down the Outlet warrants keeping the channel open, 
notwithstanding the already large investment in it.\5\
---------------------------------------------------------------------------
    \5\ The 76-mile Mississippi River Gulf Outlet accounts for an 
estimated 3 percent of all shipping traffic in southeastern Louisiana. 
It was authorized by Congress in 1956 and built between 1958 and 1965 
at a cost of $92 million. Last year the Corps spent an estimated $17 
million to dredge the MRGO. Repairs to the Outlet in 1998 after 
Hurricane Georges totaled nearly $42 million, according to one 
estimate.
---------------------------------------------------------------------------
    In addition, larger issues should be addressed as well.
    <bullet> ASCE believes that Congress should enact a National Levee 
Inspection and Safety Program modeled on the successful National Dam 
Safety Program. The levee program should include a national inventory 
of levees, particularly those that protect large, heavily populated 
urban areas.
    <bullet> ASCE supports the efforts to reduce coastal land loss in 
the Louisiana coastal area, an area that has been named America's 
Wetland because of its national importance. ASCE urges continued 
support of the existing program for Louisiana coastal wetlands, funded 
by the Coastal Wetlands Planning, Prevention, and Protection Act 
(CWPPPA). ASCE also supports the ongoing effort to implement the 
comprehensive Louisiana Coastal Area (LCA) Program, which will further 
reduce land loss and provide additional preservation.
    <bullet> We must discourage new development in the floodplain 
unless there is a pressing need for it and adequate protection can be 
provided. Population centers on the Gulf Coast must be given a higher 
level of protection than most now have.
    <bullet> We must use all the tools available to reduce damages. 
This means use of not only structural means such as levees, floodwalls, 
and dams, but also non-structural approaches such as flood resistant 
design, voluntary relocation of homes and businesses, revitalization of 
wetlands for storage, and use of natural barriers such as the Louisiana 
wetlands.
    <bullet> Congress needs to consider seriously whether to establish 
a more stringent national flood control policy that emphasizes the need 
to protect human life from a 500-year flood.\6\
---------------------------------------------------------------------------
    \6\ A 500-year flood is so big and rare that it will normally 
happen only once every 500 years. That doesn't mean that a 500-year 
flood can't happen the year after a 500-year flood. Every flood season 
has exactly the same chance--one in 500--of producing a 500-year flood, 
even in area that experienced a 500-year flood the season before. In 
other words, it is the flood that has a 0.2 percent chance of occurring 
every year. A 100-year flood, on the other hand, is used by the 
National Flood Insurance Program as the standard for floodplain 
management and to determine the need for flood insurance. A 100-year 
flood is based on a 1 percent chance of a flood's occurring in a given 
year.
---------------------------------------------------------------------------
    <bullet> ASCE believes Congress should establish an independent 
advisory panel to envision the future of the Gulf Coast and to 
recommend ways to begin the rebuilding of the areas that were 
devastated by Hurricane Katrina on August 29. The panel should consist 
of technical experts from a number of disciplines who would provide an 
objective review of all design and construction issues relating to the 
reconstruction of the areas covered by the President's major disaster 
declarations for Louisiana, Mississippi, and Alabama. The unpaid body 
would cooperate with and advise all Federal, State, and local agencies 
involved in the reconstruction effort in the affected region.
    As we see it, the Advisory Group charter would:
    <bullet> Work as the primary advisor to all state and local 
governments on the rebuilding of the region, with the primary goal of 
helping hundreds of thousands of present and future residents of the 
areas to enjoy a secure and prosperous future.
    <bullet> Consist of experts from engineering, architecture, urban 
planning, and other design and construction-related fields.
    <bullet> Develop recommendations that would include strategies to 
minimize the impact of future storm events and other natural hazards.
    <bullet> Provide expert advice on the design and construction of 
the region's damaged public facilities, including port and harbor 
installations; lifelines; wastewater and drinking-water plants; 
airports and airfields; waste-management and disposal facilities; mass 
transit and public transportation services; roads, bridges, and 
tunnels; public buildings; and other key infrastructure.
    <bullet> Ensure that the reconstruction efforts take into account 
the latest technologies in the prevention and mitigation of future harm 
to public and private buildings from severe windstorms and floods.
    <bullet> Serve as link to Federal Agencies working in support of 
the reconstruction effort.
    <bullet> Function in an advisory capacity only, having no authority 
to mandate particular design, construction, or environmental solutions.

                             IV. CONCLUSION

    Other potentially important lessons will be learned in the months 
ahead, and some of these are also likely to be useful in moving forward 
with the ongoing repair and long-term rebuilding of the New Orleans 
regional flood protection systems.
    As much of the population is currently being permitted to re-occupy 
portions of the New Orleans area, doing everything possible to ensure 
the safety of these people and their neighborhoods must continue to be 
the highest priority.
    Mr. Chairman, this concludes my testimony this morning. We would be 
pleased to answer any questions you may have.
                                 ______
                                 
  Responses of Larry Roth to Additional Questions from Senator Vitter
    Question 1. Do you believe that there are problems in the current 
Corps of Engineers project process that may have contributed to the 
failures in south Louisiana?
    Response. There do not appear to be problems in the Corps process 
right now. There is a problem with the organizational and institutional 
communication and coordination that occurs between the Corps and the 
local levee boards.
    The Corps has a very robust quality- control and quality-assurance 
process. At this time we cannot blame the Corps for a communications 
breakdown. There will not be enough information available until the 
Interagency Performance Evaluation Task Force (IPET) report is 
completed in June 2006.

    Question 2. In the media, some investigators suggested that the 
Corps was less than forthcoming with some of the requests for 
information and interviews. Could you share the experiences of the ASCE 
team in this regard?
    Response. The Corps was extremely cooperative in granting access to 
the sites in a timely fashion. While there were requests for 
information that were not immediately handled, the Corps was under 
pressure to get the levees back up and running. Much of the information 
in question is now published on the Corps Web site at https://
ipet.wes.army.mil/.

    Question 3. On the London Avenue Canal, there were a number of 
failures on one side of the canal but not the other. Can you explain 
why this could have occurred?
    Response. It's not possible at this time to explain why the failure 
was one-sided. That question will have to be answered by the IPET 
report.

    Question 4. Your testimony cites composition of soils as an 
important consideration in ASCE's investigation. What role do you think 
soil played in the floodwall failures?
    Response. The erosive nature of the soils around the levees was a 
major factor in the floodwall failures where sever overtopping 
occurred. In the case of foundation failures, we understand the ``how'' 
but we do not yet understand the ``why'' of the failures. The ``why'' 
will be answered by the IPET report.

    Question 5. What are your recommendations on how the drainage 
canals are redesigned in future protection systems?
    Response. The best way to redesign the canals would be to 
effectively eliminate them. If the pumping stations were moved from the 
south end of the canal and rebuilt on the lakeshore so that the canals 
were no longer necessary, it would prevent any storm surges from the 
lake moving down the canals and causing problems.

    Question 6. You referenced the highly-erodable materials used in 
composition of some levees outside of New Orleans. If there is 
widespread use of these materials in our levee systems, what steps 
could be taken to strengthen these structures?
    Response. This problem stems from the fact that when levees are 
built the materials used in construction come from nearby due to the 
high cost associated with hauling building materials in from far away 
sites. Since levees are built in a floodplain then the local soil used 
in construction is, generally speaking, a fine-grained alluvial soil 
that is not the best suited for levee construction.
    That said, levees could be hardened for protection from erosion by 
adding stronger materials such as rock, stone, or concrete.
                                 ______
                                 
 Response by Larry Roth to an Additional Question from Senator Jeffords
    Question. It appears that there is virtually unanimous agreement 
that the Mississippi River Gulf Outlet (MRGO) should be closed. Even 
the Louisiana legislature has passed resolutions in support of closing 
the MRGO. In your testimony, you explain that this channel accounts for 
only THREE PERCENT of all shipping traffic in southeastern Louisiana. 
It appears to be an antiquated project that presents a serious hazard 
to New Orleans. Can you give me your perspective on what barriers there 
are to closing MRGO?
    Response. There are no engineering barriers to closing the MRGO. 
The decision whether to leave the Outlet operating or not will be based 
on the economics of the region, the closing's impact on the 
environment, and political considerations of the public and government 
officials.
                               __________

Statement of Joseph Suhayda, Emeritus Engineering Professor, Louisiana 
                            State University

    My name is Joe Suhayda and I pleased to appear before you today to 
testify about incorporating the preliminary findings about the failures 
of the levees protecting New Orleans and adjacent areas into a plan for 
restoring hurricane flood protection to the area. This is certainly a 
critical and timely issue since, while there is a need for immediate 
action to rebuild the now non-functional system, recreating the 
vulnerabilities of the past only guarantees future disasters.
    I would like to describe some of the suggestions I have been making 
to provide interim flood protection for the city that will bridge the 
gap between the current condition of the flood protection system and 
the future improved conditions that may be decades away. These 
suggestions result from my having been involved with hurricane flood 
prediction and flooding issues in Louisiana for several years. I worked 
for 30 years as a faculty member at Louisiana State University 
including 20 years in the Civil and Environmental Engineering 
Department teaching hydraulics, coastal engineering and marine 
geotechnology. I was a senior consultant to the Hydrology and 
Hydraulics Branch of the New Orleans District of the Corps of Engineers 
for 4 years in the late 1990s and I have also worked under contract to 
the FEMA, the Louisiana Office of Emergency Preparedness and several 
individual parishes concerning hurricane flood preparedness.
    I would first like to review a few significant points about the 
preliminary findings concerning the levee failures. These findings have 
been presented in testimony before Congress and in a recent report 
prepared by the American Society of Civil Engineers, to which I refer 
you for details. What I want to emphasize are three the major findings 
which I feel have particular relevance to the restoration of hurricane 
flood protection for the City of New Orleans and the surrounding area. 
These significant findings are:
    1. The hurricane flooding protection system protecting the city and 
the adjacent areas consisted of a complex array of canals, levees and 
floodwalls that were geographically and administratively distinct. 
Subcomponents of this system, the levee districts, existed for the 
Jefferson Parish Lakefront, the Orleans Parish Lakefront, Orleans 
Parish (New Orleans East), St. Bernard Parish and Plaquemines Parish. 
The levee system was designed to provide variously 100 year and 
Category 3 flood protection. The Lake Pontchartrain and Vicinity 
Project was initially authorized by Congress in 1965 and had not been 
completed prior to Kartrina.
    2. The hurricane surge and waves produced by Katrina varied 
considerably over southeastern Louisiana, so that no two levee 
districts were subject to the same hurricane conditions. In locations 
south of the city the hurricane conditions exceeded the project design 
capabilities, while along the Lake Pontchartrain the hurricane 
conditions appeared to be at or lower than the project design 
conditions.
    3. There were dozens of breaches of levees and floodwalls 
throughout the system resulting from overtopping, seepage, soil failure 
and piping causing miles of levees and floodwalls to be either severely 
damaged or destroyed.
    4. It is currently not certain that all of the levee and floodwall 
breaches requiring rebuilding can be repaired to the pre-Katrina 
Category 3 protection before the start of the hurricane season in 2006. 
Furthermore, raising all floodwalls and levees to a greater level of 
protection greater than Category 3 will take many years, perhaps 
decades, to accomplish.
    Reviewing these findings raises two issues. The first issue is the 
appropriateness of the current authorization by Congress limiting the 
city to Category 3 flood protection. This authorization has been 
repeatedly cited by the Corps of Engineers as the primary factor 
limiting their future actions. However, this level of protection has 
been looked at for some time as being inadequate. A higher level of 
hurricane flood protection can be justified on a consistency argument 
alone. The river levee system in the city is designed to protect from a 
1 in 800 year flood, while the current hurricane protection system was 
designed to protect from a 1 in 200 year flood, or about 4 times the 
riverine risk. The current authorization for hurricane protection 
projects is now out of date because the City of New Orleans and the 
surrounding areas have undergone major changes. The landscape 
surrounding the city has been extensively altered due to continuing 
wetland loss and accelerated by Katrina. Also, the demographics and 
economy of the city have been changed considerably due to Katrina. A 
commitment by Congress now to authorize the Corps to begin to develop 
Category 5 flood protection for the City of New Orleans and adjacent 
areas would show that we have truly learned that the Category 3 
protection was inadequate. It would also eliminate the current 
uncertainty about what the long-term Federal commitment is to providing 
hurricane flood protection to the city.
    Because of the time delays in providing either Category 3 or higher 
flood protection, the second issue I want to raise is the consideration 
of some form of immediate interim flood protection. Interim flood 
protection would supplement the long term plans for rebuilding of the 
levee/floodwall system. This interim protection could act as an 
incentive to bring people back into the protected areas and establish 
the physical basis for economic and cultural recovery. Interim flood 
protection would be done to give us time to carefully develop a long 
term plan and would not interfere with the implementation of the long 
term plan. The interim flood protection approach is based upon the fact 
that flood protection can be achieved by augmenting the traditional 
levee and floodwall system with new approaches. These approaches 
include:
    1. Recognizing the fact that the various levee districts comprising 
the hurricane flood protection system now have different problems, 
needs and opportunities for rebuilding and should be treated separately 
rather than as one big system.
    2. Additional flood protection needs to be added existing levees 
and floodwalls that were not extensively damaged to minimize future 
damage to these structures.
    3. Internal flood control barriers need to be created that would 
take advantage of existing roadways and natural ridges to 
compartmentalize areas within a levee district and prevent flood waters 
from a single overtopping or breach from flooding the entire district.
    4. Flood proofing of critical individual infrastructure facilities 
needs to be accomplished with flood barriers in areas where district 
wide protection cannot be achieved. These flood proofing activities 
would concentrate on those facilities critical to recovery including 
governmental buildings, hospitals, schools, businesses and densely 
populated residential areas.
    These approaches could be implemented selectively to meet the 
specific needs of the various levee districts. For example, the 
Jefferson Parish Lakefront levee district received little flooding and 
the floodwalls, levees and pumps survived essentially intact. To 
increase the protection of this undamaged area, flood barriers could be 
placed atop the lake shore levees to immediately increase the flood 
protection to Category 3 or higher. The flood water passing through the 
canal breaches in Orleans Parish did not flood Jefferson Parish because 
it was prevented by the 17th Street Canal floodwall and by a 
topographic feature called the Metairie Ridge. A flood barrier should 
be placed on the ridge to provide increased protection from flooding 
originating in the Orleans Parish.
    In the Orleans Parish Lakefront district the emergency action taken 
by the Corps to close the canals at the lake with sheet piling should 
be continued. This would eliminate the currently suspect floodwalls in 
the district as a part of the hurricane protection system. Additional 
pumps could be placed at the lake shore to reduce to loss of drainage 
capacity during the summer months. The height of lakeside levees could 
be increased using flood barriers to obtain Category 3 or greater flood 
protection. Barriers could also be used along the natural Metairie and 
Gentilly Ridges to protect the Central Business District and French 
Quarter from any from flooding coming from Lake Pontchartrain. The 
floodwalls along the Industrial Canal can be protected from scouring 
that would result from overtopping by armoring the landward side of the 
floodwalls. For the New Orleans District, St. Bernard Parish and 
Plaquemines Parish, where extensive levee damage occurred, interior 
flood protection barriers could be deployed to establish flood free 
areas and protect critical infrastructure.
    The designs and structures needed to achieve interim protection are 
readily available. Flood barriers that could be used for interior flood 
protection and flood proofing have been recently tested by the Corps of 
Engineers in both field and laboratory settings. These flood barriers 
are rapidly deployable and removable and are being developed as a 
replacement for sand bags. This same technology is already been used in 
repairing floodwalls along the London Avenue and Industrial Canals to 
make them less prone to erosion. These barriers have also been used at 
a variety of location nationwide and have been deployed in Louisiana 
prior to Hurricane Katrina along the East Jefferson Levee District 
levees at the lakeshore and in Slidell.
    This concludes my testimony and I will be pleased to answer any 
questions you have.
                                 ______
                                 
      Responses by Joseph N. Suhayda to Additional Questions from 
                            Senator Jeffords

    Question 1. In your testimony you state that you believe that the 
levee districts should be treated individually as the rebuild 
continues. That seems counter-intuitive when you consider the findings 
that in many cases, the transition spots between levee systems were 
found to be weaker points in the design. This seems to suggest that a 
more comprehensive approach to levee design and construction would make 
sense. Can you explain?
    Response. I was using the term ``levee district'' to refer to each 
of the separate structural components that make up the levee system 
protecting New Orleans and the surrounding area, not the administrative 
agencies, i.e., the levee boards. Organizationally I believe that the 
levee boards should be either replaced by a statewide agency or be 
required to adhere to a statewide, unified levee plan and standard. In 
terms of the physical subdivisions or components of the levee system, 
the ``polders'', I wanted to emphasize the each polder has a distinct 
location, protects a unique mix of people, businesses and residences, 
and has a different exposure to the hurricane flooding threat. What we 
learned is that levees and floodwalls in the various polders did not 
receive the same type or amount of damage, and that the threat to 
public safety varied greatly among the polders. Therefore, I think the 
polders should by treated distinctly in terms of their priorities for 
rebuilding, the levels of short term and long term protection , and 
schedule of rebuilding and improvement. For some polders Category 3 
protection may be appropriate, while for others Category 5 may be 
justified. Since we have so many polders, i.e., levee system 
subdivisions, in Southeast Louisiana and may actually be adding more 
polders across the state, I strongly believe we should not take the 
approach that ``one size fits all'' that is, that the same level of 
protection is necessary for all of the separate polders.

    Question 2. I have been reading some of your previous analysis of 
the potential risk to New Orleans should a major storm arrive there. I 
am particularly interested in your predictions about the mix of toxic 
chemicals that would occur should the entire city become flooded, 
allowing the mixing of industrial and household chemicals. Given what 
you have observed in New Orleans, do you believe your prediction has 
come true, to what extent, and do you believe the actions taken by the 
EPA to identify the problem and warn people are adequate?
    Response. The prediction was overstated. There was some initial 
concern about water pollution that adversely affected rescue 
operations. The most widely reported health effect of being in the city 
right after the hurricane was a respiratory irritation named the 
``Katrina Cough''. The quality of the vast amount of the water in the 
city and that was pumped into Lake Pontchartrain appears to have been 
no worse than that associated with a heavy rainfall. There were a few 
locations, such as at the Murphy Oil refinery, where there were very 
high levels of contamination. I think EPA and the State of Louisiana 
did an exemplary job of quickly and openly providing information about 
the problem.

    Question 3. In your testimony, you state that you believe that the 
levee districts should be treated individually as the rebuild 
continues. That seem counter-intuitive when you consider the findings 
that in many cases, the transition spots between levee systems were 
found to be weaker points in the design. This seems to suggest that a 
more comprehensive approach to levee design and construction would make 
sense. Can you explain?
    Response. See 1 above for answer.

                                 ______
                                 
      Responses by Joseph N. Suhayda to Additional Questions from 
                             Senator Vitter

    Question 1a. In your testimony, you suggest that an improved 
hurricane protection system for south Louisiana may be decades away. 
What makes you believe that this will take decades?
    Response. This is based upon the performance of the Corps of 
Engineers in designing and constructing the levees, and Congress 
willingness to fund the construction. The authorization for the Lake 
Ponchartrain and Vicinities Project was in 1965, with an initial 
estimate of about 15 years to complete the project. The Corps was still 
redesigning the project into the 1990's and the most recent pre-Katrina 
estimate of a completion date was 2015. Thus the original Category 3 
project was extended to about a 50-year duration. Improving to a 
Category 5 level of protection will present even more difficult 
engineering and construction challenges than did the Category 3 system. 
Although the numbers have varied, I have heard members of the Corps 
themselves say it will be as long as 30 years before the improvement to 
Category 5 protection could be accomplished. Another problematic issue 
is the consistency of the Congressional appropriations to fund the 
improvements. According to the New Orleans District the funding for the 
Category 3 project for 2005 were ``insufficient to fund new 
construction contracts'' and that the 2005-2006 funding shortfalls 
``will prevent the Corps from addressing pressing needs''. If the levee 
improvements have a cost of $ 6 billion over a 30 year period, this 
requires and average annual appropriation of $ 200 million. Given that 
the outlook for the next several years for the federal budget is a 
dire, I think it realistic to anticipate some funding problems.

    Question 1b. What suggestions do you have for streamlining or 
expediting the process to allow for this goal to be accomplished more 
quickly?
    Response. There are some physical limitations on the rate that 
levees can be constructed that derive from the properties of the soils 
used in constructing the levees. Levees just take decades to be 
completed. However, changes in the design or delays in funding could 
also significantly delay completion of a project, and these are 
controllable. I think it is important initially to carefully develop 
the plan for the improved protection so that we can avoid procedural 
delays. Also, if it were possible to commit federal funding on a longer 
cycle than annually, then the Corps could maintain a more consistent 
construction pace.

    Question 2a. If I understand your testimony, you are advocating the 
continued use of the levee board concept. The state legislature 
recently took steps to centralize this authority. Could you explain 
your support for the levee district concepts?
    Response. See my answer above to Senator Jefford's first question. 
To repeat, I think the levee districts, i.e., the ``polders'', need to 
be considered as separate and unique geographic entities, but should be 
planned, constructed and managed to statewide standards. I think the 
levee boards should be reorganized and/or held to state and federal 
performance standards.

    Question 2b. Based on your investigation and knowledge, do you 
believe the actions of the Orleans Levee Board contributed to the 
floodwall failures in New Orleans?
    Response. I don't know of any specific actions of the Orleans Levee 
Board that contributed to the failure of the 17th St. and London Ave. 
floodwalls. In both cases there were reviews of the designs by several 
engineering companies and several levels within the Corps of Engineers 
that also supervised and approved the design and construction. 
Maintenance of the floodwalls by the levee board may have been and 
issue that could have been improved upon, but I don't know of any 
specific evidence that a maintenance deficiency caused the failures. 
The reason for the failures is being investigated and I think many of 
the initial explanations have been shown to be wrong.

    Question 3. Your testimony states that you are uncertain if it is 
possible to restore the levees and floodwalls in south Louisiana to a 
Category 3 level of protection before next hurricane season in June. 
The Corps of Engineers has stated that they intend to restore 
protection by June. What causes your reservations?
    Response. Since the situation on the ground is changing so rapidly, 
I must qualify my answer. First, it appears that the Corps has recently 
indicated a completion of the restored protection will be in late 
August 2006. Second, it also appears that the 17th Street, Orleans and 
London Ave. canals will be closed at the lake. So fixing the floodwalls 
lining the canals may be unnecessary. Third, in general the levee 
system was not at a Category 3 level of protection before Katrina, and 
it was estimated that it would take several years of work to bring the 
system to the authorized level of protection. The commitment by the 
Corps I understood was to return the levee system to the pre-Katrina 
level of protection and not to a never achieved Category 3 level.

    Question 4. Your written statement suggests that, ``a higher level 
of hurricane flood protection can be justified on a consistency 
argument alone''. Could you please explain this statement?
    Response. The city is protected from river flooding to the level of 
threat of a 1- in 800-year flood, called the Project Flood. This 
equates to an annual risk of .125 percent. The protection from 
hurricane flooding was to a level of a 1- in 200-year surge, which 
equates to an annual risk of .5 percent. Thus the risk to the city of 
flooding from hurricanes was about 4 times greater than for river 
flooding. The hurricane levees and floodwalls are in general about 10 
feet lower than the river levees. I think the level of risk that the 
federal government is willing to subject the city to should be the same 
for both sources of flooding.

    Question 5. You suggested that the hurricane protection system 
designed for the New Orleans area is out of date. Could you share with 
the committee your vision of a new protection system?
    Response. A new protection system would be along the lines of the 
Dutch system, that is, redundant flood protection. Keep in mind that 
the hurricane flood threat includes both surge and waves. The new 
hurricane flood protection system would consist of barrier islands, 
wetlands, wave breakwaters, levees and floodwalls, interior flood 
control, and flood proofing of individual high value facilities. At the 
shoreline would be the barrier islands which would limit the amount of 
water and wave action moving inland. Inland of the barrier islands 
would be specially restored sections of dense wetlands. Inland of the 
wetlands would be a wave breakwater structure and then a surge levee. 
The surge or main levee would define the boundary of the ``polder'' 
area. Inside of the levee system would be interior structures to limit 
and control the spread of any flood waters that either overtop or 
breach the main levees. Finally, high value facilities such as 
shelters, governmental buildings, hospitals, refineries, etc., would be 
flood proofed with local flood barriers. Structures to temporarily 
close navigation channels and natural passes to prevent movement of 
flood waters inland would also be a feature.

    Question 6. You appear to support the concept of ``interim flood 
protection'' while the Corps continues to work on a long term plan for 
greater protection. Could you expand upon this concept?
    Response. The estimates are that the Category 5 flood protection 
will not be achieved for decades. This would leave the city, the 
population and any rebuilding that occurs again vulnerable to Category 
4 and 5 flooding for many years to come. I think we will need some kind 
of improved hurricane flood protection that can be accomplished in a 
few years and function to provide more than Category 2-3 protection 
until the Corps projects are completed. This could be done by providing 
interior flood control and flood proofing of selected facilities.
                               __________

Statement of Robert R.M. Verchick, Gauthier-St. Martin Eminent Scholar 
       Chair in Environmental Law, Loyola University New Orleans

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to testify on how preliminary 
findings on the failure of the levees should be incorporated into 
future plans for hurricane protection. I testify today as an expert in 
environmental law and policy and a resident of New Orleans.
    As you know, I am an evacuee. My wife and children are living this 
fall in the state of Washington, and I have taken up temporary 
residence in Houston, Texas, where my Law School, Loyola New Orleans, 
is continuing its fall semester in space donated by the University of 
Houston.
    I hold the Gauthier-St. Martin Chair in Environmental Law at Loyola 
University New Orleans, where I teach on issues concerning 
environmental law and natural resource management. One of my primary 
areas of research and teaching concerns resource issues in southern 
Louisiana, including the state's coastal wetlands and levees. I have 
also been a visiting professor of law at Aarhus University in Denmark 
and a guest professor at Beijing University in China. I hold an A.B. 
degree from Stanford University and a J.D. degree from the Harvard Law 
School. My expertise is in environmental law and property law. I am the 
Chair of the Environmental Law Section of the Association of American 
Law Schools (AALS) and immediate-past Chair of the Property Section of 
the AALS.
    Finally, I am a scholar and board member of the Center for 
Progressive Reform (CPR). Founded in 2002 as the Center for Progressive 
Regulation, CPR is a 501(c)(3) nonprofit research and educational 
organization dedicated to protecting health, safety, and the 
environment through analysis and commentary. CPR is a network of 
university-affiliated academics with expertise in the legal, economic, 
and scientific issues related to regulation of health, safety, and the 
environment. CPR believes sensible safeguards in these areas serve 
important shared values, including doing the best we can to prevent 
harm to people and the environment, distributing environmental harms 
and benefits fairly, and protecting the earth for future generations. 
CPR further believes that people play a crucial role in helping the 
private and public sectors make decisions that result in improved 
protection of consumers, public health and safety, and the environment.
    Last September, CPR published two reports on Hurricane Katrina, the 
first titled ``An Unnatural Disaster: The Aftermath of Hurricane 
Katrina,'' and the second titled, ``Broken Levees: Why They Failed.'' 
Both are available on CPR's Web site at: http://
www.progresivereform.org.

                            A. INTRODUCTION

    My testimony today focuses on how preliminary findings on the 
failure of the levees should be incorporated into future plans for 
hurricane protection. After reviewing what we now know about the 
failures of Louisiana's levees and the destruction of its protective 
wetlands and barrier islands, I draw four lessons, each accompanied 
with a recommendation:
    1. Focusing only on levees is a fool's gamble. Any new hurricane 
protection vision must be integrated and must consider simultaneously 
levee and gate construction, wetlands restoration, habitat 
preservation, canal navigation, and patterns of residential and 
commercial development.
    2. Strong plans are adaptive plans. A new hurricane protection 
vision should incorporate a formal mechanism by which an independent, 
scientific board regularly assesses the design, condition, and 
performance of hurricane protection features (from levees to barrier 
islands) to call attention to areas in need of maintenance or 
improvement.
    3. What's good for the environment is good for hurricane 
protection. A new hurricane protection vision must adhere to current 
environmental and procedural standards, including the National 
Environmental Policy Act (NEPA).
    4. The Corps can't do it alone. Effective hurricane protection in 
the Gulf may require the establishment of an independent commission 
made up of Federal, State, and local officials, with expertise in 
policy, land use, science, and engineering to supervise the work of the 
Corps and other governmental and private entities whose work relates to 
hurricane protection.

              B. BROKEN LEVEES: PREDICTIONS THAT CAME TRUE

    The failure of the levees in New Orleans was catastrophic for the 
city and for its most vulnerable citizens. In the aftermath of 
Hurricane Katrina, it is important to understand why the levees failed 
and what actions, had they been taken, would have prevented, or 
reduced, the flooding of New Orleans.
1. The Facts: Inadequate Levees
    New Orleans is protected from Lake Pontchartrain and Lake Borgne, 
which are located almost side-by-side on the North side of New Orleans, 
by an interconnected series of levees that extends along the lakes. (A 
map of the lakes and levees by the Times Picayune can be found at 
http://www.nola.com/hurricane/popup/nolalevees--jpg.html.) These levees 
are considerably smaller than the ones that protect New Orleans from 
flooding of the Mississippi. While the levees on the Mississippi 
average 25 feet above sea level, these levees range from 13.5 to 18 
feet above sea level in height. Another series of somewhat lower levees 
provides protection to St. Bernard Parish, which is located to the 
north and east of New Orleans, from Lake Pontchartrain on the north and 
from Lake Borgne and the Gulf on the east. Parts of the parish are 
located between the two lakes.
    Because New Orleans is below sea level and rapidly sinking, 
rainwater that flows into the city must be removed not by natural 
drainage, but with huge pumps that force the water to move along three 
man-made canals, called ``outfall canals,'' to Lake Pontchartrain. The 
canals are lined with concrete walls that prevent the water from 
spilling into the city. Water flowing through the canals is nearly as 
high as the rooftops of some houses adjoining the canals.\1\ All of the 
levees were built by the Corps and are maintained by various local 
levee districts.\2\
---------------------------------------------------------------------------
    \1\ Graphic, First Line of Defense: Hoping the Levees Hold, TIMES-
PICAYUNE (New Orleans), available at http://www.nola.com/hurricane/
popup/nolalevees--jpg.html.
    \2\ Id.
---------------------------------------------------------------------------
    In addition to the drainage canals, the Corps of Engineers 
constructed two very large canals that permit ocean-going vessels to 
move from the Mississippi River through the city to Lake Pontchartrain 
or the Intracoastal Canal near Lake Borgne. The Industrial Canal slices 
north/south across the city between the river and the lake at the point 
where they are closest to each other. The MRGO canal bisects the 
Industrial Canal and travels east/west to the Intracoastal Canal near 
Lake Borgne. The shipping canal levees consist primarily of concrete 
floodwalls and earthen levees.
    The water that flooded New Orleans did not flow over the levees 
situated between the lake and the city. Instead, it appears that the 
surge flowed up the 17th Street and London Avenue canals and caused 
floodwall breaches along the 17th Street canal and the London Avenue 
canal.
    The city also flooded because the levee system did not protect it 
from the ``end around'' exposure that occurred during Hurricane 
Katrina. The hurricane surge entered Lake Borgne from the Gulf of 
Mexico and proceeded up the MRGO canal to the Industrial canal in the 
heart of New Orleans. Hurricane Katrina appears to have destroyed as 
much as 90 percent of the levees and floodwalls along the MRGO canal in 
St. Bernard Parish as it pushed up the narrowing canal from Lake Borgne 
to the conjunction of the MRGO canal with the Industrial canal. Colonel 
Richard Wagenaar, the Corps head engineer for the New Orleans district, 
reported that the eastern levees were ``literally leveled in 
places.''\3\
---------------------------------------------------------------------------
    \3\ Ralph Vartabedian, Much Wider Damage to Levees Is Disclosed, 
L.A. TIMES, September 13, 2005, available at http://www.latimes.com/
news/nationworld/nation/la-na-corps13sep13,0,5962987.story?coll=la-
home-headlines (last visited September 21, 2005).
---------------------------------------------------------------------------
2. We Knew This Would Happen
    Not long after the levees broke and water from Lake Pontchartrain 
on the north and Lake Borgne on the east began to fill New Orleans, 
President Bush told television correspondent Diane Sawyer that no one 
could have foreseen the breach of those levees.\4\ In fact, over a 
period of many years, scientists had predicted that a strong storm 
could also breach the levees. Scientists especially feared that even a 
relatively weak storm coming from the right direction would push a wall 
of water into the heart of New Orleans from Lake Borgne through the 
funnel-shaped MRGO canal and into the Industrial canal, destroying the 
levees along the canal and flooding much of St. Bernard Parrish and the 
Lower Ninth Ward. It now appears that this is exactly what happened.\5\
---------------------------------------------------------------------------
    \4\ Dan Froomkin, White House Briefing: A Dearth of Answers, WASH. 
POST, September 1, 2005, available at http://www.washingtonpost.com/wp-
dyn/content/blog/2005/09/01/BL2005090100915.html?nav=rss--politics 
(last visited September 21, 2005).
    \5\ Michael Grunwald, Canal May Have Worsened City's Flooding, 
WASH. POST, September 14, 2005, at A21.
---------------------------------------------------------------------------
    Moreover, the risks posed by the MRGO canal were evident. In 2002, 
the Corps of Engineers acknowledged that ``[t]he MRGO levee is more 
likely to be affected than the area on the lake itself.''\6\ Proponents 
of closing the canal pointed out that, with the erosion of the wetlands 
in the unleveed stretches south and east of the city, it had ``evolved 
into a shotgun pointed straight at New Orleans.''\7\
---------------------------------------------------------------------------
    \6\  Jerry Mitchell, E-Mail Suggests Government Seeking to Blame 
Groups, CLARION-LEDGER (Miss.), September 16, 2005, at A1, available at 
available at http://www.clarionledger.com/apps/pbcs.dll/article?AID=/
20050916/NEWS0110/509160369/1260 (last visited September 21, 2005) 
(quoting Corps of Engineers spokesperson John Hall); John McQuaid & 
Mark Schleifstein, Evolving Danger, TIMES-PICAYUNE (New Orleans), June 
23, 2002, at J12.
    \7\ McQuaid & Schleifstein, Evolving Danger, supra note 31.
---------------------------------------------------------------------------
3. Bad Planning and Skewed Priorities
    The failure to protect New Orleans resulted from inadequate 
planning by the Corps to save the city, and from the failure of Federal 
Government to fund badly needed improvements once those limitations 
were recognized. Neither the Corps nor Congress adequately accounted 
for the loss of life and property that would occur if a catastrophic 
hurricane hit New Orleans.
    The hurricane protection plan that was implemented after 1985 by 
the Corps was designed to protect the city against the ``standard 
project'' hurricane that roughly corresponds to a fast-moving Category 
3 storm.\8\ Scientists had for years prior to the storm predicted that 
the levee system could not withstand a Category 4 or Category 5 
storm.\9\ Hurricane Katrina struck the Louisiana/Mississippi coast as a 
Category 4 storm, although its force had weakened to a Category 3 storm 
when it hit New Orleans.
---------------------------------------------------------------------------
    \8\ Mitchell, supra; McQuaid & Schleifstein, Evolving Danger, 
supra.
    \9\ Mitchell, supra; McQuaid & Schleifstein, Evolving Danger, 
supra.
---------------------------------------------------------------------------
    Moreover, although the MRGO canal was a primary cause of the 
flooding, it is seldom used and heavily subsidized by taxpayers. The 
canal, which was completed in 1968, is a deep draft seaway channel that 
extends for approximately 76 miles east and southeast of New Orleans 
into Breton Sound and the Gulf of Mexico. It was designed to shorten 
the distance for ships from the eastern shipping lanes of the Gulf to 
New Orleans, but it has never lived up to its predicted economic 
expectations. Less than 3 percent of the New Orleans port's cargo 
traffic uses the MRGO; this amounts to less than one ship per day.\10\ 
According to one estimate, the government spends $7 to $8 million per 
year (about $10,000 for every large vessel that uses the canal) just to 
maintain the canal.\11\
---------------------------------------------------------------------------
    \10\ Grunwald, supra.
    \11\ LAKE PONTCHARTRAIN BASIN FOUND., MARTELLO CASTLE WETMAAP, 
Background Information, available at http://wetmaap.org/Martello--
Castle/Supplement/mc--background.html.
---------------------------------------------------------------------------
    Although the vulnerability of New Orleans to a catastrophe was well 
known and widely predicted, the Corps floundered in its efforts to 
enhance the protection of New Orleans from Lake Pontchartrain. In an 
award winning series of articles on the levee system, The Times-
Picayune concluded that the Corps of Engineers declined to move forward 
with enhancements to the levee and floodwall system because ``no clear 
bureaucratic mandate exists for reassessing the blueprints once levees 
are built.''\12\ For example, an attempt in 1996 to reevaluate the Lake 
Pontchartrain levees broke down in disputes over modeling and other 
bureaucratic disagreements.\13\ When Congress appropriated money to 
protect New Orleans better, the Corps was not been in a hurry to get 
the job done. For example, Congress in 1999 appropriated money for a 
$12 million study to determine how much it would cost to protect New 
Orleans from a Category 5 hurricane, but the study had not even been 
launched as of September 2005.\14\
---------------------------------------------------------------------------
    \12\ McQuaid & Schleifstein, Evolving Danger, supra.
    \13\ Id.
    \14\ Andrew Martin & Andrew Zajac, Corps: Lack of Funds Did Not 
Contribute to Flooding, CHI. TRIB., September 2, 2005, at 1.
---------------------------------------------------------------------------
    In addition, the Bush administration failed to fund Corps requests. 
Mike Parker, a former Republican Congressman from Mississippi who was 
until 2002 the chief of the Corps, was forced to resign when he 
publicly stated to the Senate Budget Committee that the national 
interest was being harmed by President Bush's proposal to cut over $2 
billion from the Corps' $6 billion budget.\15\ The Bush administration 
rejected an Corps request for $27 million to pay for hurricane 
protection projects along Lake Pontchartrain and proposed a budget of 
only $3.7 million. Congress ultimately appropriated $5.7 million for 
the projects, but the Corps still had to delay seven levee improvement 
contracts.\16\ After Hurricane Katrina struck, Mr. Parker stated that 
President Bush had not adequately funded improvements to the very 
levees in New Orleans that had been breached; indeed, Mr. Parker stated 
that had full funding been authorized ``there would be less flooding 
than you have.''\17\ An official Corps memo dated May 2005, long after 
Parker left the agency, seemed to corroborate this possibility. It 
stated that the Bush administration's funding levels for fiscal years 
2005 and 2006 were not enough to pay for new construction on the New 
Orleans levees.\18\
---------------------------------------------------------------------------
    \15\ John McQuaid & Mark Schleifstein, Shifting Tides, TIMES-
PICAYUNE (New Orleans), June 26, 2002, at 14.
    \16\ Andrew Martin & Andrew Zajac, Flood-Control Funds Short of 
Requests, CHI. TRIB., September 1, 2005, at 7.
    \17\ Id.
    \18\ Reuters, Andy Sullivan, Budget Cuts Delayed New Orleans Flood 
Control Work, September 1, 2005, available at http://www.alertnet.org/
thenews/newsdesk/N01279059.htm (last visited September 21, 2005).
---------------------------------------------------------------------------
    Although the current administration bears blame for the failure to 
fund critical levee improvement projects, the truth is that improving 
the Lake Pontchartrain levees has been a low priority for many 
administrations, Democratic and Republican, and for Congress. The Bush 
administration and Congress have had other priorities over a longer 
period of time than the last four years. In fact, it seems clear that 
even the Louisiana congressional delegation has on occasion insisted 
that the Corps direct its resources to projects like a $194 million 
project for deepening the Port of Iberia and replacing the lock on the 
Industrial canal.\19\
---------------------------------------------------------------------------
    \19\ Michael Grunwald, Money Flowed to Questionable Projects, WASH. 
POST, September 8, 2005, at A1.
---------------------------------------------------------------------------
    The Bush administration and Congress are influential in setting 
budget priorities because the Corps is very reluctant to participate in 
the process of setting priorities for its projects. Moreover, once the 
Corps has determined that the benefits of a proposed project exceed its 
costs, the Corps leaves it to Congress to decide through the 
appropriations process which projects receive funding and which do 
not.\20\ Congress is ordinarily willing to consider passing 
appropriations for large public works projects, however, only in the 
wake of major disasters or after years and years of study.\21\
---------------------------------------------------------------------------
    \20\ Id.
    \21\ McQuaid & Schleifstein, supra.
---------------------------------------------------------------------------
4. Poor Design and Construction
    Sadly, it now appears that one of the most direct causes of levee 
failure was faulty design and construction. There are now strong 
indications that the critical floodwalls along the outlet canals on 
17th Street and Industrial Avenue did not breach because the water 
surged over them and eroded away their support but because they were 
not capable of withstanding even the surge of a Category 3 
hurricane.\22\ (In contrast, evidence suggests that the Industrial 
Canal levee was, in fact, topped.) According to Ivor van Heerden, 
Deputy Director of Louisiana State University's Hurricane Center, his 
investigative team found no fewer than 27 major breaches in the of the 
canal levees.\23\ The 17th Street levee appears to have ruptured in 
response to storm surges no stronger than those associated with a 
Category 1 storm.\24\
---------------------------------------------------------------------------
    \22\ Michael Grunwald & Susan B. Glasser, Experts Say Faulty Levees 
Caused Much of Flooding, WASH. POST, September 21, 2005, at A1.
    \23\ Remarks by Ivor van Heerden, Deputy Director of Louisiana 
State University Hurricane Center, at Annual Conference of Louisiana 
Environmental Action Network, Baton Rouge, LA (Nov. 12, 2005) (notes on 
file with the author).
    \24\ Id.
---------------------------------------------------------------------------
    Independent engineers have said that pockets of swampy soil and 
shallow steel pilings contributed to ruptures in the levees' earthen 
walls.\25\ Preliminary findings suggest that while the Corps's design 
for the 17th Street levee required steel pilings buried 17 feet below 
sea level, the actual pilings were buried only 10 feet below sea 
level.\26\ Earlier this month, an engineering expert told a 
Congressional panel that ``malfeasance'' may have also played a role in 
levee failure.\27\ As a result, the Corps and its contractors are now 
targets of civil and criminal investigations.\28\
---------------------------------------------------------------------------
    \25\ Christopher Drew, Inquiry to Seek Cause of Levee Failure, N.Y. 
TIMES, Nov. 9, 2005.
    \26\ Brett Martell, Prosecutor to Follow up on Tips of Corruption 
in Levee-Building, PHIL. INQUIRER, Nov. 11, 2005 (from Associated 
Press).
    \27\ Drew, supra.
    \28\ See Drew, supra, Martell, supra.
---------------------------------------------------------------------------
           C. WETLANDS POLICY AND EROSION: DECADES OF NEGLECT

1. The Importance of Coastal Wetlands
    It is impossible to think about hurricane protection in Louisiana 
without also thinking about coastal wetlands. Just as any discussion of 
automobile safety must go beyond seatbelts, any discussion of hurricane 
protection must include discussions of marshes, swamps, and 
navigational channels.
    Louisiana's coastal plain contains one of the largest expanses of 
coastal wetlands in the contiguous United States.\29\ Sadly, 90 percent 
of the nation's coastal wetlands loss occurs here too.\30\ Built by the 
deltaic processes of the Mississippi River, Louisiana's coastal plain 
hosts an extraordinary diversity of coastal habitats, ranging from 
natural levees and beach ridges to large swaths of forested swamps, to 
freshwater, intermediate, brackish, and saline marshes. These features 
which nourish wildlife, filter water, and dampen storm surges help make 
the coastal plain, to use the Corps' words, one of ``the most 
productive and important natural assets'' in the country.\31\
---------------------------------------------------------------------------
    \29\ Twenty-five percent of the Nation's coastal wetlands reside in 
southern Louisiana. MIKE TIDWELL, BAYOU BLUES: THE RICH LIFE AND TRAGIC 
DEATH OF LOUISIANA'S CAJUN COAST 6 (2003).
    \30\ U.S. ARMY CORPS OF ENG'RS, 1 LOUISIANA COASTAL AREA (LCA), 
LOUISIANA: ECOSYSTEM RESTORATION STUDY, FINAL Sec. 1.1 (Nov. 2004), 
available at http://www.lca.gov/final/main--report1.aspx.
    \31\ Id.
---------------------------------------------------------------------------
    While most people do not realize it, one of the most important 
services provided by coastal marshes involves storm protection. Imagine 
blasting water through a garden hose at full force onto a cement 
driveway. The water splashes and surges, fanning out in many 
directions. Now imagine spraying water from the same hose onto a thick, 
dense lawn. The difference between the cement and the lawn is the 
difference between a storm path composed of open water and denuded 
coast and one composed of lush forests and marsh. Louisiana's coastal 
wetlands act as vast sponges, absorbing billions of gallons of rainfall 
and shielding people and property from storms. The effect is 
impressive, even for city dwellers who have never seen a marsh: every 
two miles of wetlands south of New Orleans reduces tropical storm 
surges there by half a foot.\32\ Louisiana's coastal wetlands and 
barrier islands also help shield an internationally significant 
commercial-industrial complex from the destructive forces of storm-
driven waves and tides.\33\
---------------------------------------------------------------------------
    \32\ Sydney Blumenthal, No One Can Say They Didn't See It Coming, 
SALON, Aug. 31, 2005, available at http://www.salon.com/opinion/
blumenthal/2005/08/31/disaster--preparation/ (last visited September 
21, 2005).
    \33\ U.S. ARMY CORPS OF ENG'RS, supra note 2, at Sec. 1.1. A 
complex of deep-draft ports, including the Port of South Louisiana, 
handles more tonnage than any other port in the Nation. Id. Five years 
ago, ``Louisiana led the Nation with production of 592 million barrels 
of oil and condensate (including the outer continental shelf), valued 
at $17 billion, and was second in the Nation in natural gas production 
with $1.3 billion (excluding the outer continental shelf).'' Id. In 
addition, more than 29 percent of the country's crude oil supply and 
nearly 34 percent of its natural gas supply moves through Louisiana, 
which, incidentally, also hosts about half of the nation's refining 
capacity. Id. This relationship helps explain the dramatic surges in 
fuel prices that immediately followed Katrina.
---------------------------------------------------------------------------
    In addition to storm protection services, the Louisiana coastal 
plain also provides numerous other benefits. It offers habitat for 
countless species, including commercially significant sea life and 
waterfowl.\34\ With more than five million birds wintering in 
Louisiana, the Louisiana coastal plain provides crucial rest stops to 
migrating birds.\35\ Finally, Louisiana's coastal marshes provide 
services vital to water quality. The marshes function as giant ``water 
treatment plants,'' filtering out vast quantities of nitrogen, 
phosphorous, and other pollutants from incoming water bodies.\36\ Taken 
together, the many services of Louisiana's coastal wetlands make them a 
treasure every bit as unique and breathtaking as the city of New 
Orleans itself. The coast's storm protection, habitat, and water 
treatment services, while impossible to precisely quantify, surely 
amount to billions of dollars of commercial benefit per year.\37\
---------------------------------------------------------------------------
    \34\ Fisheries in the Gulf of Mexico provide about 20 percent of 
all seafood consumed in the United States. Nearly all of that catch is 
dependent, in some way, on the universe of microscopic plant and animal 
life first nurtured in the Louisiana Coastal Plain. Oliver A. Houck, 
Land Loss in Coastal Louisiana: Causes, Consequences, and Remedies, 58 
TUL. L. REV. 3, 84-86 (1983).
    \35\ About 70 percent of all birds that migrate through the United 
States use the Mississippi and Central flyways. U.S. ARMY CORPS OF 
ENG'RS, supra note 2, at Sec. 1.1. The coastal plain also supports 
several endangered or previously endangered species, including bald 
eagles, brown pelicans, alligators, and various kinds of whales. Houck, 
supra note 6, at 90. The birdlife moving through southern Louisiana 
supports significant commercial enterprises, including tourism, 
birding, and hunting. Houck, supra note 6, at 88-90.
    \36\ Id. at 78-79. The marshes' natural store of fresh water also 
acts as a bulwark against intruding salt water, which, were it allowed 
to flow uninhibited up the bayous, would destroy crucial shellfish 
habitat and poison groundwater supplies south of New Orleans. Id. at 
80-81.
    \37\ Id. at 99 (estimating an annual value of around $10 billion in 
1983, using two different valuation methods).
---------------------------------------------------------------------------
2. The Failures of Wetlands Law and Policy
    Unbelievably, this giant of all coastal wetlands, this biotic and 
commercial treasure, is disappearing before our very eyes. Since the 
1930s Louisiana has lost more than 1.2 million acres of coastal 
wetlands.\38\ Before Katrina, the Corps has estimated that Louisiana 
was losing about 6,600 acres per year, a rate that if unchecked would 
result in a net loss of 328,000 acres--or an area roughly the size of 
Rhode Island--by 2050.\39\
---------------------------------------------------------------------------
    \38\ U.S. ARMY CORPS OF ENG'RS, supra note 2, at iii. In the 1970s, 
Louisiana was losing an estimated 25,200 acres per year from a 
combination of natural and human process. Id. From 1990 to 2000, the 
rate slowed to 15,300 acres per year. Id.
    \39\ Id. That loss would represent 10 percent of Louisiana's 
remaining coastal plain. Id.
---------------------------------------------------------------------------
    Why is this happening? The effect is partly due to natural 
subsidence: the soft soils of the coastal plain naturally shift and 
sink over time.\40\ But this phenomenon, at best, explains only a small 
fraction of the loss.\41\ The real culprits are human-made: Louisiana's 
vast network of levees, navigational channels, and oil-and-gas 
infrastructure. While all of these things are important to safety and 
commerce, their significant effects on Louisiana's wetlands require 
intense study, mitigation, and remediation.
---------------------------------------------------------------------------
    \40\ Id. Sec. 2.1.1.4.
    \41\ Houck, supra, at 15.
---------------------------------------------------------------------------
    The levee system accelerates coastal land loss by reducing the 
natural flow of a river's freshwater and sediment to wetland areas 
where lost land would then naturally be replenished.\42\ Instead, that 
valuable water and sediment is funneled down the Mississippi and shot 
into the Gulf, toward the outer continental shelf, where the formation 
of barrier islands is impossible.
---------------------------------------------------------------------------
    \42\ U.S. ARMY CORPS OF ENG'RS, supra note 2, Sec. 2.1.1.4.
---------------------------------------------------------------------------
    Louisiana's coastal plain is crisscrossed with a vast matrix of 
navigational canals, including 10 major navigational channels\43\ and 
literally thousands of smaller access canals serving navigation, 
allowing oil rig access, and cradling oil and gas pipelines.\44\ This 
network severely disrupts the natural flow of water and nutrients in 
wetland areas, isolating and starving them.\45\ The major navigational 
channels pose their own special threat to flood control by sometimes 
acting as ``hurricane highways,'' allowing storms to sweep inland, past 
marshland, like liquid bulldozers.
---------------------------------------------------------------------------
    \43\ Id. Sec. 2.1.2.2.
    \44\ Hydraulic forces erode the banks of such canals, causing them 
to widen at sometimes alarming rates. The surface area of the coast's 
artificial waterways may, itself, account for ``2 to 4 percent of [the 
coast's] total land mass.'' Houck, supra, at 37.
    \45\ Id. at 39-40.
---------------------------------------------------------------------------
    In the 1980s, prompted by scientific studies documenting 
Louisiana's land loss, local groups made up of environmentalists, 
shrimpers, scientists, and business people began pushing for plans to 
save what would later be called ``America's Wetland.''\46\ One result 
of such efforts was the Federal Coastal Wetlands Planning, Protection 
and Restoration Act of 1990 (the ``Breaux Act''), which created a 
Federal and State task force to implement wetlands restoration projects 
with annual funds of around $40 million.\47\ Although the projects 
saved hundreds of acres of wetlands, advocates soon realized that a $40 
million program was insufficient. A much more ambitious plan was needed 
if the coast would ever be saved.
---------------------------------------------------------------------------
    \46\ See TIDWELL, supra, at 131-32.
    \47\ The projects included restoring wetlands near New Orleans with 
mechanical pumps, shoring up the eroding coast of Cameron Parish, and 
revitalizing beaches on select barrier islands. Id. at 132-33.
---------------------------------------------------------------------------
    In 1998, state and Federal Agencies, with the participation of a 
diverse group of local churches, scientists, environmentalists, and 
fishermen, developed a book length plan called ``Coast 2050: Toward a 
Sustainable Coastal Louisiana,'' which offered a host of ecosystem 
restoration strategies.\48\ The underlying principles of the Coast 2050 
Plan were to restore or mimic the natural processes that built and 
maintained coastal Louisiana. The complete plan, to be implemented over 
the next 50 years carried a price tag of $14 billion, more than twice 
as much as the Everglades restoration project (nearly $8 billion) and 
about the same as Boston's new underground highway, ``The Big Dig.'' 
Though expensive, Coast 2050 actually seemed a bargain, considering the 
costs of doing nothing threatened to exceed $100 billion in lost jobs, 
lost infrastructure, lost fishing, and increased hurricane damage.\49\
---------------------------------------------------------------------------
    \48\ TIDWELL, supra, at 134.
    \49\ Id. at 134.
---------------------------------------------------------------------------
    But Coast 2050 was never funded. In 2004, hamstrung by climbing 
deficits, the White House demanded, under pressure from the Office of 
Management and Budget and the Council for Environmental Quality, that 
the Corps lower its sights and propose a scaled-down 10-year plan that 
focused only on a few projects that would cost between $1 to $2 
billion.\50\ That proposed plan, which would take 10 years and cost an 
estimated $1.9 billion, is now known as the Louisiana Coastal Area 
(LCA) plan.
---------------------------------------------------------------------------
    \50\ Mark Schleifstein, Corps Seeks Help to Scale Down Plan, TIMES-
PICAYUNE (New Orleans), Apr. 10, 2004. Money was not the only thing 
siphoned off from Louisiana's coastal restoration efforts. In the 
spring of 2004, New Orleans's Times-Picayune reported that Army Corps 
officials involved in restoring Louisiana's wetlands had ``been sent to 
assist those fighting in and rebuilding Iraq, including oversight of a 
similar wetlands restoration project there'' at the mouth of the Tigris 
and Euphrates River. Id.
---------------------------------------------------------------------------
    Still, state officials had hopes of securing more funds to restore 
the wetlands' storm-shielding capabilities. Louisiana Governor Kathleen 
Blanco pleaded with the Federal Government to grant her state ``just a 
fraction'' of the $5 billion it annually received from oil and gases 
leases on the outer continental shelf off of Louisiana's coast.\51\ 
Louisiana, of course, never received a greater share of oil and gas 
royalties for wetlands protection. Indeed, it has not yet receive the 
anticipated $1 to $2 billion. The President's 2005 Energy bill provided 
only $540 million for Louisiana's coastal restoration over 4 years.\52\
---------------------------------------------------------------------------
    \51\ Kathleen Babineaux Blanco, Saving America's Wetland, WASH. 
POST, Dec. 8, 2004, at A31 (op-ed).
    \52\ Michael Scherer, Bush Fought Funding in Energy Bill for Gulf 
Coast Protection, SALON, September 1, 2005 available at http://
www.salon.com/news/feature/2005/09/01/against--funding/ (last visited 
September 21, 2005).
---------------------------------------------------------------------------
    This month a report by the National Research Council (NRC) of the 
National Academy of Sciences reviewed the LCA plan and recommended its 
approval, although it cautioned that the proposed plan was, alone, 
insufficient to address the full scope of erosion concerns.\53\ The NRC 
report also recommended that the Corps consider more comprehensive, 
long-term plans, perhaps 20-30 years in duration.\54\ Perhaps most 
importantly, the report emphasized the point that wetlands restoration 
projects be planned in conjunction with levee projects and land use 
planning.\55\
---------------------------------------------------------------------------
    \53\ Mark Schleifstein, Report Gives Nod to Plan for Coast, NEW 
ORLEANS TIMES-PICAYUNE, Nov. 10, 2005.
    \54\ Id.
    \55\ Id.
---------------------------------------------------------------------------
D. Lessons and Recommendations
    What should we learn from these events? With the help of experts 
across the country now studying the issues, a few lessons become 
apparent. I list these lessons below, each accompanied by a 
recommendation.
    1. Focusing only on levees is a fool's gamble. Any new hurricane 
protection vision must be integrated and must consider simultaneously 
levee and gate construction, wetlands restoration, habitat 
preservation, canal navigation, and patterns of residential and 
commercial development.--Levees don't protect people, flood protection 
systems do. Those systems are made of multiple layers of defense all 
working together--some natural, some enhanced by human engineering, and 
some completely artificial. Moving from the Gulf toward the land, South 
Louisiana's system begins with the outer continental shelf (which cuts 
surge dramatically), sand bars and barrier islands, marshes, cypress 
swamps, and finally levees (and, perhaps one day, surge barriers). 
Canal placement protects or destroy the integrity of those barriers. 
Residential and commercial development in threatened areas control the 
risk of disaster. A levee system, without these other layers of 
protection, could never protect New Orleans from the ravages of a 
Category 5 storm. And engineers designing levees cannot predict the 
burdens on their structures without being able to predict (and thus 
control) the integrity of the outer lines of defense.
    The Dutch, who have revolutionized flood control, recognized years 
ago that a levee strategy, by itself, cannot protect a sinking city. 
Thus they have learned to design systems of flood control that are 
consistent with the natural features of the land, using islands, lakes, 
grassy plains, dikes, gates, and smart development policy to protect 
residents and commercial infrastructure.\56\ The NRC report, based on 
expert science, agrees.
---------------------------------------------------------------------------
    \56\ See John McQuaid, Beating Back the Sea: How the Dutch Fight to 
Save their Low-Lying Land, NEW ORLEANS TIMES-PICAYUNE, Nov. 14, 2005, 
at A1.
---------------------------------------------------------------------------
    Looking at hurricane protection in an integrated way will not only 
save lives, but will save money, by allowing designers to choose lines 
of defense that make the most sense and that are cost-effective.
    2. Strong plans are adaptive plans. A new hurricane protection 
vision should incorporate a formal mechanism by which an independent, 
scientific board regularly assesses the design, condition, and 
performance of hurricane protection features (from levees to barrier 
islands) to call attention to areas in need of maintenance or 
improvement.--Such a scientific board might be patterned after the 
Environmental Protection Agency's Scientific Advisory Board. The goal 
would be to create a means of regular independent, scientific review of 
hurricane protection features and requiring the Corps to respond to 
such reviews. Such a review board could be made part of the independent 
hurricane protection commission offered later in Recommendation 4.
    3. What's good for the environment is good for hurricane 
protection. A new hurricane protection vision must adhere to current 
environmental and procedural standards, including the National 
Environmental Policy Act (NEPA).--An effective hurricane protection 
strategy must rely on the health and effectiveness of natural features 
like marshes, swamps, and barrier islands. Laws like NEPA and the Clean 
Water Act's wetlands protection program, when followed faithfully, help 
to protect natural resources and their important ecological services. 
The procedural standards in such laws insure public notification and 
involvement, while making sure that large and expensive proposals are 
debated and thought through upon before being enacted.
    4. The Corps can't do it alone. Effective hurricane protection in 
the Gulf may require the establishment of an independent commission 
made up of Federal, State, and local officials, with expertise in 
policy, land use, science, and engineering to supervise the work of the 
Corps and other governmental and private entities whose work relates to 
hurricane protection.--There are three main reasons for an independent 
commission. First, an integrated approach to hurricane protection will 
involve areas of expertise outside primary Corps functions, such as 
land-use planning. Second, such a large, ongoing project probably 
requires the full attention of a single organization whose sole 
function is to monitor its effectiveness. Third, the Corps is likely to 
be seriously distracted by ongoing civil and criminal investigations 
that are likely to result in lawsuits. These events will make it 
difficult for the Corps to be open and forthcoming with its own levee 
assessments, particularly if they find faults in the Corps's 
implementation. Whatever the results of such lawsuits or 
investigations, the Corps will have lost public credibility. An 
independent commission could bring needed direction and credibility to 
flood protection efforts.
    Thank you for the opportunity to appear before your committee 
today.
                                 ______
                                 
    Response by Robert R.M. Verchick to an Additional Question from
                             Senator Inhofe

    Question. When answering Senator Jeffords question at the hearing 
you reference GAO testimony given before the House of Representatives 
as further proof that the Barrier Plan ``would not have helped, and 
probably caused more damage.'' Are you aware that before you referenced 
this GAO testimony, GAO had already gone back and retracted its own 
testimony?
    Response. My statement about the barrier project was based on two 
opinions one from Ivor van Heerden, Deputy Director of Louisiana State 
University Hurricane Center, the other from Anu Mittal, GAO's Director 
for Natural Resources and Environment.
    You ask if I was aware that Ms. Mittal has retracted her opinion. I 
am not aware of such a retraction. On September 28, 2005, Ms. Mittal 
testified before the Subcommittee on Energy and Water Development of 
the House Appropriations Committee on the subject of the original 
barrier plan. She stated: ``In fact, Corps staff believe that flooding 
would have been worse if the original proposed design had been built 
because the storm surge would likely have gone over the top of the 
barrier and floodgates, flooded Lake Pontchartain, and gone over the 
original lower levees planned for the lakefront area as part of the 
barrier plan.'' On November 9, 2005 eight days before my testimony--Ms. 
Mittal testified before your Committee on the same subject with 
substantially similar testimony. Unlike her testimony of September 28, 
2005, Ms. Mittal's prepared testimony before your Committee did not 
state an opinion about what would have happened had the barrier project 
been in place at the time of Hurricane Katrina. But she did not retract 
the former statement in her written testimony. If Ms. Mittal or another 
GAO official has retracted the statement, it has not been reported 
widely in the press. My electronic searches through news stories after 
her House testimony reveal no mention of such a retraction, though Ms. 
Mittal's original statement on September 28, 2005, was reported. In 
addition, I understand that Ivor van Heerden continues to stand by his 
opinion.
                                 ______
                                 
    Responses by Robert R.M. Verchick to Additional Questions from 
                            Senator Jeffords

    Question 1. In your testimony, you note that land use planning is a 
critical part of the redevelopment process, but outside of the normal 
area of expertise for the Corps. Can you articulate how you believe 
land use planning can be used to drive federal investment, possibly 
reducing the cost of hurricane protection, and how much progress you 
think the state and local governments are making in producing a 
comprehensive redevelopment plan?
    Response. It is critical that the Federal Government incorporate 
land-use planning into its levee and coastal restoration projects. Such 
planning would allow the government to protect natural hurricane 
barriers and flood plains, give the developers fair warning of what is 
off limits, and insulate necessary protection projects from local 
opposition. The authority to designate future land-use for purposes of 
storm protection and coastal restoration, including the development of 
planning maps, could be shared by the Army Corps (or a supervisory 
body) and the state. The Lake Pontchartrain Basin Foundation is 
developing such a map for advisory purposes. Still, the Corps has not 
been given explicit authority by Congress to follow such a map or to 
develop its own.

    Question 2. In your testimony, you describe the need for adaptive 
management. In the Water Resource Development Act of 2000, Congress 
enacted the first authorization for adaptive management with an 
authorization of 10 million dollars. Is this the type of action you 
would like to see us take in response to Katrina specifically 
authorizing the Corps to spend money just for the purpose of 
continuously reviewing and revising its hurricane protection plans?
    Response. Reviewing and revising its hurricane protection plans are 
the most important things it should being doing. Had the Corps had its 
requested budget and had it the authority to spend resources ``just 
for'' that purpose, the disaster in New Orleans might never have 
happened. Barrier islands change. Coastal wetlands change. Sea levels 
rise. Land sinks. If our protection projects do not adjust with these 
changes, we are fostering a false sense of security and wasting our 
money.

    Question 3. Did the barrier plan under consideration by the Corps 
of Engineers in the early 1970s include features that may have reduced 
the storm surge that entered the city through the MRGO Canal?
    Response. I am not aware of any feature of the barrier plan that 
would have reduced the storm surge that entered the city through the 
MRGO.

    Question 4. With regard to the 1977 district court ruling by Judge 
Schwartz in the ``Save our Wetlands'' v. Rush case, how and why did the 
Corps decide not to pursue the barrier option to protect Lake 
Pontchartrain from coastal surges rising from the Gulf?
    Response. The Corps was encountering strong opposition to the 
barrier plan from local citizens who did not want to pay a very high 
price for a project that might endanger the vitality of Lake 
Pontchartrain and from representatives of areas on the Lake Borgne side 
of the barrier who would have been at greater risk of flooding during 
hurricanes. By 1982, the New Orleans district of the Corps of Engineers 
had changed its mind and favored the high level plan ``because it would 
cost less than the barrier plan'' and ``have fewer detrimental effects 
on Lake Pontchartrain's environment.'' One of the factors underlying 
the changed cost assessment was no doubt the escalating cost of 
acquiring rights of way from property owners who opposed the barrier 
project.

    Question 5. It is worth noting that the barrier plan experienced 
significant local opposition at the time, documented in part by an 
informal poll conducted by Congressman Livingston, which showed that 62 
percent of New Orleans residents either opposed the barrier or wanted 
to wait to construct it until studies were completed. Can you describe 
your understanding of the reasons the Corps abandoned the barrier plan?
    Response. Please see answer to previous question.

    Question 6. Mr. Verchick, in the opinion of the lawsuit in 
question, the judge wrote, ``The foregoing opinion should in no way be 
construed as precluding the Lake Pontchartrain project as proposed or 
reflecting on its advisability in any manner. The Court's opinion is 
limited strictly to the finding that the EIS of August 1974 for this 
project was legally inadequate. Upon proper compliance with the law 
with regard to the impact statement this injunction will be dissolved 
and any hurricane plan thus property presented will be allowed to 
proceed.'' Can you comment on whether or not this finding precluded the 
Corps from proceeding with the barrier plan?
    Response. This ruling did not preclude the Corps from proceeding 
with the barrier plan. It merely required the Corps to produce an 
adequate Environmental Impact Statement before doing so. In the 1970s 
the Army Corps often encountered challenges to its EISs. It regularly 
returned with improved EISs and proceeded with its projects in 
substantially original form.

    Question 7. One of the items in question in the EIS for the barrier 
project was the fact that the biological analysis in the EIS relied 
only on one phone conversation with a single marine biologist. Another 
item in question was that the benefits assessment included the benefits 
of destroying wetlands for urban development but failed to consider 
that the area had been designated as a protected wetland. Can you 
comment on what these points demonstrate about the NEPA process and its 
application to the barrier project?
    Response. NEPA is a ``stop and think'' provision. It requires the 
federal government to stop and think about large projects before 
embarking upon them. The NEPA process helps government identify 
ecological issues as well as economic issues. In the case of the 
barrier project considered at a time when NEPA was relatively new the 
Corps's EIS was woefully inadequate. In reconsidering the proposal, the 
Corps saw both ecological and economic challenges to the proposal. It 
then chose another option the levee option which it believed would be 
more efficient. Indeed, that option would have protected New Orleans 
from most of Katrina's devastation had it been designed and constructed 
properly. It is the Corps's failure to properly design and construct 
the levees that apparently resulted in the flooding of most of the 
city. The NEPA process had nothing to do with that failure.
                                 ______
                                 
    Responses by Robert R.M. Verchick to Additional Questions from 
                             Senator Vitter

    Question 1. You suggest that our hurricane protection system must 
have ``adaptive plans''. Are you familiar with the current Corps 
authorization process? Do you believe that this system provides the 
adaptive structure needed?
    Response. It clearly does not. The Corps needs an explicit mandate 
and a budget earmarked for such review and maintenance.

    Question 2. You stated that ``what is good for the environment is 
good for hurricane protection''. Could you expand upon this statement?
    Response. Protecting and restoring coastal wetlands and barrier 
islands is good for the environment. These natural systems are 
necessary to buffering storms and slowing storm surges. Protecting and 
restoring coastal wetlands is good for, and indeed necessary for, 
hurricane protection in the region. In addition, what is good for the 
environment and for hurricane protection is also good for the economy, 
as these natural features are necessary to support the Gulf fisheries 
and to protect oil and gas infrastructure in the Gulf.

    Question 3. Would you support a streamlined environmental process 
that would allow for an expedited NEPA approval process to insure a 
greater level of hurricane and flood protection at a faster pace?
    Response. Absolutely not. First, there is no evidence that the NEPA 
process is slowing the building of hurricane protection. If anything is 
slowing this process, it is the reluctance of the White House and 
Congress to support Category 5 protection. Second, the NEPA process 
serves the goal of hurricane protection by encouraging the government 
to consider environmental effects in its analysis. Recall that 
protection of the coastal environment (islands, wetlands, and the 
surrounding ecosystems) enhances storm protection. Everyone wants 
levees built as fast as possible, but not if they will be done poorly. 
If anything, Katrina should teach us to ``measure twice, cut once.''

    Question 4. Currently, the section 404 program does not distinguish 
between coastal wetlands subject to erosion and inland wetlands. I have 
heard from numerous constituents about the barriers they have 
encountered when trying to protect coastal wetlands from loss. Knowing 
the importance of coastal wetlands to buffer storm surge, do you 
believe we should revisit this policy?
    Response. I am not sure how this lack of distinction impedes the 
protection of coastal wetlands. I would need more information to answer 
the question.

    Question 5. The levees installed on the lower Mississippi River 
system and the construction of the MRGO have caused the loss of 
hundreds of thousands of acres of wetlands subject to section 404 
jurisdiction. In many cases, these same coastal wetlands are also 
designated ``critical habitat'' for endangered species. Do you believe 
we should hold the federal government responsible for these actions?
    Response. Yes.

    Question 6. Louisiana currently has only three miles of state 
waters. Texas and Florida have over nine miles of coastal waters. This 
disparity has caused Louisiana to loose billions of dollars in offshore 
energy royalties. These funds could have been used to restore our coast 
and provide hurricane protection. What are your thoughts on this 
unequal treatment?
    Response. The treatment is unfair to Louisiana and unwise for the 
country. It is unfair in the context of other Gulf states, but also in 
the context of royalties for other minerals. Interior states, for 
instance, receive much greater benefit from the royalties of minerals 
mined on their land than does Louisiana from oil and gas. It is also 
unfair in the sense that Louisiana's coastal erosion (and thus its 
increased exposure to storm surges) is in large part caused by the oil 
and gas industry. At the very least, Louisiana should be compensated 
for these externalities. Louisiana's claim to more oil and gas revenue 
goes beyond a claim for royalties, it is a claim for restitution for 
the despoilment of its coast and the increased threat to its people. 
These externalities are not visited upon Texas and Florida (which have 
fewer protective wetlands), even though they receive more revenue. It 
is an unwise policy for the country because the oil and gas 
infrastructure relies on the protection from storm surges.

    Question 7. In your testimony, you call for an independent 
commission to ``supervise'' the work of the Army Corps. Could you 
provide another example where this model has been successful?
    Response. Two different models are the South Florida Ecosystem 
Restoration Task Force and the Tennessee Valley Authority. The systems 
are far from perfect, particularly in the latter case. But the idea of 
a supervisory commission with broad expertise would benefit the 
rebuilding of the Gulf Coast.
  

                                  <all>

</pre></body></html>
